<html>
<title> - AN EXAMINATION OF THE PRESIDENT'S FISCAL YEAR 2008 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 AN EXAMINATION OF THE PRESIDENT'S FISCAL YEAR 2008 BUDGET REQUEST FOR 
                                  THE 
                    DEPARTMENT OF HOMELAND SECURITY 

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 9, 2007

                               __________

                            Serial No. 110-3

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

35-262 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



































                     COMMITTEE ON HOMELAND SECURITY



               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (ii)






























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................    42
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    57
The Honorable Donna Christensen, a Delegate in Congress From the 
  U.S. Virgin Islands............................................    52
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    41
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolian....................................    53
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    59
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    55
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    47
  Prepared Statement.............................................    48
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................    45
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Transportation Security and Infrastructure Protection.......    39
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    43
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    61
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    37

                                Witness

The Honorable Michael Chertoff, Secretary, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    16

                             For the Record

Material submitted by Hon. Peter T. King:
  Fact Sheet: Select Homeland Security Accomplishments For 2006..     3

                                Appendix

Additional Questions and Responses:
  The Honorable Michael Chertoff Responses.......................    73


 AN EXAMINATION OF THE PRESIDENT'S FISCAL YEAR 2008 BUDGET REQUEST FOR 
                  THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        Friday, February 9, 2007

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:10 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Markey, Dicks, 
Lofgren, Jackson Lee, Christensen, Etheridge, Langevin, Carney, 
Carney, Green, Perlmutter, King, Lungren, and Bilirakis.
    Chairman Thompson. The committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony on the President's fiscal year 2008 budget request 
for the Department of Homeland Security.
    Welcome, Mr. Secretary.
    Let me begin by thanking you for delivering your testimony 
within the time frame requested by the committee. This is a 
good start for the new Congress. I appreciate your cooperation 
to date on this matter. I believe I have seen you more this 
year than I did all in the last Congress. You are keeping your 
word about meeting more often with this committee, and I 
appreciate it, and I know the members do likewise.
    Last February, when you appeared before this committee to 
discuss the administration's fiscal year 2007 budget, the 
entire Nation was disgusted with the atrocious response to 
Hurricane Katrina. Confidence in FEMA and the overall 
Department was at an all-time low. At the same time, in last 
year's budget, the Department proposed drastic cuts to programs 
that assist our first responders who are on the front lines of 
the war on terror here at home, and finally, for mass transit, 
rail and critical infrastructure, we were enormously 
shortchanged by that budget. It was evident to the Nation that 
the Department was not prepared to handle another catastrophic 
terrorist attack or natural disaster.
    Today, the committee is reviewing the Department's fiscal 
year 2008 budget proposal, a budget which you will assert 
protects the Nation from dangerous people and goods, protects 
critical infrastructure, improves emergency preparedness and 
response, and improves the operation and management of the 
department. Well, this may be a new year, but in some 
instances, Mr. Secretary, it feels like deja vu.
    I do recognize some significant increases in an area such 
as border security. Unfortunately, I fear that, behind the 
increases, lurk some problems rather than answers. For example, 
the budget requests $31 million to add an additional 600 
detention beds for fiscal year 2008. I am not sure that 600 
beds are enough if the intention is to truly increase work site 
enforcement. In addition, adding beds alone is not the only 
issue. Detention space needs to be humane. Just last week, I 
saw reports of the tent city, nicknamed STRITMO, set up in 
Raymondville, Texas. The conditions depicted by these reports 
are far from humane. I can assure you that this committee will 
be looking into this matter.
    I also have other concerns, Mr. Secretary. I am concerned 
that the budget does not adequately address why the Department 
ranked at the bottom for the second time in nearly every 
category of the OPM employee satisfaction, certainly. I am also 
concerned that the budget is, again, passing the Homeland 
Security book to State and locals.
    Once again, the President's budget would eliminate funding 
for local law enforcement terrorism detention program. This 
year's budget would cut 52 percent from the State Homeland 
Security grant program, which provides grants to first 
responders in all 50 States and U.S. territories. The 
Firefighters Grant Program, the Fire Act, would be cut by 
nearly 50 percent. First responder training grants would be 
slashed by 55 percent, and the President's budget would zero 
out funding for grants to metropolitan medical systems that are 
needed to prepare for the mass casualties from a disaster like 
pandemic flu.
    As I have said to you before, millions of lives are at 
stake, and we can not continue to protect the homeland on the 
cheap, nor can we do it through contracting services.
    One last note. I am, personally very disappointed that you 
are zeroing out the minority serving institution research and 
fellowship program. As we have discussed on numerous occasions, 
the Department must reach out to these institutions to assure 
that our Homeland Security efforts mirror America and its 
citizens. This elimination does not show a commitment to doing 
so.
    With that, Mr. Secretary, I look forward to hearing your 
testimony about the Department's fiscal year 2008 budget 
priorities and its justifications.
    The Chair now recognizes the ranking member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Chairman Thompson.
    Good morning, Mr. Secretary. It is nice to see you again.
    Let me, at the outset, say that I sat through most of the 
hearing the other day when we heard testimony from the 
inspector general and the comptroller general, and quite 
frankly, what I got from the testimony is that I think that you 
and your management team that you have in place are doing a 
very good job. The fact is, when you are talking about 22 
departments and agencies being consolidated and 80,000 
employees, all of those numbers we have heard before, there are 
tremendous challenges, and I believe that you and the team you 
have in place are going definitely in the right direction and 
have a plan in place.
    Also, I would like to, for the record--and I took this from 
the Department's Web site. It is a list of the accomplishments 
for 2006 of Homeland Security.
    Mr. Chairman, I would like to make this part of the record.
    Chairman Thompson. Without objection.
    [The Information follows:]

                             For the Record

   Submitted for the Record by the Honorable Peter T. King, Ranking 
                 Member, Committee on Homeland Security

     Fact Sheet: Select Homeland Security Accomplishments For 2006

Release Date: December 29, 2006

Securing The Nation's Transportation System: Transportation Security 
Administration (TSA)
        <bullet> TSA Responds to Liquid Explosive Threat in London: In 
        response to the foiled terror plot in England, TSA trained its 
        43,000 security officers to address the threat of liquid 
        explosives in a matter of hours. After two days security wait 
        times returned to normal levels. Six weeks later, after 
        conducting extensive explosive testing with our federal 
        partners, TSA again proved its flexibility by modifying its ban 
        on liquids by allowing limited quantities onboard aircraft. 
        Again, efficiency was not seriously affected and in fact wait 
        times during the Thanksgiving holiday were slightly lower than 
        in 2005.
        <bullet> TSA Strengthens Air Cargo Security: In Fall 2006, TSA 
        issued two security directives requiring inspection of 100 
        percent of high risk cargo, as well as packages tendered to 
        airlines at the ticket counters. TSA also expanded the use of 
        explosives detection canine teams to screen cargo and added 100 
        air cargo inspectors.
        <bullet> TSA Screens 700,000 Port Workers: TSA conducted more 
        than 700,000 name-based security threat assessments on port 
        workers. In partnership with the U.S. Coast Guard, TSA issued a 
        proposed rule and will soon issue a final rule that clears the 
        path to begin enrollment for the Transportation Worker 
        Identification Credential (TWIC) program in early 2007.
        <bullet> TSA Raises Freight Rail Security Baseline: TSA worked 
        with freight rail stakeholders to mitigate the greatest 
        vulnerability in freight rail transportation the standing Toxic 
        Inhalation Hazard (TIH) rail car. These efforts provide for 
        minimizing the occurrence of unattended TIH cars in High Threat 
        Urban Areas, and if they are present, lowering the cars' 
        standstill times and providing protection or surveillance. TSA 
        also published a notice of proposed rulemaking that would 
        require a secure chain of custody for certain security 
        sensitive materials and a car location reporting requirement 
        allowing DHS to locate any car containing security sensitive 
        materials at any time.
        <bullet> TSA Commences Baseline Security Evaluations for Mass 
        Transit and Passenger Rail Systems: Through this program, 100 
        nation-wide Surface Transportation Inspectors reviewed 
        implementation of 17 Security and Emergency Management Action 
        Items that TSA and the Department of Transportation's Federal 
        Transit Administration (DOT/FTA) jointly developed, in 
        coordination with the Mass Transit Sector Coordinating Council. 
        Implementation of the action items helps elevate security 
        readiness throughout the public transportation industry by 
        establishing baseline measures.
        <bullet> TSA Strengthens TSO Workforce: TSA has enhanced the 
        TSO workforce through increased focus on IED training, lower 
        injury rates, new career opportunities, and a new performance 
        incentive system.

Strengthening Border Security: Customs and Border Protection (CBP)
        <bullet> President Successfully Deploys 6,000 National Guard to 
        Border: In support of the President's initiative to deploy up 
        to 6,000 National Guard personnel to the Southwest border, 
        Border Patrol launched Operation Jumpstart. In addition to the 
        National Guard deployment, Border Patrol staffing increased by 
        8 percent, from 11,265 to 12,349.
        <bullet> Increased Border Security At and Between the Nation's 
        Ports of Entry: CBP Border Patrol agents reduced the number of 
        apprehensions at the borders by more than 8 percent in fiscal 
        year 2006. As a result of targeted coordinated enforcement 
        efforts, CBP Border Patrol reduced non-Mexican illegal alien 
        apprehensions by 35 percent. In fiscal year 2006, CBP Border 
        Patrol seized more than 1.3 million pounds of marijuana and 
        11,900 pounds of cocaine between the ports of entry. CBP 
        officers at the nation's ports of entry seized more than 
        644,000 pounds of marijuana, arrested more than 23,000 
        suspected criminals, interdicted more than 209,000 inadmissible 
        aliens and 1.628 million agricultural interceptions (meats and 
        plants).
        <bullet> Increased Border Security Draws Reduction in 
        Apprehensions: CBP Border Patrol agents reduced the number of 
        apprehensions at the borders by more than 8 percent compared to 
        last year. As a result of targeted enforcement efforts and 
        close coordination with other federal, state, tribal and local 
        agencies, the Border Patrol saw a 35 percent decrease in the 
        number of apprehensions of non-Mexican illegal aliens compared 
        to 2005.
        <bullet> CBP Deploys Over 880 Radiation Portal Monitors at Land 
        and Sea Ports: CBP deployed 280 new radiation portal monitors 
        throughout the Nation's ports of entry, bringing the number of 
        radiation portal monitors to 881 at the Nation's land and sea 
        ports of entry.
        <bullet> CSI Expands to 50 Ports, Covering Over 80 Percent of 
        Containers: CBP expanded the Container Security Initiative 
        (CSI), increasing participating ports to 50 in fiscal year 
        2006. CSI now covers more than 80 percent of U.S.-bound 
        maritime containers.
        <bullet> Processed 61 Repatriation Flights: During the 
        evacuations from Lebanon, DHS facilitated the processing of 61 
        civilian and military repatriation flights or 11,287 U.S. 
        citizens, while continuing to be vigilant in identifying any 
        individuals who would try and enter the U.S. fraudulently or 
        with malicious intent. DHS fully vetted all arriving persons 
        and ensured that all persons were checked for terrorism links, 
        criminal warrants, immigration and other violations. Federal 
        Air Marshals, Aviation Security Inspectors and Transportation 
        Security Officers were also deployed to key sites both in the 
        U.S. and abroad to facilitate secure flight and screening 
        operations.
        <bullet> DHS Awards SBInet Contract to Boeing: DHS awarded a 
        contract to Boeing Co. to implement SBInet along the Northern 
        and Southern Borders. The program will provide DHS with the 
        best possible tools to detect, identify, classify, respond to 
        and resolve illegal entry attempts at our land borders.
        <bullet> CBP Increases Capability to Secure the Northern 
        Border: CBP Air and Marine opened its third of 5 Air Branches 
        planned for the Northern Border of the United States. The Great 
        Falls Air Branch, Montana joins the Bellingham, Washington, and 
        Plattsburgh, New York, Air Branches in supporting Homeland 
        Security efforts along the northern tier.
        <bullet> Ports of Entry Inspections Form First Line of Defense 
        at Land Borders: CBP officers inspected 422 million travelers, 
        more than 132 million cars, trucks, buses trains, vessels and 
        aircraft. CBP Officers inspected 1.19 million private vehicles, 
        11.48 million trucks and more than 1 million aircraft.
        <bullet> CBP Immigration Advisory Program (IAP) Enhances 
        Security: The IAP enhances security by preventing terrorists 
        and other high-risk passengers from boarding aircraft destined 
        for the United States. Since its inception in 2004, IAP teams 
        have made more than 1,000 no-board recommendations for high-
        risk or inadequately documented passengers. IAP accomplishments 
        equate to approximately $1.6 million in cost avoidance 
        associated with detaining and removing passengers who would 
        have been returned after having been refused admission to the 
        United States, and $1.5 million in potential air carrier 
        potential savings.

    Protecting National Security and Upholding Public Safety: 
Immigration and Customs Enforcement (ICE)
        <bullet> ``Catch and Return'' Replaces ``Catch-and-Release'' 
        Along the Borders: The practice of ``catch and release'' for 
        non-Mexican aliens existed for years and was one of the 
        greatest impediments to gaining control of the border. In 2006, 
        the Department of Homeland Security and ICE re-engineered the 
        detention and removal process to effectively end this practice 
        along the border, an accomplishment that many considered 
        impossible in 2005 when only approximately 29 percent of 
        apprehended non-Mexican aliens were detained along the border.
        <bullet> ICE Sets New Record for Worksite Enforcement: More 
        than 4,300 arrests were made in ICE worksite enforcement cases, 
        more than seven times the arrests in 2002, the last full year 
        of operations for U.S. Immigration and Naturalization Service.
        <bullet> ICE Sets New Record for Compliance Enforcement: ICE 
        completed 5,956 compliance enforcement investigations resulting 
        in the administrative arrest of 1,710 overstay and status 
        violators, a 75 percent increase over the number of 
        administrative arrests in FY 2005.
        <bullet> ICE Sets New Record for Alien Removals: ICE removed a 
        record 189,670 illegal aliens from the country this fiscal 
        year, a twelve percent increase over the number of removals 
        during the prior fiscal year. ICE also increased its detention 
        bed space by 6,300 during fiscal year 2006. Combined with 
        fiscal year 2007 enhancements, ICE is now funded for a total of 
        27,700 beds.
        <bullet> ICE Nearly Triples the Number of Fugitive Operations 
        Teams: ICE nearly tripled the number of fugitive operations 
        teams deployed nationwide from 18 to 50. These additional teams 
        maximized the efficiency of ICE immigration enforcement efforts 
        to locate, apprehend and remove fugitive aliens, nearly one-
        third of whom have criminal histories.
        <bullet> ICE Dismantles one of the World's Most Powerful Drug 
        Cartels: ICE concluded a 15-year probe into Colombia's Cali 
        drug cartel, once responsible for 80 percent of the world's 
        cocaine supply, with guilty pleas by its leaders and a $2 
        billion forfeiture settlement. More than 141 members of this 
        organization have been arrested, indicted or convicted as part 
        of this ICE case.
        <bullet> ICE Targets Transnational Gangs: Through Operation 
        Community Shield, ICE arrested roughly 2,290 violent gang 
        members nationwide in 2006, of which 1,073 had convictions for 
        violent crimes. Since its inception in 2005, Operation 
        Community Shield has resulted in the arrest of 3,700 gang 
        members.

Protecting the Public, the Environment & U.S. Economic Interests: U.S. 
Coast Guard
        <bullet> U.S.Coast Guard Christens First New High Endurance 
        Cutter in Over 35 Years: The U.S. Coast Guard christened the 
        Coast Guard cutter Bertholf, the first new high endurance 
        cutter to be built in more than 35 years and the first National 
        Security Cutter in its Deepwater acquisition program. The 
        cutter was designed to satisfy the Coast Guard's multi-mission 
        responsibilities in homeland security, national defense, marine 
        safety and environmental protection. The Coast Guard cutter 
        Bertholf will play an important role in enhancing the Coast 
        Guard's operational readiness, capacity and effectiveness at a 
        time when the demand for its services has never been higher.
        <bullet> U.S. Coast Guard Implements National Capital Region 
        Air Defense Mission: The U.S. Coast Guard officially assumed 
        responsibility for air intercept operations in the nation's 
        capital from U.S. Customs and Border Protection. The Coast 
        Guard will support the North American Aerospace Defense 
        Command's mission with its rotary wing air intercept 
        capability. Coast Guard HH-65C helicopters and crews will be 
        responsible for intercepting unauthorized aircraft which fly 
        into an air defense identification zone that surrounds 
        Washington.
        <bullet> U.S. Coast Guard Arrests ``Tijuana Cartel'' Drug Lord: 
        In August, off the coast of San Diego, the U.S. Coast Guard, 
        along with federal drug agents, arrested Mexican drug lord 
        Francisco Javier Arellano-Felix, leader of a major violent 
        gang, known as the Tijuana Cartel, responsible for digging 
        elaborate tunnels to smuggle drugs under the U.S. border.
        <bullet> U.S.Coast Guard Set Records for Drug Seizures and 
        Arrests: This year, counter-drug boardings from U.S. and Royal 
        Navy vessels resulted in all-time records for seizures and 
        arrests. The 93,209 pounds of drugs that were seized was more 
        than the combined amount seized in the last two years.

Preventing or Mitigating the Effects of Catastrophic Terrorism: Science 
and Technology (S&T)
        <bullet> DHS Launches the Air Cargo Explosives Detection Pilot 
        Program: The $30 million program, launched at San Francisco 
        International Airport and at Seattle-Tacoma International 
        Airport, is designed to capture vital information associated 
        with enhanced air cargo screening and inspection, and will 
        provide critical knowledge to help TSA make future decisions 
        and assist in technological research and development planning 
        for the national air cargo security infrastructure.
        <bullet> S&T Announces National Interoperability Baseline 
        Survey Results: The Office for Interoperability and 
        Compatibility's SAFECOM program has released the final results 
        of its National Interoperability Baseline Survey, fielded 
        earlier this year to measure the capacity for interoperable 
        communications among emergency response agencies nationwide. By 
        identifying the Nation's interoperability capacities, survey 
        findings will help policy makers and emergency response leaders 
        make informed decisions about strategies for improving 
        interoperability and target resources. The landmark analysis 
        surveyed 22,400 law enforcement, fire, and emergency medical 
        service agencies nationwide, and had a response rate of 
        approximately 30 percent.
        <bullet> TSA Conducts Rail Security Explosives Detection Pilot 
        Programs: Rail Security Explosives Detection Pilot Programs 
        were conducted in Baltimore, MD and Jersey City, NJ to test and 
        evaluate security equipment and operating procedures as part of 
        DHS's broader efforts to protect citizens and critical 
        infrastructure from possible terrorist attacks.
        <bullet> S&T Breaks Ground for the National Biodefense Analysis 
        and Countermeasures Center(NBACC): The facility will comprise 
        roughly 160,000 gross square feet with a concentration of 
        research and associated space. NBACC will support a staff of 
        approximately 120, and will house two centers, the Biological 
        Threat Characterization Center and the National Bioforensic 
        Analysis Center.
        <bullet> DHS Awards Contracts to Support Emerging Counter-
        MANPADS Technologies: S&T completed Phase II of a multi-phase 
        program to migrate onboard military countermeasures technology 
        to commercial aircraft to protect against shoulder-fired, anti-
        aircraft missiles, known as Man-Portable Air Defense Systems 
        (MANPADS). Under Phase III of the program S&T and its industry 
        partners are collecting operations, support, and performance 
        data. Additionally, S&T selected three firms to receive $7.4 
        million in combined contract awards to assess alternative 
        methods to counter the MANPADS threat.

    Keeping America's Doors Open While Ensuring National Security: U.S. 
Citizenship and Immigration Services(USCIS)
        <bullet> USCIS Eliminates Backlog: Through increased 
        productivity, reengineered processes, and automated services, 
        USCIS eliminated case backlogs of applications for immigration 
        services and benefits, reducing the backlog from 3.8 million 
        cases in January 2004 to less than 10,000 at the end of 
        September 2006.
        <bullet> USCIS Establishes National Security and Records 
        Verification Directorate: To combat fraud and criminal 
        activity, USCIS established the National Security and Records 
        Verification Directorate, deploying hundreds of officers who 
        specialize in the detection of fraudulent documentation and 
        immigration scams to USCIS field offices and centers throughout 
        the United States.
        <bullet> Basic Pilot Employment Eligibility Verification 
        Program Enrolls 11,000 Employers: USCIS enrolled more than 
        12,500 employers and businesses in the Basic Pilot Employment 
        Eligibility Verification Program. This program verifies the 
        work authorization of more than one million new hires a year at 
        47,000 hiring sites across the United States through online 
        employment authorization checks against Social Security 
        Administration and DHS databases.
        <bullet> USCIS Expands Electronic Filing: USCIS expanded 
        opportunities for customers to file service or benefit 
        applications electronically, and then track the status of their 
        cases online through the USCIS.gov Web site. To further 
        simplify immigration processing, new biometric standards were 
        developed that permit USCIS to store electronic fingerprints, 
        photographs, and signatures.
        <bullet> USCIS Welcomes New American Service Members: USCIS 
        naturalized members of the United States armed forces during 
        special overseas ceremonies in Afghanistan, Djibouti, Germany, 
        Greece, Iceland, Iraq, Italy, Japan, Kuwait, Kenya, South 
        Korea, Spain, the United Kingdom and in the South Pacific 
        aboard the USS Kitty Hawk. This year, USCIS welcomed more than 
        1,604 new Americans during these ceremonies.

Establishing A Nimble, Effective Emergency Response System: Federal 
Emergency Management Agency (FEMA)
        <bullet> Rebuilding FEMA as the Preeminent Emergency Management 
        Agency for the Nation: FEMA is concentrating efforts on 
        improving core competencies, in such areas as Incident 
        Management, Operational Planning, Disaster Logistics, Emergency 
        Communications, Public Communication and Customer Service. FEMA 
        is also focused on improving its business process to develop a 
        strong foundation to support its mission, and has undertaken 
        agency-wide organizational assessments in areas that range from 
        human resources and logistics, to budgeting, communications, 
        financial management, procurement and data systems management.
        <bullet> DHS Pre-Designates Disaster Coordination Teams: In 
        preparation for the 2006 hurricane season, DHS pre-designated 
        five teams to coordinate the federal government's role in 
        support of state and local governments preparing for, and 
        responding to major natural disasters. In total, 27 federal 
        officials were appointed, each with unique expertise and 
        experience.
        <bullet> FEMA Achieves Key Developments in Assisting Disaster 
        Victims: FEMA increased registration capability to 200,000 a 
        day through its toll-free registration number, online 
        registration process, registering individuals in shelters and 
        using mobile units; increased home inspection capacity to 
        20,000 a day; activated a contract to assist in identity 
        verification in future disasters; and tightened processes to 
        speed up delivery of needed aid while simultaneously reducing 
        waste, fraud and abuse.
        <bullet> FEMA Strengthens Logistics Management Capabilities: 
        FEMA implemented the Total Asset Visibility (TAV) program to 
        provide enhanced visibility, awareness, and accountability over 
        disaster relief supplies and resources. It assists in both 
        resource flow and supply chain management. FEMA implemented 
        Phase One of TAV in the hurricane-prone Gulf Coast States for 
        the 2006 hurricane season and plans to expand it to all the 
        regions. Interagency Agreements, Memoranda of Understanding, 
        and private sector contracts were also developed to strengthen 
        disaster logistics capabilities.
        <bullet> FEMA Improves Communications and Situational 
        Awareness: Real time information sharing is already occurring. 
        To improve upon existing systems, DHS has initiated 
        technological advances and elevated the standard by using 
        satellite imagery, upgrading radios, and employing frequency 
        management. The new National Response Coordination Center at 
        FEMA is now operable. In addition, Mobile Registration Intake 
        Centers, logistics supply systems and total asset visibility 
        programs have been implemented.
        <bullet> Real time information sharing is occurring at all 
        levels including local, state and federal. Advances in 
        technology are being utilized; satellite imagery, upgraded 
        radios and frequency management are the new standard.
        <bullet> FEMA Enlists Seasoned Leadership Team: In addition to 
        the confirmation of Director R. David Paulison, FEMA has built 
        a strong team of leaders across the organization who each bring 
        more than 20 years of experience in emergency management or 
        applicable fields. FEMA has also filled nine out of ten 
        Regional Director positions with the same standard of 
        experience, illustrating the vital importance of strong 
        regional leadership, and is in the process of filling the last 
        position.

Building a Culture of Preparedness: Emergency Preparedness
        <bullet> DHS Awards $2.6 Billion for Preparedness: Included in 
        this total, approximately $1.7 billion in Homeland Security 
        Grant funds has been awarded to state and local governments for 
        equipment, training, exercises and various other measures 
        designed to increase the level of security in communities 
        across the nation. $400 million in grants was awarded to 
        strengthen the nation's ability to prevent, protect against, 
        respond to, and recover from terrorist attacks, major disasters 
        and other emergencies that could impact this country's critical 
        infrastructure. Almost $300 million was also distributed in 
        fire grants to fire departments and EMS organizations to 
        enhance their response capabilities and to more effectively 
        protect the health and safety of the public and emergency 
        response personnel with respect to fire and all other hazards.
        <bullet> DHS Reviews 131 State and Local Emergency Plans: By 
        reviewing state and local disaster plans, collocating decision-
        makers, and pre-designating federal leadership, DHS is 
        improving coordination across all levels of government. Through 
        the Nationwide Plan Review, DHS completed visits to 131 sites 
        (50 states, 6 territories, and 75 major urban areas) and 
        reviewed the disaster and evacuation plans for each. These 
        reviews will allow DHS, states and urban areas to identify 
        deficiencies and improve catastrophic planning.
        <bullet> DHS Completes National Infrastructure Protection Plan 
        (NIPP): The NIPP is a comprehensive risk management framework 
        that clearly defines critical infrastructure protection roles 
        and responsibilities for all levels of government, private 
        industry, nongovernmental agencies and tribal partners.
        <bullet> DHS Receives New Authority to Enhance Chemical 
        Security: DHS was given authority by Congress to implement 
        risk-based security standards for chemical facilities that 
        present high levels of security risk. This allows the 
        department to recognize the significant investments that 
        responsible facilities have made in security, while providing 
        the department with authority to ensure that high-risk 
        facilities have adequate safeguards in place.

Transforming U.S. Border Management & Immigration Systems: US-VISIT
        <bullet> DHS and DOJ Begin to Establish Interoperability: DHS 
        and the Department of Justice began the initial phase of 
        establishing interoperability between the US-VISIT program's 
        Automated Biometric Identification System (IDENT) and the FBI's 
        Integrated Automated Fingerprint Identification System (IAFIS) 
        fingerprint databases. This interoperability will increase DHS 
        and the State Department's ability to screen travelers, 
        increase accuracy of matching, and provide greater ability to 
        match against latent prints.
        <bullet> DHS Tests Biometric Verification At Sea: US-VISIT has 
        teamed with the U.S. Coast Guard to test mobile biometrics 
        collection at sea. The U.S. Coast Guard and US-VISIT began a 
        pilot program to collect biometric information digital 
        fingerprints and photographs from migrants interdicted while 
        attempting to unlawfully enter U.S. territory through the Mona 
        Passage, the body of water between the Dominican Republic and 
        Puerto Rico.
        <bullet> US-VISIT Deploys E-Passport Readers to 33 Airports: 
        US-VISIT completed deployment of e-Passport readers to 33 U.S. 
        airports so that ports of entry have the capability to compare 
        and authenticate data in e-Passports issued by Visa Waiver 
        Program (VWP) countries.

Protecting Our Nation from Dangerous Goods: Domestic Nuclear Detection 
Office (DNDO)
        <bullet> DNDO Awards over $1 Billion for Next Generation 
        Nuclear Detection Devices: DNDO announced the award of Advanced 
        Spectroscopic Portal (ASP) program contracts totaling $1.15 
        billion to enhance the detection of radiological and nuclear 
        materials at the nation's ports of entry. ASP models were 
        deployed to the Nevada Test Site, where they will be tested 
        using nuclear threat material. Portals have also been delivered 
        to the New York Container Terminal for data collection.
        <bullet> DNDOEstablishes Nuclear Forensics Center: DNDO 
        established the National Technical Nuclear Forensics Center to 
        collect and analyze material evidence in order to identify and 
        ultimately prosecute those responsible for any potential act of 
        nuclear terrorism.

    Training Our Front Line Officers: Federal Law Enforcement Training 
Center (FLETC)
    <bullet> FLETC Trains 51,000: Over 51,000 federal, state, local, 
tribal, campus and international law enforcement agents and officers 
were trained by FLETC on topics including border security, and the 
prevention and detection of nuclear, radiological or biological 
attacks.

Establishing Policy to Protect Our Nation: DHS Policy Office
        <bullet> DHS Renegotiates Passenger Name Record Data: DHS 
        successfully renegotiated an interim agreement regarding 
        Passenger Name Record (PNR) data with the European Union, 
        allowing the department to make full use of passenger data as 
        needed to protect our borders. Under the agreement, CBP will 
        have new flexibility to share PNR data with other counter-
        terrorism agencies within the U.S. government, carrying out the 
        President's mandate to remove obstacles to counter-terrorism 
        information sharing.
        <bullet> Secure Freight Initiative Launches to Begin Screening 
        at Foreign Ports: DHS and the Department of Energy announced 
        the first phase of the Secure Freight Initiative, an 
        unprecedented effort to build upon existing port security 
        measures by enhancing the federal government's ability to scan 
        containers for nuclear and radiological materials overseas and 
        to better assess the risk of inbound containers. The initial 
        phase involves the deployment of a combination of existing 
        technology and proven nuclear detection devices to six foreign 
        ports: Port Qasim, Pakistan; Puerto Cortes, Honduras; 
        Southampton, United Kingdom; Port Salalah, Oman; Port of 
        Singapore; and the Gamman Terminal at Port Busan, Korea.
        <bullet> Administration Announces Security Improvements to Visa 
        Waiver Program: The Administration announced its intention to 
        work with Congress to reform the Visa Waiver Program (VWP), to 
        strengthen security and facilitate international allies' 
        ability to join the program. A significant component of the 
        proposed reform is the implementation of a secure travel 
        authorization system that would allow us to receive data about 
        travelers from VWP countries before they board a plane.

Always Be Ready: Ready Campaign
        <bullet> Ad Council Deems Ready One of the Most Successful 
        Campaigns: The Ad Council declared the Ready Campaign one of 
        the most successful campaigns in its more than 60-year history. 
        The campaign has generated more than $593 million in donated 
        media support. The Web site has received more than 1.9 billion 
        hits, the toll-free number has received more than 272,000 calls 
        and more than 9.7 million Ready materials have been requested 
        or downloaded.
        <bullet> Ready Kids Launches in February: Ready Kids, an 
        extension of the Ready campaign, was launched as a tool to help 
        parents and teachers educate children in ages 8--12 about 
        emergencies and how they can help get their family prepared.
        <bullet> DHS and the Ad Council Launch New Ads: Together with 
        the Ad Council, DHS released new television, radio, print, 
        outdoor and internet PSAs to support the Ready campaign.
Preparing for & Responding to Incidents of Medical Significance: Office 
of Chief Medical Officer
        <bullet> DHS Coordinates Pandemic Influenza Activities: The 
        Office of the Chief Medical Officer (OCMO) coordinated the 
        department's pandemic influenza preparedness activities, 
        including: serving as DHS representative to White House 
        Homeland Security Council's Pandemic Influenza planning 
        processes (National Strategy, Implementation Plan for National 
        Strategy); overseeing formation and activities of the 
        Department's pandemic working groups; representing DHS at the 
        Department of Health and Human Services' State Pandemic 
        Influenza summits; establishing the Pandemic Influenza Program 
        Office within the OCMO; developing detailed spend plan for and 
        initiated execution of $47 million Avian Influenza supplemental 
        appropriation.

Shaping the Intelligence Network: Intelligence & Analysis (I&A)
        <bullet> Fusion Centers Facilitate Flow of Information: I&A 
        began embedding DHS analysts to state and local fusion centers 
        across America. DHS has already deployed personnel to five 
        centers and has provided over $380 million in support of these 
        centers.
        <bullet> DHS Enhances Information Sharing with Government and 
        Private Partners: I&A analysts produced and distributed nearly 
        450 intelligence products which provided actionable information 
        which helped our partners protect their communities and 
        critical infrastructure.
        <bullet> Installation Begins on Homeland Security Data Network 
        (HSDN): While an interim capability has been in use for several 
        years, I&A began installing the Homeland Security Data Network, 
        a classified network that will allow the advanced, real-time 
        communications capability to exchange information up to the 
        Secret level with our partners at the federal, state and local 
        level. HSDN will be installed in every fusion center where I&A 
        deploys an officer.

Integrating and Unifying All Aspects of the Screening Process: Office 
of Screening Coordination
        <bullet> Office of Screening Coordination Created: DHS started 
        the Office of Screening Coordination to integrate the 
        department's terrorist and immigration-related screening 
        efforts, create unified screening standards and policies, and 
        develop a single redress process for travelers. The office will 
        generate new and innovative approaches to how the department 
        detects and interdicts threats of all types and improve the 
        experience for legitimate foreign travelers entering the United 
        States.

Strengthening and Unifying DHS Operations And Management: DHS 
Management
        <bullet> Chief Human Capitol Office Moves Forward with 
        Performance Management Goals: DHS deployed its performance 
        management program and its automated system to approximately 
        10,000 employees in multiple components and trained 350 senior 
        executives and more than 11,000 managers and supervisors in 
        performance leadership.
        <bullet> The Office of Security Completes HSPD-12 Goals: The 
        Office of Security met all Homeland Security Presidential 
        Directive (HSPD) 12 requirements by deploying an HSPD-12 
        compliant credentialing system and associated policy and 
        procedures. This new credential meets all federal requirements 
        for interoperability and security.
        <bullet> The Chief Procurement Office Exceeds Small Business 
        Goals: DHS awarded approximately 34 percent of DHS prime 
        contracts to small businesses, exceeding the goal by 4 percent.
        <bullet> Chief Information Office Stands Up New Data Center: 
        Data Center Services completed the Stennis Space Center Data 
        Center Construction Phase I, 24,000 square feet, on time and 
        the first application has been transferred to this data center.

Countering the Drug Threat to the United States: Counternarcotics 
Enforcement (CNE)
        <bullet> National Southwest Border Counternarcotics 
        Implementation Plan Closes Gaps: On August 18th, 2006, DHS and 
        the Department of Justice (DOJ), serving as co-chairs and 
        represented by the Office of Counternarcotics Enforcement (CNE) 
        and the Office of the Deputy Attorney General (ODAG) 
        respectively, submitted a National Southwest Border 
        Counternarcotics Strategy and Implementation Plan to the 
        International Drug Control Policy Coordinating Committee (IDC-
        PCC). This 235 page document identifies the major goals, 
        objectives, and resource requirements for closing gaps in U.S. 
        and Mexico counternarcotics capabilities along the Southwest 
        Border.
        <bullet> Statement of Intent Specifies Department's Effort 
        Level in Counternarcotics Operations: The Office of 
        Counternarcotics Enforcement, in collaboration with the DHS 
        Components, developed a document that formally specifies the 
        Department's intended baseline level of effort (personnel and 
        resources) that will be made available to support 
        counternarcotics operations. This Interagency Statement of 
        Intent, required by the National Interdiction Command and 
        Control Plan, will assist operational commanders in allocating 
        resources to collect drug-related intelligence, as well as 
        support operations that interdict drug smugglers in South 
        America, Central America, the Gulf of Mexico, the Caribbean and 
        Eastern Pacific regions.

Protecting America and Preserving Our Freedoms: Civil Rights and Civil 
Liberties (CRCL)
        <bullet> CRCL Implements New Training Through The Civil 
        Liberties University: The Office for Civil Rights and Civil 
        Liberties, working with component offices throughout DHS, 
        developed a number of useful training products and posters for 
        DHS personnel, including: an hour-long training on the 
        introduction to Arab American and Muslim American Cultures; on-
        line training that emphasizes the core elements of the National 
        Detention Standards developed by the Immigration and Customs 
        Enforcement Detention and Removal Office; two posters that 
        provide guidance on how to screen and, if necessary, search 
        individuals who wear common Muslim and Sikh head coverings; and 
        an educational poster on how to screen those of the Sikh faith 
        who carry a kirpan, or ceremonial religious dagger.
        <bullet> CRCL Implements Effective Processing of EEO 
        Complaints: The Equal Employment Opportunity Program has 
        developed an effective process for issuing Final Actions by 
        hiring subject-matter experts, having a multi-tier quality 
        control process, utilizing contractor support and exercising 
        strong project management controls. The first priority has been 
        addressing the oldest cases received from DHS's legacy 
        organizations. The oldest case pre-dated DHS by 16 years. As of 
        December 1, 2006, CRCL received over 3812 EEO complaints of 
        discrimination for final agency action and over 3576 decisions 
        have been issued.
        <bullet> DHS Co-sponsors Working Conference on Emergency 
        Management and Individuals with Disabilities and the Elderly: 
        CRCL, in partnership with the Department of Health and Human 
        Services, co-sponsored a working conference on June 28--30, 
        2006. The conference brought together Governor-appointed State 
        teams to connect State emergency management officials with key 
        disability and aging experts to work toward integration of 
        efforts within their jurisdiction's emergency management 
        framework; to facilitate cooperative planning with senior 
        officials of the Federal Emergency Management Agency regions; 
        and to identify and institute measurable outcomes and systems 
        for tracking results.
        <bullet> CRCL Continues Engagement with American Arab, Muslim, 
        Sikh, South Asian and Other Ethnic and Religious Communities: 
        CRCL has actively lead or participated in regularly-scheduled 
        meetings with representatives from the American Arab, Muslim, 
        Sikh, and South Asian communities in Houston, Los Angeles, 
        Detroit, Chicago, Buffalo, and Washington, DC. CRCL has also 
        established working relationships with immigration advocacy 
        groups concerned with border security and naturalization 
        policies, and with leaders of the disability community to 
        discuss emergency preparedness issues, particularly in the 
        context of natural disasters.

    Mr. King. Thank you, Mr.Chairman.
    I say this, though, as a prelude to saying that, as I go 
through the budget and I see some of the same reductions that 
Chairman Thompson spoke about, at least $420 million cuts in 
first responder grants, the zeroing out of the MMRS grants, the 
reduction in training grants, and also the SAFER grants--we see 
the problems we had last year in trying to find out how the 
money could be allocated to go to the areas that needed it the 
most, and I remember, at the time, one of the rationales you 
gave was that you felt that Congress had not, perhaps, given 
enough money on the grants, and my concern is that, when the 
Department was started back in 2003, it was put together with a 
budget which was supposed to involve no extra costs to the 
Federal Government. Basically, we were taking these other 
departments, and their costs would go with them, and there 
would be no net increase in costs to the government.
    Well, since then, we have certainly gone much more into the 
issue of immigration that was contemplated when the Department 
was created. We have had Katrina, which showed that much more 
had to be done in the area of natural disasters. The committee 
last year legislated port security funding--I mean port 
security--chemical plant security.
    This year, I know Chairman Thompson intends to have 
extensive hearings on rail and transit security, and my point 
is that are we looking at this budget number from the wrong 
direction. Are we taking a budget that was first brought up 4 
years ago, which was a guesstimate which then Secretary O'Neill 
said was not going to cost one extra penny, and trying to work 
within that budget every year and add on a certain percentage, 
and add this to a budget which, perhaps, was inadequate to 
begin with?
    If we are at war with Islamic terrorism, if we are in a war 
similar to the war in Iraq and the war in Afghanistan, when we 
are at war, you decide how much money you need, and you work 
your way back from that.
    We should, rather than work within the box, make a larger 
box or look at it and really just look entirely at a new way of 
how we approach this and find out what is needed and what is 
not needed, not just throw money at programs, but it seems to 
me that we are limited so often.
    For instance, Press Secretary Snow said yesterday that we 
are trying to make the best we can with scarce resources. Well, 
if we are at war with Islamic terrorism, we should not have 
scarce resources.
    So I would just ask you to consider that. Certainly, I 
intend to discuss this with the chairman as we go forward and 
also with the members on my side if we should be looking at 
this with larger parameters than we are right now.
    So, with that, I thank the chairman for giving me the time.
    Chairman Thompson and also Secretary Chertoff, one issue 
which I believe maybe we should discuss right now is the whole 
issue of interoperability, $1 billion which is jointly 
administered between yourselves and the Department of Commerce, 
and my understanding is that there is, thus far, still 
difficult to coming to a memorandum of understanding between 
the Department of Homeland Security and the Commerce 
Department. Now, as I see it, interoperable communications are 
critically important to the Nation's first responders. The 
inability to communicate their dependability to respond to an 
event creates further confusion.
    While I am concerned there should be greater flexibility to 
distribute these funds past the current fiscal year and to 
ensure that they use it effectively, I am deeply concerned 
about the delay of getting the administration's grant program 
up and running. I am also deeply concerned regarding the grant 
guidance finance funds. Guidance should permit the use of funds 
for the purchase of interoperable systems that use bandwidths 
other than 700 megahertz. Many areas, including New York City, 
have spent millions of dollars of their own funds to build 
interoperable communication systems using bandwidths other than 
700 megahertz. For more than 10 years, New York has been 
utilizing channels at 16 frequencies of 400 megahertz bandwidth 
to achieve interoperability. Given the city's dense urban 
areas, 700 megahertz just does not work, and that is just one 
example. You and I have discussed this, and I believe we are on 
the same page on this.
    Secretary Chertoff and Chairman Thompson, I hope you agree 
this is a critically important issue for first responders 
across the country. I hope we can gain assurances from you two 
today that you will ensure that grant guidance permits the 
purchase of the systems operating on bandwidths other than 700 
megahertz. I would further encourage you to let us know when 
and where the Department is having problems in issuing 
agreements with the Department of Commerce.
    I believe, Mr. Chairman, this is an issue of which you and 
I are in full agreement.
    Chairman Thompson. You are absolutely correct, Mr. King, 
and we will probably be sending a joint letter putting that 
position forward to the Secretary before the response. Thank 
you very much.
    Mr. King. I yield back the balance of my time.
    Chairman Thompson. Thank you, Mr. Ranking Member.
    Other members of the committee are reminded that, under the 
committee rules, open statements may be submitted for the 
record.
    Again, I welcome our witness today. When he was confirmed 
in 2005, Secretary Michael Chertoff became the second person to 
serve as the head of the Department of Homeland Security. Prior 
to his confirmation, Mr. Chertoff served as a United States 
circuit judge for the Third Circuit Court of Appeals. Prior the 
that, he served as an Assistant Attorney General at the 
Department of Justice where he was instrumental in helping to 
trace the September 11th terrorist attacks to the al-Qa'ida 
network. He served in a number of other public service 
positions.
    Mr. Secretary, I thank you for your service, and I 
appreciate your agreeing to testify here today.
    Please.

 STATEMENT OF HON. MICHAEL CHERTOFF, SECRETARY, UNITED STATES 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. It is a pleasure to appear here at the 
beginning of this new year and in Congress, and I appreciate 
the opportunity we have had already to meet informally, and I 
look forward to continuing that practice, which I think has 
been helpful to me, and I hope it has been helpful to you as 
well. I request that my full statement be made part of the 
record. I am going to just be brief in terms of summarizing 
what I have to say and then responding to questions.
    This is a budget that reflects an 8-percent increase over 
our fiscal year 2007 budget, and actually, almost 50 percent 
over the 2003 fiscal year, so it does reflect an expanded 
amount of money recognizing that we have an expanded mission. 
It reflects the President's very strong commitment we 
articulated yesterday when we visited the Department, 
continuing to make sure we have the tools and resources that we 
need to enhance our security, but in a way that balances our 
freedom and our prosperity, and we do have, as you point out, 
an enormous range of missions which I break down into 5 basic 
goals--keeping bad people out of the country, keeping bad or 
dangerous things out of the country, protecting our critical 
infrastructure, continuing to build a well-prepared and 
effective response capability, and finally, strengthening the 
institution of the DHS, itself--and I am just going to briefly 
review where we are now and what we have accomplished and where 
we want to go in the next fiscal year on each of these items.
    Mr. Chairman, as you and the ranking member have pointed 
out, the border has become a very, very significant public 
issue, and we have devoted a lot of resources and have begun to 
see very positive results in getting control of the border. 
That includes investments we have made in high technology and 
tactical infrastructure. We are requesting $1 billion for the 
SPSBE NET program to continue to support the deployment of high 
technology in a virtual fence across the border, and where 
appropriate, we are now putting up fencing on the border.
    For example, in the Barry Goldwater range, which is 
basically a coordinated testing range for the military, we are 
putting up these pilings which will keep out vehicles, and we 
are welding fencing between the pilings to keep people out. 
That protects the people as well as the mission. I am delighted 
to say the Deputy Secretary was down there himself last week 
doing some of the welding, but in addition to the high-tech and 
the fencing, we are also well on the way to doubling the border 
patrol as the President committed last year, looking to have at 
the end of this coming fiscal year 17,819 border patrol and 
then getting to 18,319 by the end of the calendar year.
    These boots on the ground, additional infrastructure and 
the fact that the National Guard has been working with us has 
produced some very significant results, which I will mention in 
a moment.
    Another piece of this, of course, is when we apprehend 
people and what we do with them. We have ended the policy of 
catch and release for those who are illegally here and caught 
at the border. We have done that through a combination of 
better processing times, but also by increasing the number of 
beds from 18,500 in fiscal year 05 to 27,500 in this fiscal 
year, and are looking to add almost 1,000 additional beds for 
fiscal year 2008, which would get us to 28,500.
    This has allowed us, to the extent the law permits, to 
detain and remove everybody that we catch at the border, and 
this has had a very significant deterrent effect with expect to 
non Mexicans who used to come into the country with the belief 
that, even when they were caught, they would be released into 
the community, and then they would never show up again. So we 
begin to see the deterrent effect as it is felt through the 
community of people who are trying to sneak in.
    I am going to show you a chart now that shows what we have 
seen in terms of trends and apprehensions of people coming 
across the southern border, which show that since we began 
Operation Jump Start and our increased enforcement in the 
middle of last year, which was--you have the wrong chart up. 
No. Keep going back. We are going to show you the decreases in 
apprehensions.
    What you will see is, from the third quarter of fiscal year 
2006, which is when we began putting more boots on the ground, 
through the fourth quarter and into the present, we have had 
for the first time a reversal of the trend of the number of 
people coming across the border, the number of incursions and 
the number of apprehensions. That is quite dramatic. It went 
down 13 percent and 37 percent in the third and fourth quarters 
relative to the prior quarters. That does not mean that we have 
done the job. What it means is we have begun to have an impact, 
and it means that we now have some momentum which we have to 
keep building upon if we are to get this job done.
    Finally, our increased work site enforcement, including a 
dramatic rise in the number of criminal penalties brought 
against companies that systematically violate the immigration 
laws, has begun to have an impact on that economic engine that 
draws people illegally into the country.
    We have also made dramatic impact in terms of our 
protection of our ports. Three years ago, we only screened 
about 48 percent of our cargo overseas under the container 
security issue. Now we do 82 percent. Four or 5 years ago, we 
had no radiation portal monitors at our seaports. By the end of 
this year, virtually 100 percent of the containers coming into 
the United States will go through radiation portal monitors at 
our ports before they enter the country, and by the end of next 
year, our budget proposes to have virtually 100 percent of our 
land ports with the radiation portal monitors that will screen 
for radiation and for containers and cargo coming in. We are 
also, pursuant to the Safe Ports Act, beginning the process of 
deploying radiation systems and x-ray systems at overseas 
ports, including Pakistan, the United Kingdom and Honduras. So, 
to the extent that foreign governments allow us to do so, we 
can actually do this standing overseas.
    Let me turn to critical infrastructure. Critical 
infrastructure, whether it be TSA where we are beginning to 
deploy document checkers to add a new level of defense for our 
air system or whether it is our new chemical plant regulations 
and toxic regulations and rail regulations, we are seeing 
significant steps forward raising the bar for security for all 
elements of our infrastructure. We have completed a national 
infrastructure protection plan. We have got submissions on each 
of the critical sectors in terms of their security plans, and 
we are working to validate and to elevate the security at all 
elements of our economy.
    Let me turn fourth to emergency preparedness response. I 
think FEMA has demonstrated in the last year a remarkable 
turnaround from what I think you pointed out, Mr. Chairman, was 
a very sad story that we had to face last year at this time. In 
the recent response to the tornadoes in Central Florida, while 
not of a scale of Katrina, I think there is a hopeful sign in 
terms of our systems retooling all across the board, and we are 
requesting 149 million additional dollars to continue with this 
new initiative under Chief Paulson as well as money that we are 
going to use, $48 million to further professionalize our 
disaster workforce by moving a significant number from being 
term employees to being permanent employees.
    Let me turn to the issue of grants for a moment before I 
conclude. We recognize, of course, that there is always a 
desire for money in State and local governments, and we do have 
to operate within a pool even with an expanded budget where we 
have to make difficult trade-offs. Our commitment is to be 
risk-based, and that means, while we do not put all of the 
money in the high-risk areas, we are unquestionably leaning 
toward the high-risk areas in the way that we do allocate the 
money. We have listened to Congress. This year as opposed to in 
prior years, we have agreed to continue to propose grants in 
individual infrastructure categories as opposed to a single 
infrastructure grant program that lumps them all together, and 
our proposed funding continues the funding levels which 
Congress enacted last year. The urban area security initiative 
grants, which were $770 million last year, we are proposing to 
increase to $800 million, and although you are correct to say, 
Mr. Chairman, that the State home security grants were proposed 
to be cut by a little more than half, that is more than offset 
by the $1 billion of interoperability funding, which will be 
available in fiscal year 2008 to address what everybody has 
recognized as a very high-priority, still unmet need.
    I think the bottom line is that the money that will be in 
the hands of communities in fiscal year 2008 of the President's 
budget will be approximately the same as it was last year, and 
that is about $3.2 billion, which I think is a very good news 
story. I also have to remind the committee that there is still 
over $5 million that has been unspent, so there is plenty of 
money in the pipeline, and as we consider how to balance the 
competing demands, we want to keep the pipeline primed, but we 
do not necessarily want to overflow it.
    Finally, Mr. Chairman, I take very seriously the results of 
the survey about which you mentioned. I recognize that, with 
any new department that is being stood up, physical 
constraints, shortages of money for training and the fact that 
we are working people very hard does have an impact on them. I 
have asked the deputy human capital officer and our under 
secretary of management to dig deeply into the survey to see 
what the causes of dissatisfaction are and to put together a 
plan that will give us better communication, better stability.
    I am pleased to say some of the steps we have already 
taken, including increased professionalization of leadership in 
the workforce, for example, FEMA, is where we have now finally 
completed, essentially, populating our senior leadership with 
experience emergency managers and also getting started on a 
campus for DHS at St. Elizabeth's, which I think is an 
important part of what will settle the Department over the long 
term and build a culture and a spirit which are essential to 
having a happy and a productive workforce.
    So, Mr. Chairman, I thank you for hearing me, and I look 
forward to answering your questions.
    [The statement of Michael Chertoff follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Thompson. Thank you, Mr. Secretary. I thank you 
for your testimony, and I recognize myself for 5 minutes for 
the beginning of the questions.
    I guess the first question, Mr. Secretary, is you have seen 
the budget. Are you satisfied with it? Is it enough resources 
for you to do your job?
    Secretary Chertoff. I am satisfied, Mr. Chairman. I believe 
it presents us with a lot of resources, which I think we can 
use appropriately and in a disciplined fashion but which 
addresses what we need to get done in 2008 to build on the 
progress up till now.
    Chairman Thompson. Given that, you talk about the poll that 
was taken by OPM relative to morale in staff. That is a real 
problem. I want to bring it to your attention in the sense that 
the committee will be looking over the next few months on how 
you propose to resolve what we think is too significant an 
issue not to have a plan in place to address, but it is a major 
issue.
    Last month, I talked to you about the western hemisphere 
travel initiative, and that I had a talk with some ministers 
from the Caribbean relative to the passport requirement, and 
more specifically, I had spoken with the Bohemian administrator 
of tourism, Mr. Obie Wilshim, and he was concerned that, with 
the implementation of this initiative, it might have an adverse 
effect on tourism.
    At that time, you felt that it was the right thing to do 
but that, in the interim, for people who might have a problem, 
we would have created an opportunity for them to phase in, if 
you please, that implementation.
    Can you give me some idea as to how that is going?
    Secretary Chertoff. Yes, I would be delighted to.
    We did track this very carefully in the period of time 
leading up to the deadline, which was January 23rd. We have 
done it since then. We have discovered that, thanks to some 
very good communication by the destinations and by the 
airlines, at the time that we actually began the program on 
January 23rd, we had virtually perfect compliance. We had very 
few instances where people did not have the passports that they 
needed at the border. In those few instances where they have 
not, we have allowed people in, and we have simply told them to 
have the requirement in the future. We have obviously checked 
their identification. Although I have said I think the press 
was dogged in trying to search out stories of problems at the 
airport, I have not seen any report of any significant problem 
with respect to the program, and there is, as we speak, 
virtually 100-percent compliance at all of our ports of entry.
    So it is a very important program because it is an 
important security measure for the country. I am pleased to say 
we were able to put it in without a lot of inconvenience.
    Chairman Thompson. Okay. Now, a lot of that is with Canada. 
What about with the Caribbean?
    Secretary Chertoff. It was 99 percent.
    Chairman Thompson. With the Caribbean?
    Secretary Chertoff. Yes. Yes. In some cases, I think it was 
100 percent. I mean it was really quite remarkable that people 
got the message and carried through on it.
    Chairman Thompson. And I appreciate the fact that you 
facilitated a window of opportunity for those individuals who 
might not have received the information relative to the 
passports. Was it 30 years or some kind of window?
    Secretary Chertoff. Well, we continue to have the window 
open, and happily, it has been a window which very few people 
have had to pass through. So, you know, eventually, I think we 
will--let me say, Mr. Chairman, we have always allowed people--
Americans--to return. It is just that, if you do not have a 
passport, it sometimes becomes a little bit more difficult. I 
do not envision this as being any more problematic than what we 
face, for example, when people come back from Europe or Asia.
    Chairman Thompson. Well then, that is fine, and that 
resolves the question.
    Relative to the experiments under the Safe Ports Act, we 
have shared with you some concern about the technology that is 
being deployed at the ports--you can expect the communication 
from the committee--as to whether or not that technology is 
state-of-the-art technology, whether it foreign-owned 
technology or what have you, and I would appreciate your 
response to it.
    I now yield to the ranking member.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Secretary, on the issue of grants, they are being cut 
by $420 million on port security. We authorized $400 million, 
and only $210 million is going in the budget of port security 
grants, and I know you are saying that the $1 billion from the 
interoperability is to partially offset that. The fact is I was 
part of those negotiations at the time. I do not recall its 
ever being suggested that that $1 billion would be in lieu of 
money that was supposed to be supplement to what is already 
being spent. It was not supposed to be fill-in. So I would have 
a really, you know, serious difference with you on that. Let me 
just ask several questions then and ask you if you could answer 
them.
    One, on interoperability, if you could tell us, number one, 
what is the status of the memorandum of understanding between 
DHS and the Commerce Department? Secondly, as far as guest 
workers, if the U.S. visit plan is not able to control both 
entry and exit, how can a guest worker program work at this 
stage? I think this is probably a follow-up to what the 
chairman was referring to.
    As far as radiation portal monitors, I know as to the ones 
that were installed on the test project, in the pilot project 
on Staten Island, the GAO last fall, I believe, said there were 
serious deficiencies with them. If you could update us on what 
the status of that is.
    With that, I will give you the opportunity to answer. Thank 
you.
    Let me just make one other point, Mr. Secretary. I always 
enjoy seeing you up here. The chairman enjoys seeing you up 
here. The fact is I do think that Congress has taken a golden 
opportunity this year to consolidate jurisdiction in one 
committee. My just quick reading is, with the seven full 
committees that have any number of subcommittees that are 
calling your people up here continually when we do have 
hurricanes to fight and a war to fight, I just think it puts 
too much stress on the Department to constantly have the top 
management coming up here to appear before most of the 
committees and subcommittees who are trying to get their moment 
in the sun.
    Secretary Chertoff. Well, I certainly endorse the idea of 
allowing us to consolidate our appearances before this 
committee on the authorization side, and comparably on the 
Senate, that is what the 9/11 Commission recommended, and it 
would certainly, I think, not only make my life easier, but we 
would actually continue to build on it, and a very productive 
relationship will be developed both informally and in more 
formal settings.
    On the three questions you raised, the memorandum of 
understanding is very close to being signed. If it is not 
signed within the next week or 10 days, I am going to get on 
the phone or sit down with Secretary Gutierrez, and we will 
just get it done. I do not think there is any obstacle in 
principle. It is just kind of a paperwork issue.
    With respect to TWP--temporary worker program--and U.S. 
visit exit, it is quite clear that a foundation of a temporary 
worker program will have to require a secure identification 
card, and then that card will have to be something which it 
will be in the interest of the temporary worker to make sure it 
is being recorded when that person enters and leaves the 
country, but the number of people involved in that program 
dwarfs the number of people who cross the northern and southern 
borders every year. I think the total number of crosses we have 
every year are 400 million, and I will be very candid about 
what the problem or the challenge we face with exit is.
    We intend to move forward in the next year with exit at the 
airports. In fact, we have money in the budget to handle that 
at the apartments. At the land ports of entry, though, if we 
were to be required to stop every single person when they leave 
to determine who is a citizen and who is not a citizen and who 
has to give their biometric and who does not have to give their 
biometric, we would have extremely long lines in places like 
Detroit and Buffalo and the southern border as well. So we need 
to come up with a more efficient system for determining who is 
leaving as part of U.S. exit, and that is going to require us 
to work with the Canadians and the Mexicans to see whether we 
can share information on their side of the border so people 
only have to stop once rather than twice.
    At the same time, it is very important--and we are putting, 
I think, about $140 million into the budget this year--that we 
move forward with a second part of U.S. visit, entry, which is 
the ten fingerprints, which allow us to match the fingerprints 
of people coming into the country, foreigners, against latent 
fingerprints we pick up from battlefields and safe houses all 
over the world, and that is something which directly adds, 
probably, the largest step up in security at the borders of any 
screening tool that we have.
    Finally, with respect to the radiation portal monitors, I 
believe the GAO report was based on an early pilot study, and I 
have spoken to the head of the DNDO. The advance monitors we 
are looking at now have a much higher success rate, and of 
course, we will be testing them operationally before we invest 
a significant amount.
    Mr. King. Thank you Mr. Secretary.
    Chairman Thompson. Thank you very much.
    I now yield to the gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman and Mr. Secretary, for 
being before us today.
    I just want to make a little aside with respect to 
something that Ranking Member King said about, you know, if we 
do not have a U.S. visit program, we are not going to be able 
to do the guest worker program if there were to be some sort of 
program put in in the future, and I would just say we are not 
going to be able to make sure that any of our immigration 
reforms are passed along, whether it is naturalized citizens, 
whether it is, you know, residents. It is just a security 
issue. So it is incredibly important that these programs we 
have, like U.S. visit, actually work before we ever pass some 
sort of immigration reform.
    I mean, we have to--as a sovereign state, I believe we need 
to know who is coming in and out, and that U.S. visit program 
is incredibly important, both at the airport and at land and 
port entries.
    Mr. Secretary, I want to ask you a little bit about the 
catch-and-release policy. I want to know when you all decided 
to end the catch and release policy, how long it has been in 
place, what the actual logistics are of such a program, 
especially in light of a lot of allegations that I have 
received from civil liberties and immigration law groups that 
illegal immigrants are confined for 23 hours a day in 
windowless tents made of Kevlar-like material, are often 
without insufficient food, clothing, medical care, and very 
little or no access to telephones and counsel.
    So I want to hear how did you come to this, what you think 
it really looks like if you are somebody who ends up in this 
catch-and-release program, and I would like to know how many 
OTMs have you returned to their native countries since you 
started doing it this way.
    Secretary Chertoff. Catch-and-release was a policy that 
existed long before I ran the Department, and it reflected the 
fact that we did not have enough detention beds to hold 
nonMexicans who accorded the border. Now, Mexicans can simply 
be returned across the border on the same day, so there is no 
detention issue, but people from, you know, Guatemala or China 
or other parts of the world require processing before they can 
be sent back to their native countries. So the question is what 
do you do with them?
    Until 2006, because of the shortage of beds and because of 
the cumbersome process, most of them were released, and the 
consequences of that is most of them never showed up for their 
court hearing.
    Ms. Sanchez. I think we all understand that.
    I am trying to get a feel for what does it look like. How 
long has it been, and what have been the results? Because the 
real result we want is to get this person back to their home 
country--
    Secretary Chertoff. So here is what we do.
    Ms. Sanchez. --and when we read in the paper it is taking 
12 months or 18 months of hanging out in some tent on the 
border, this does not make us look good or efficient.
    Secretary Chertoff. Let me break it into two categories. 
For the people who are now subject to what I call ``catch-and-
return,'' people caught at the border, they are put on 
expedited removal. The average time to remove them used to be 
90 days. It has now been reduced to about 20 days, which means 
that people who are caught at the border and put in expedited 
removal are returned in approximately 20 days to their home 
countries. There are some, obviously, exceptions. That is an 
average.
    I want to separate that from the category of people who are 
detained in the interior. There, we do not necessarily always 
detain people when we catch them illegally, because we do not 
have the beds to do that for everybody, but we do generally 
detain those who either have criminal records or who are 
particular flight risks or who have some other characteristic 
that suggests they ought to be a higher priority.
    Sometimes those cases do take a while to process because 
the individual involved is pursuing legal remedies in the 
United States, which are very time-consuming, and so, while 
they are in that process, often the judge determines--sometimes 
the judge bails them out, but sometimes the judge determines 
that it is appropriate to detain them. So 12 and 18 months 
applies to people who are detained in the interior, and it 
really is a function of the way the immigration court system 
operates.
    Ms. Sanchez. After the 20 days, does this OTM get before a 
judge?
    Secretary Chertoff. Expedited removal, as a matter of law, 
does not put you in front of a judge.
    Ms. Sanchez. And my last quick question before my time runs 
out: Are these camps also on the northern border, and are we 
doing the same thing at the northern border, or are you really 
just doing this at the southern border?
    Secretary Chertoff. We have detention centers all over the 
country. Ninety-nine percent of the people who come across the 
border illegally between the ports of entry come through the 
southern border. So, when we built the particular tent camp 
that you are talking about--
    Ms. Sanchez. Did you just say 99 percent of people who 
cross the border are coming across the southern one instead of 
the northern one?
    Secretary Chertoff. Right.
    Ms. Sanchez. Only 1 percent of the people without documents 
are coming across our northern border?
    Secretary Chertoff. That is right.
    Ms. Sanchez. Is that because we do not have it all checked, 
and we do not have as much going on at the north or do you just 
really believe that only 1 percent of the people are coming 
across the northern border?
    Secretary Chertoff. Most of the flow--this may change in 
the future as we tighten up on the southern border. Most of the 
flow comes through the southern border, and I have been told it 
is approximately 99 percent between the ports of entry.
    Ms. Sanchez. Ninety-nine to one. Do you want to stand by 
that number, 99 to 1?
    Secretary Chertoff. This is what I have been told.
    Ms. Sanchez. Ninety-nine to one? That is almost absolute.
    Secretary Chertoff. Well, what I am telling you, 
Congresswoman, is that, by far, the majority of people by a 
very, very large margin--and I will have someone verify the 
figures for you. By a very, very large margin, the people 
coming across between the ports of entry are coming from the 
southern border, but I will also tell you we have the same 
program at the northern border. If we catch somebody at the 
northern border who is there illegally, we will put them into 
the same program. They will be put into detention, and they 
will be returned under the same expedited removal. We go where 
the flow is. We are indifferent as to whether they come across 
the northern border or the southern border or, frankly, whether 
they come by sea. It is the same thing. If we catch them and 
they are illegally here and we can put them in expedited 
removal by law, we will hold them, and we will remove them 
within a very short period of time--
    Ms. Sanchez. Thank you, Mr. Chairman.
    Secretary Chertoff. --and I will just get someone to verify 
the percentage, but it does not strike me as intuitively wrong.
    Chairman Thompson. We will now hear from the gentleman from 
California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I have been on the southern and northern borders--I took 
our subcommittee to the northern border last year--and I would 
be surprised if it were not 95 or 99 to 1 given the activity. 
Also, I remember when I was up at the sector that includes 
Seattle that they said 90 percent of the people that were 
caught there who were there illegally were actually from South 
and Central America, interestingly enough, not that they come 
across the border illegally. They had actually traversed up 
through the lower 48 to get up there.
    I want to say we are never totally satisfied with what you 
are doing, but I think you are making progress, and I 
appreciate it. We on this committee asked you to stop catch-
and-release. We were going to start legislation prohibiting it, 
and you moved ahead before the legislation was completed to do 
that. We have, in the Congress, enacted laws to allow you to do 
expedited removal, and frankly, I think we should be 
criticizing you if you were not doing it.
    The fact of the matter is those people who are caught 
within a close distance to the border are not entitled to the 
same legal remedies as are others. That has been the law of the 
land for a long time, and frankly, I think you are enforcing 
the law as we should. In the past, we criticized you for not 
doing enough. So I appreciate the progress you are making 
there, but obviously, more progress needs to be made.
    I would apologize to you from the Congress for our not 
adopting the 9/11 Commission recommendation that you only have 
to come up here one time. I mean it makes great TV, I suppose, 
but we should be about the business of protecting this country, 
not about the business of having multiple hearings by multiple 
committees.
    I would like to ask you about--oh, the one thing I wanted 
to say about the temporary worker program, in addition to 
making sure the exit programs works, we have a temporary worker 
program in which you require the money that otherwise would go 
into social security be put into a fund which would allow the 
individual involved to redeem that amount in their home 
country. You have a way of identifying whether they are there 
or not. Not allowing them to redeem that money if they do not 
show up during that period of time, making them disqualified 
for any future participation in the program and the threat of 
arrest if they come back to the United States might be one way 
of solving that. I hope you will be looking at that.
    I would like to throw in my two cents on interoperability. 
I have been visited by people from the City of Ponce, Puerto 
Rico, from people in my district in Elk Grove and Sacramento, 
California and Southern California. Interoperability remains a 
huge problem. A number of years ago, we thought it would 
require us to buy all new radios, and now we know we have those 
systems that allow us to take multiple divergent systems and 
put them together, and I would just say, Mr. Secretary, please 
do what you need to do to shake that money loose.
    We, in good faith, worked together on a bipartisan basis to 
put $1 billion in there, and now when these constituencies come 
to us, it sounds a little strange for us to say we gave you $1 
billion, and they cannot get a memorandum of understanding 
between the Department of Commerce and your department to make 
it work. We really need it sooner rather than later, and I 
would hope that you would make a commitment to make sure that 
that happens in short order. It is absolutely needed.
    In H.R. 1, which passed the House last month, there is a 
proposal to repeal the section of the TSA that governs the 
terms and conditions of the TSO workforce. I am worried about 
that because I thought that Congress made a judgment to give 
you that flexibility so you could respond to things like 
Katrina, like the London bombing and what it had for us here.
    Could you give us any idea of your feeling if we come 
through with a conference report which requires you to work 
under the repeal of that section?
    Secretary Chertoff. I think the tradition has been that, 
when you are dealing with people who work in the national 
security field, you need the maximum flexibility that can only 
operate in a system where you do not have collective bargaining 
over terms and conditions of work.
    In this instance, of course, we pay a lot of attention to 
building a good career path and putting money into retention 
and training for TSA, and as a consequence, there has been a 
significant drop in the rate of people who are deported. 
Nevertheless, if you look at the experience we had, for 
example, last August after the discovery of the revelation of 
the airline plot in the U.K., we had to rapidly turn around the 
terms and conditions and the deployment of people literally 
within less than 24 hours. Likewise, during Katrina, we had to, 
all of a sudden, move people all the way across the country to 
do an enhanced screening operation.
    I fear that these are subjects which could become part of 
collective bargaining, and that would make it much more 
cumbersome and difficult to respond to this. I also think that 
collective bargaining, because the employees are not under the 
general schedule, the fear of collective bargaining could make 
wages a subject of bargaining, and that would, of course, have 
a significant budget impact and would create a dislocation 
between those employees and other employees.
    So, you know, our view is that Congress made the correct 
judgment originally and should adhere to it.
    Mr. Lungren. Thank you.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you.
    I am sure, Mr. Secretary, you understand some of us differ 
with that opinion. Thank you.
    Mr. Dicks. Mr. Secretary, it is my understanding that 
officials of DHS and the State Department met recently with 
officials from Washington State and have made some substantive 
progress. I think this is very important. I thank you and the 
Department for helping to move this forward. Because this 
project will require an adjudication of the license holder's 
citizenship, the Department of State must be an active partner.
    Mr. Secretary, can you tell me how the discussions with the 
State Department are progressing?
    Secretary Chertoff. Well, I agree. The State Department has 
to be an active partner, and I have spoken to representatives 
of the State Department and the Assistant Secretary of the 
policy, who is really the point person on this, and I am 
meeting regularly with the State Department to make sure that 
we are on track for the implementation of this program, so I 
cannot tell you at this moment exactly where the State 
Department is, but we are actively engaged with them as one of 
the most high-priority, current efforts.
    Mr. Dicks. You know, this whole Real ID issue is worrisome 
to me. Can you tell me when you expect to see the proposed 
rules and how you intend to facilitate the States' ability to 
meet the May 11th, 2008 deadline, and what is DHS doing to 
minimize the costs to the States for complying with the Real ID 
Act?
    Secretary Chertoff. Let me first make it clear that the 
deadline of May 11, 2008 does not mean that, on that day, 
everybody has to have a Real ID license or they are out of luck 
in terms of identification. In fact, the law allows, I believe, 
a 5-year period during which this is actually going to be 
implemented. May 2008 would be the kickoff date. We have been, 
throughout this process, in active discussion with not only 
various State representatives, but the Motor Vehicle 
Association. I am anticipating that, by the end of this month, 
we will have the regulations out for comment.
    Mr. Dicks. Good. Good. There is a lot of concern, as you 
can imagine, by the States about how this is going to unfold 
and the time you are going to have to get this done and the 
cost involved, so I appreciate your involvement on this.
    Mr. Secretary, the State ports act passed last September 
mandated the creation of--and you mentioned this in your 
statement--an intermodal radiation detection test center to 
identify optimal solutions for monitoring containerized and 
port cargo that move directly from ships to trains for 
radiation. The need to act deserves it because, by the end of 
this year, all imported containers at the top 10 container 
ports must be scanned for radiation.
    When do you expect to have an implementation and cost plan 
finalized for the test center?
    Secretary Chertoff. I know we regard this as a priority. 
Let me get back to you on it with a more specific date of when 
we think we are going to have this decided, but we, obviously, 
want to do this in the next couple weeks.
    Mr. Dicks. Okay. Good.
    The other thing I wanted to touch upon is we had the 
inspector general up here, the IG, and I know you inherited all 
of these agencies, and some of them were on the GAO's list as 
not being auditable before you got them, and I had a chance to 
talk to Mr. Norquist, who is a former staffer up here who we 
have high regard for. What is your strategy?
    I think the concern we have is it sounded as if it were 
difficult to deal with the Department of Homeland Security on 
this issue, that the legal counsel's office was obstructing and 
doing various things to slow down the interaction.
    Can you assure us that you are going to get on top of this 
and make sure that this is cleared up in a reasonable period of 
time? I do not want you to be like the Department of Defense. 
The Department of Defense cannot audit their books, and I guess 
the Coast Guard is your biggest problem--
    Secretary Chertoff. It is, yes.
    Mr. Dicks. --but somehow we have got to move in the right 
direction here.
    Secretary Chertoff. It is absolutely important, and you 
know, I sat down with David Norquist recently after we got the 
most recent audit. The good news was we had progress at CBP for 
the first time. We got an unqualified opinion. ICE was credited 
with making significant progress. You are correct that the 
Coast Guard seems to have the greatest difficulty, maybe 
because they have the most capital assets.
    He has put together a specific plan with a timeline to get 
us to a clean audit within a couple of years. It is probably 
not going to happen this coming fiscal year, but it has 
milestones. We are going to meet periodically. I have empowered 
him to make sure that he is the authority over all the CFOs and 
components to get this done.
    The other area where we were lagging--and I have a good 
news story to tell you here--is with IT security. In the fall 
of 2005, under FISMA, our certification and accreditation 
completion was only 22 percent, but in the fall of 2006, it was 
95 percent.
    Mr. Dicks. Good.
    Secretary Chertoff. So we had a big jump forward. Now, we 
still have more work to do, but it was a good story.
    Mr. Dicks. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Mr. Secretary, I wanted to thank you for your Department's 
response to the devastating tornadoes that recently swept 
through Central Florida. Although my district was not impacted, 
I understand that FEMA has worked closely with my State's 
emergency management officials, and I have also heard that the 
governor is very pleased to respond to this tragedy. I hope you 
will share my appreciation with those who helped.
    Secretary Chertoff. I will absolutely convey your 
appreciation to Chief Paulson and to all of the people at FEMA, 
and I appreciate your comments.
    Mr. Bilirakis. Sure.
    My first question: In your opinion, does the employee 
dissatisfaction and low morale impact the ability of DHS to 
recruit and retrain qualified program people to serve in highly 
specialized positions?
    Secretary Chertoff. First of all, I think we have an 
exceptionally dedicated workforce. At least preliminarily, when 
I analyze where the sources of dissatisfaction were, I mean, 
some of it is not surprising. We still live in physically 
cramped quarters. It took us--we had a long period of time 
where not anybody had a desk. We have been working people very 
hard, and that means there is less availability of training. 
So, as we mature as a department, those issues will correct.
    Secretary Chertoff. I think in those areas where we had 
some greater problems in morale, we have had success in 
recruiting and retaining people, but this requires constant 
attention. Some of what we have done in TSA is to reduce the 
departure rate by building a more substantial career 
development path.
    Some of it, frankly, involves changes of leadership. We 
have had almost a complete turnover in leadership. I am very 
satisfied that the leadership we have now is professional and 
well respected.
    Mr. Bilirakis. I have some of the same concerns that my 
colleagues already have raised about funding for first 
responders. If you can relay that information to the President 
and administration, I appreciate that.
    I am pleased that the administration's budget request 
provides funds to hire, train and equip an additional 3,000 
Border Patrol agents which I believe are necessary. I think the 
problem is not a question of funding for these needed agents 
but the inability to recruit and retain dedicated men and women 
to fill those positions; is that correct?
    Secretary Chertoff. I have spoken to the commissioner, and 
they are confident that they can meet their recruiting goals, 
not only to get the new people but also to fill the gap of 
people who depart. We have gotten, for example, I think former 
military folks as well as law enforcement people who are 
interested in coming on board. Ironically, the one piece that 
is working in the other direction is we have a number of Border 
Patrol who want to move over to ICE and become investigators. 
We have a plan, and I am confident we are going to meet the 
President's goal by the end of 2008.
    Mr. Bilirakis. Do you believe Congress should review the 
authority that border agents have in discharging their duties 
to clarify what agents can and cannot do to apprehend illegal 
aliens, terrorists, and drug traffickers who attempt to cross 
the border?
    Secretary Chertoff. I think there is a professional 
doctrine on the use of force and the authorities that is well 
settled and everybody is trained to. I think we are best served 
if we let the professional leadership, the career leadership of 
the Border Patrol, make any adjustments that are necessary in 
those.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. I now recognize the gentleman 
from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Secretary, welcome.
    Mr. Secretary, I think the Bush White House doesn't 
understand that when they nickel and dime an agency, that 
morale is going to be hurt. They have done it for the last 5 
years. Morale has been affected, and I think the consequences 
for you as a manager are quite severe. If they were funding 
this agency at the level at which it deserves in the same way 
they have given a blank check to fight the war in Iraq, I think 
the problems would be much less severe.
    Let me give you an example. In a statement of 
administration policy on 9/11, the Bush administration asserted 
that 100 percent screening of maritime cargo is neither 
executable nor feasible. In your testimony, you stated that the 
Department secure freight initiative, which is scanning 100 
percent of maritime cargo at six ports is doing so through the 
deployment of existing technology and proven nuclear detection 
devices.
    Dubai Ports World, one of the largest port operators in the 
world, was involved in negotiations over the purchase of U.S. 
port terminals. It has promised to install scanning equipment 
in all of its ports worldwide at its own expense to scan all 
cargo containers before they were loaded onto ships headed to 
the U.S. for nuclear bomb material.
    So I am confused, and I am sure employees at DHS are 
confused. The port operators say they will do it. The Bush 
administration says it is being done using existing technology 
at six foreign ports, yet the White House says it is not 
possible. So which is it? Is OMB wrong? Is the industry 
exaggerating its capabilities?
    Secretary Chertoff. I think I can clear this up. First of 
all, I think we all agree it is desirable to scan for radiation 
overseas. But I think we also know that not every foreign 
country is going to permit us to do it, and we also know that 
not every foreign port is physically configured in a way that 
allows it. So do we want to move as much of this overseas as we 
can? Absolutely. Can we predict that we are going to be able to 
do 100 percent? I think that is extremely unlikely.
    In Hong Kong, even though they originally piloted this, 
although it was a nominal pilot, not a real pilot, they are 
still struggling with this issue because they have some real 
physical problems, and the government there is not convinced it 
wants to assume the burden of what it is going to have to do in 
order to make this program work.
    So when the administration says it is not possible to 
legislate that we are going to be doing 100 percent scanning 
overseas, it reflects the reality that we don't own and control 
all of these overseas ports.
    Mr. Markey. Our government has just placed a restriction on 
the Mexicans, the Canadians, the Caribbeans, that they now must 
present passports in order to gain entry into our country. I am 
sure they don't like it, but we imposed it upon them. When we 
want to and when our security is at stake, we have the capacity 
to ensure that the security of the United States takes a higher 
priority.
    My concern here is that, when the EU refuses, for example, 
to share passenger data, we press them to guarantee that we get 
access to that information. You have conceded that it is better 
to screen for a nuclear bomb overseas before it reaches a port 
of the United States. Obviously, if the bomb is in a ship at 
Long Beach or New York or Boston and it is detonated by remote 
control, they are not going to take that container off the 
ship. That city has already had a catastrophic event.
    I think the Bush administration's continued opposition to 
the language which has now passed the House, it has passed the 
House of Representatives mandating the screening for nuclear 
bombs overseas, and if I was an employee at DHS, I would say 
that makes no sense. Why would we wait for the bomb to get here 
to have the DHS people look for it when we could have a law 
that is screening for the bomb overseas as they are trying to 
load it onto the ship.
    I think it is a series of events with the Bush 
administration saying we don't have enough money to give you. 
OMB has to nickel and dime your agency. We won't be able to 
fund something which is so clearly in the security interest of 
our country.
    Secretary Chertoff. I don't think this is a money issue. I 
guess if one were to legislate and say that, if by a certain 
date a foreign port does not allow us to do the radiation 
scanning, its goods are not going to come into the United 
States, I will predict with a high degree of confidence there 
are going to be an awful lot of unemployed longshoremen in the 
port of Boston and New York because what will happen is all of 
those goods will move up to Canada or down to Mexico.
    Mr. Markey. The same argument was made about the screening 
of bags onto planes. The Bush administration said it will be a 
mile long line outside every airport every day. We mandated it 
from Congress, and 2 years later, every airport was putting 
every passenger bag through screening, and they got it done.
    I think if we put the same mandate on, we will make sure 
that nuclear bomb, which we know that al-Qa'ida wants to bring 
into the United States, will be detected overseas and not when 
it is in a port in our country.
    I thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    I recognize the gentlewoman from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I want to focus in on 
the immigration needs on the U.S. function. The US-VISIT 
program was originally mandated by Congress in 1996, and since 
then, we have reiterated that mandate several times: In the 
106th Congress, in the INS Data Management Improvement Act and 
in the Visa Waiver Permanent Program Act; in the U.S. PATRIOT 
Act in the 107th Congress, in the Enhanced Border Security and 
Visa Entry Reform Act also in the 107th Congress; and in the 
108th Congress within the Intelligence Reform and Terrorism 
Prevention Act.
    The 9/11 Commission specifically recommended that the 
Department should complete as quickly as possible a biometric 
entry-exit screening system. We do not actually have that 
system today, as you have mentioned earlier in your remarks. I 
just finished reading the GAO report on the US-VISIT program, 
and there are certainly a lot of problems.
    I want to explore why we have not received the report that 
Congress was due in June 2005 on this entry-exit program. I 
have so many questions from the report. The RFID tags that are 
being pursued for the I-94 documents, is that to be instead of 
the exit biometric data that the Congress has mandated? And has 
that diverted money and attention from the effort to have the 
biometric exit plan fully implemented?
    I agree that the full-10 fingerprint proposal is what we 
should have. We should have had that always. I have questions 
on whether the system that is being developed for exit is 
interoperable with the IDENT system and with the FBI system. We 
should have been told that in this report due in June 2005.
    I also wonder whether the e-passport biometrics that we are 
now requiring are going to be interoperable with the US-VISIT. 
I don't understand why, what technological issue has prevented 
the implementation of this system.
    We don't have a lot of time to get all of these reports. 
Can you tell me when this report that was due in June 2005 will 
be delivered to Congress?
    Secretary Chertoff. I have to say, I don't remember a 
specific report in June 2005.
    Ms. Lofgren. Well, it wasn't done. That is why you may not 
remember it.
    Secretary Chertoff. I know we have generated a lot of 
information on this. I will find out what there is. I can tell 
you the bottom line answer, we do have US-VISIT at entry for 
two-print at all of our ports of entry.
    We are deploying US-VISIT ten-print for entrance which 
should be deployed overseas and at our major ports of entry by 
the end of 2008.
    The RFID test proved, as GAO indicated, unsuccessful. This 
is the real world.
    Ms. Lofgren. Has that been dropped then?
    Secretary Chertoff. Yes, I think we are abandoning it. That 
is not going to be a solution.
    Ms. Lofgren. Okay.
    Secretary Chertoff. In the real world, when something 
fails, we drop it and move to a new system. We are looking at a 
plan for doing exit at the airport which I think is 
technologically possible. Once we have fully specked it out, we 
can tell you.
    The long pole of the tent as GAO recognized, and I am 
trying to be completely forthright in telling you, is the land 
border. The volume of people is such that having long lines of 
people trying to get from, say, Detroit into Windsor, Canada, 
is going to be--
    Ms. Lofgren. I got that in your original testimony. I only 
have a minute left.
    We all know that the information technology systems and the 
immigration status database do not mesh. I am wondering if you 
can tell us, with respect to this budget, where we will get in 
terms of not just identifying but also implementing workable 
secure information technology systems and immigration status 
and employment verification databases which will be available 
across the DHS components and accessible also by other 
interested agencies, including the State Department as well as 
employers.
    Can you tell us where we are going to get with this request 
for funds?
    Secretary Chertoff. I can tell you, I can't point to the 
particular line item here, but we have a plan under our chief 
information officer to compress, reduce the number of 
individual IT systems and bridge them and allow them to speak 
to each other.
    We have begun to roll out interoperable IDENT and IAFIS. We 
have it in a couple of cities now, and we intend to continue 
that. So we are moving forward on the interoperability issue.
    Ms. Lofgren. Perhaps I can follow up with you off-campus 
and spend some time looking at the questions.
    One quick question, on the Department of Homeland Security 
budget request from OMB on page 6, I just don't understand 
this. It says Citizen and Immigration Services, 2006, actual 
$14 million; 2007, $182 million; estimate for 2008, $30 
million. How can that be?
    Secretary Chertoff. It is moved down to a different line 
item. I don't have it in front of me, but if you look down the 
table, there is another entry for USCIS that reflects the fee 
increase that we intend to put in.
    Ms. Lofgren. This is reflecting the fee, the fee, and we 
are having a hearing in the immigration subcommittee in 
Judiciary next week on the whole fee issue and where it is 
being allocated. If that fee plan doesn't work, you would be 
prepared to proceed with an appropriation for things that are 
appropriate?
    Secretary Chertoff. I think that would be a problem. My 
understanding is Congress has always mandated this.
    Ms. Lofgren. That is incorrect.
    Secretary Chertoff. If the fee were blocked, then we would 
have a big hole in the budget. That would be a big problem for 
this Congress because you would have to find a significant 
chunk of money. Either we would have to go back to the days of 
backlog or decide to hirer fewer Border Patrol or have less 
technology.
    Ms. Lofgren. The rule has always been that we don't use the 
fees for enforcement. Enforcement is the taxpayers' 
responsibility.
    Secretary Chertoff. This is to build an IT system. We are 
now very heavily in a paper-based system, and it is a headache 
for us and people who want to get citizenship.
    In order to maintain what we have now done, which is to 
eliminate the backlog except for the background checks, and to 
finally do the IT structure, we have to build that structure. 
So this is not an enforcement issue, this is an issue of having 
the tools to provide the service to the beneficiaries who are 
paying for it.
    Ms. Lofgren. We will get all of those details next week. I 
have gone over my time.
    Thank you, Mr. Secretary.
    Chairman Thompson. Thank you very much. We now recognize 
the gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you.
    Mr. Secretary, let me do somewhat of a mea culpa. We have 
had some rough times in this committee. Either it has been DHS 
planes following Texas legislators or the huge debacle of 
Hurricane Katrina and certainly recently the ongoing episode 
with Border Patrol agents.
    I do want you to glean a sense that we, and I, want to have 
an opportunity to work with you. We have seen decided 
improvement. I think collectively we want to see the tragic 
conditions in the gulf coast cured. Frankly, I think as we look 
at it long term, DHS is carrying much of the weight unfairly. 
So I hope you will view this committee as a collaborator. And 
as I mentioned to you privately, publicly FEMA certainly has 
gotten its act together and at least has shown a sensitivity to 
people in need. I say that so maybe we can plot through some of 
these concerns that I have from the perspective that we all 
want to move this agency in the right direction.
    Might I counter maybe the thoughts of DHS employees and the 
recent study of their morale and thank them for their service. 
It is very difficult, and I hope that you will continue to 
press the envelope on the transformation of the agency so they 
are DHS employees and that they are respected by all of us and 
maybe they will get that sense and we can pull together and be 
able to work together and salute their efforts.
    With that in mind, I hope with Chairman Thompson that we 
can work with the Budget Committee because, frankly, many of us 
shop in the fine stores of what we call the bargain basement, 
and I think DHS is in the bargain basement. I think the 
President has put this budget in the bargain basement. I want 
to quickly cite my concerns:
    Local law enforcement terrorism prevention grants zeroed 
out.
    State homeland security grants, 52 percent cut; and 
firefighter grant, 50 percent cut.
    I think collectively you can answer and say these are 
somewhere else, and that might be helpful, but I don't think 
so.
    The aviation security budget I would like to pursue later, 
and I don't want to dwell on that because you have $53 million 
for the secure flight.
    Mass transit, a mere 1 percent increase. I might associate 
myself with a number of remarks, particularly the ranking 
member, on saying we have spoken about the need and necessity 
for having security matters, as the 9/11 Commission said, under 
this committee unified, FEMA and otherwise. But a 1 percent 
increase in mass transit after the Madrid bombings and after 
the recognition that it is a system that is much in need of 
enormous security, and I yield to you, how are we going to 
function even as we authorize new rail security legislation, 
and a lot of these I believe the way the system works, the rail 
companies are supposed to be part of their own security, but 
mass transit burdens the local jurisdictions. It is an enormous 
burden, and we are not players in this with 1 percent increase.

               Congresswoman Sheila Jackson Lee, of Texas

            Statement before Committee on Homeland Security

   An Examination of the President's FY 2008 Budget Request for the 
                   Department of Homeland Security''

                            February 9, 2007

    Thank you Mr. Chairman. I thank Chairman Thompson for convening 
this important hearing to examine President Bush's FY 2008 budget 
request for the Department of Homeland Security. I welcome the 
Honorable Michael Chertoff, Secretary of the Department of Homeland 
Security, and thank him for testifying today for the first time before 
the 110th Congress.
    September 11, 2001, is a day that is indeliby etched in the psyche 
of every American and most of the world. Much like the unprovoked 
attack on Pearl Harbor on December 7, 1941, September 11, is a day that 
will live in infamy. And as much as Pearl Harbor changed the course of 
world history by precipitating the global struggle between totalitarian 
fascism and representative democracy, the transformative impact of 
September 11 was not only the beginning of the Global War on Terror, 
but moreover, it was the day of innocence lost for a new generation of 
Americans.
    Jud like my fellow Americans, I remember September 11 as vivdly as 
if it was yesterday. In my mind's eye, I can still remember being 
mesmerized by the television as the two airlineers crashed into the 
Twin Towers of the World Trade Center, and I remember the sense of 
terror we experienced when we realized that this was no accident, that 
we had been attacked, and that the world as we know it had changed 
forever. The moment in which the Twin Towers collapsed and the nearly 
3,000 innocent Americans died haunts me until this day.
    At this moment, I decided that the protection of our homeland would 
be a the forefront of my legislative agenda. I knew that all of our 
collective efforts as Americans would all be in vain if we did not 
achieve our most important priority: the security of our nation. 
Accordingly, I became then and continue to this day to be an active and 
engaged Member of the Committee on Homeland Security who considers our 
national security paramount.
    Our nation's collective response to the tragedy of September 11 
exemplified what has been true of the American people since the 
inception of our Republic--in times of crisis, we come together and 
always persevere. Despite the depths of our anguish on the preceding 
day, on September 12, the American people demonstrated their compassion 
and solidarity for one another as we began the process of response, 
recovery, and rebuilding. We transcended our differences and came 
together to honor the sacrifices and losses sustained by the countless 
victims of September 11. Secretary Chertoff, let us honor their 
sacrifices by adequately funding not only DHS, but also the first 
responders who so bravely sacrificed their lives on 9/11 and who work 
tirelessly every day to ensure that the tragedy of 9/11 is never 
repeated. Let us learn from the lessons offered by our history so that 
we are not destined to repeat them.
    After the events of September 11, 2001 the American people became 
painfully aware of the difference between feeling secure and actually 
being secure. As we examine the DHS's FY 2008 budget, we must take 
decisive steps to ensure that adequate funds are available so that the 
trust that the American people have placed in our hands is fully 
protected and guarded and that we take strategic steps to ensure their 
future safety from terrorist attacks.
    Although the President has proposed $2.9 trillion for the FY 2008 
budget, the budget request for the Department of Homeland Security is 
$46.4 billion. While this may sound like an exorbitant amount of money, 
it only represents approximately 2%, 1,6% to be exact, of the overall 
FY 2008 budget request. Mr. Chertoff, in his statement before us today, 
identified 5 major goals that should be achieved over the next two-year 
period:
        1) Protect our Nation from Dangerous People:
        2) Protect our Nation from Dangerous Goods;
        3) Protect Critical Infrastructure;
        4) Build a Nimble, Effective Emergency Response System and a 
        Culture of Preparedness; and
        5) Strengthen and Unify DHS Operations and Management.
    The first goal brings to mind the controversial case with the 
border agents who allegedly shot after an unarmed man who was crossing 
our borders from Mexico. In his recent State of the Union Address, 
President Bush reiterated his commitment to doubling the size of the 
Border Patrol, and the administration has requested funding for an 
additional 3,000 agents in FY 2008. However, it appears that the Border 
Patrol is not actually recruiting and retaining a sufficient number of 
agents to fulfill this promise.
    Heated debated has gone on with both sides over this case and many 
questions remain to be answered. In reviewing the budget, I am pleased 
to see that the FY 2008 budget request for U.S. Custom and Border 
Protect (CB0) is $10,174,113,000, an increase in $829.3 million over 
the enacted FY 2007 level. However, I do wonder if this increase is 
enough. Our utmost priority is ensuring the safety of all Americans and 
I want the House Homeland Security Committee on which I serve to 
examine whether the incident was caused in part because the Border 
Patrol did not have enough personnel and mangers on duty. We must make 
sure that another incident such as this does not reoccur and take the 
necessary steps for prevention. If indeed one of our goals is to foster 
a culture of preparedness, then it is imperative that we examine our 
DHS budget and allocate the necessary resources to hire an adequate 
amount of personnel so that our borders are protected and our goal of 
protecting our nation from dangerous people can also be met without 
violating any one's civil liberties while.
    Accordingly, this hearing is crucial in highlighting the 
Department's ongoing failure on a wide range of issues including its 
inability to cogently articulate the distribution of its Homeland 
Security dollars. Moreover, the Department' ineptitude in the grants 
allocation process is emblematic of its handling of issues vital to our 
nation's security, such as disaster response, FEMA assistance, port and 
rail security, and contracting.
    Although the FY budget request proposes $8 billion for FEMA and an 
increase of $101.9 million to the operations, planning, and support 
activities for FEMA, I am appalled to see that the budget increases the 
National Pre-Disaster Mitigation fund by a mere $53,000 and cuts 
emergency food and shelter funding by $11.47.
    This flagrantly goes against our goal of building a numble, 
effective emergency response system and a culture of preparedness. In 
addition to a lack of resources, lack of accountability has been a 
recurring theme in DHS. The preparation and response to Hurricane 
Katrina is the only obvious example for the lack of accountability 
within DHS. An estimated 11% of the $19 billion that has been spent by 
FEMA, which is $2 billion, has been waste, fraud, and abuse, clearly 
illustrating how DHS' poor management practices can directly translate 
into waste, fraud, and abuse.*
    I eagerly look forward to your testimony and discussion today of 
these issues. I thank you Mr. Chairman, and I yield back the balance of 
my time.

    Secretary Chertoff. Let me say, I appreciate your comments 
regarding the Department. I look forward to working 
collaboratively with this committee. We all want, at the end of 
the day, to have been joint founders of a Department that 
people will say really did the job that the American people 
expect. I know that the employees and my colleagues will 
appreciate your remarks and the recognition.
    On the issue of mass transit, let me again put this in a 
larger framework. We do slightly increase what we had last year 
with respect to rail transit grants, and again, we are focused 
on the high-risk systems. In addition, we have $41 million in 
the budget directly for TSA to provide services for rail 
security, including things like teams that we send in when 
there are threats, additional canine teams which are part of 
the model.
    And also, we are looking at what we need to require the 
railroads to do by way of training so they can more fully live 
up to their responsibility.
    The challenge with respect to mass transit is this: We do 
not employ most of the people who do security in mass transit. 
They are local people like port authority police or transit 
police. One of the reasons there is always a disparity between 
the amount we spend on aviation and the amount we spend on rail 
is because most of our aviation costs are personnel costs. 
Those personnel costs are really run by the local transit 
authorities.
    Where we do add value, and it is sometimes not in a direct 
grant, is by doing things like the bio watch program where we 
put bio sensors in the terminals in order to detect biological 
events.
    Our direct surge capabilities and our funding through these 
programs for certain kinds of things like video cameras and 
countermeasures. An additional way we help is through the 
science and technology budget. We look for new tools in order 
to raise the level of protection that these transit systems can 
build themselves.
    I think obviously the grants are a significant part of what 
we do, we actually add a lot of other elements to this mix.
    Ms. Jackson Lee. Let me, if I might, and my time is over, 
but I want to pursue this. I won't pursue TSA on training. I 
will submit my question as to whether the training is embedded 
because I think there is a great need for professional 
development and career pattern.
    But I want to get to the fence and SBInet of $1 billion. I 
think we have collectively, and I have heard the Department 
comment that a fence is of minimal value, a concrete wired 
fence. I would like you to explain the $1 billion SBInet, and 
as you explain it, would you be kind enough to indicate whether 
or not the Department's MWEB program, whether or not you will 
do oversight over the prime contract? In fact, I would like a 
report back on what minority contractors are engaged in this 
SBInet. Is that the fence? Are we wasting money on the fence, 
or have we gotten smarter to use money that will effectively be 
able to address this question?
    I will put in the record to get information about the Hutto 
center, which I am very concerned about, and the Border Patrol 
agent. If you would just comment on that, and I thank the 
Chairman for his indulgence.
    Secretary Chertoff. First of all, the $1 billion includes 
money for fencing where we feel fencing is appropriate. 
Sometimes that is pedestrian fencing, and sometimes it is 
vehicle barriers. And, of course, a significant amount of money 
is for technology.
    The deputy was just out there last week looking at the 
first lay down of technology. If you take the sensors and the 
ground radar between two hills and you deploy it, you can cover 
a huge amount of ground virtually and detect who comes across. 
And then if the Border Patrol has aviation assets, they can 
pick them up.
    In many parts along the border, that is the preferred 
method to building a wall. There are other parts of the border 
where fencing makes sense. The Barry Goldwater range, for 
example, where we are building a fence, even a small incursion 
interrupts our training operations and causes a risk to the 
migrants. There we are actually building poles and wire. We are 
going to do this based on the professional judgment of the 
Border Patrol.
    In terms of what we are doing to supervise this contract, 
we will get you a list of the subcontractors who are part of 
the contract. We have built into this something that was not 
part of Deepwater, which is the ability to designate portions 
of the contract where we will either separately compete them, 
or we will just decide, if we can get the equipment more 
quickly, we will buy the equipment and tell the contractor to 
put it in.
    Just recently, with respect to some of this traditional 
fencing, we told the contractor, you can bid to do the fencing, 
but we are going to have other bids, too. And if we decide we 
can actually buy the material more cheaply ourselves, we will 
buy the material and pay the labor. We are not going to give 
them the blank check. They will be a tool we can use, but they 
will be a tool that we can also put down and pick up another 
tool.
    As part of that process, we will work aggressively to make 
sure that we have outreach for MWEB contractors.
    Ms. Jackson Lee. Thank you.
    Chairman Thompson. Thank you very much.
    I recognize the gentlelady from the Virgin Islands, Mrs. 
Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Welcome again, Mr. Secretary.
    Before I get to my question, I share the concern of one of 
my colleagues about the inability to recruit and retain Border 
Patrol. I heard your response, and I look forward to meeting 
the President's goal by 2008. As you know, I am awaiting a 
Border Patrol unit in the Virgin Islands, but we will discuss 
that directly with the relevant people in the Department at 
another time.
    In your budget, there is funding set aside for contracting. 
We heard testimony from the comptroller general earlier this 
week about what seems to be a greater use of contracting in the 
Department of Homeland Security and concerns about the 
contracting itself, the process, the management of those 
contracts, and the products from the contractors. It raises 
concerns about the lack of continuity and institutional memory 
within the Department. I wonder if you would respond to those 
concerns.
    Secretary Chertoff. I think the need for professional 
procurement and acquisition management is a government-wide 
issue. As you get into these very complicated acquisitions, it 
is a skill that is very much different from the garden-variety 
acquisition.
    This Department, until it was stood up, never did the kinds 
of major procurements, except the Coast Guard doing it in 
Deepwater, that are more routine in DOD. So we have put in the 
2008 budget requests for almost $10 million that would be 
directed at acquisition workforce development, that is the 
recruiting and training program, so we can begin to build a 
cadre in the Department who can supervise.
    Mrs. Christensen. I am concerned about using contracts to 
replace what would otherwise be employees.
    Secretary Chertoff. The model we try to use is to use 
contractors where there is a surge capability or where there is 
an immediate shortfall and we can't fill something otherwise.
    Ideally on the things that are kind of recurrent duties, 
you have to do all of the time, you want to build a workforce 
to do that work. Sometimes as we get into emergency situations, 
there is a little bit of unevenness, so we try to fill the gap 
with contractors.
    Mrs. Christensen. Thank you for your response.
    As one of the members that sought to have an amendment last 
year to fully fund the Deepwater project for the Coast Guard, I 
am disappointed to see there is a decrease of $356 million in 
2008 compared to 2007 for Deepwater. Given the recent findings 
of the inspector general concerning the cutters, can you 
explain, given this cut and other cuts, how you are still 
satisfied with your budget?
    Secretary Chertoff. Admiral Allen, when we sat down to do 
this budget, we looked at both things that have to be addressed 
in terms of, for example, the problem with the 123-foot 
cutters, which we are addressing partly through extended use of 
Navy vessels and some adjustments with respect to the way we 
handle the crews. And this caused a kind of reconfiguration of 
the forward-looking plan with respect to accelerating certain 
portions and moving certain portions back so that the mix of 
cutters coming online is best suited for what our current gaps 
are and what our current mission is.
    Having consulted with the Coast Guard, I am satisfied that 
this keeps us on track to do what we have to do, recognizing 
that there have been some problems with the program and that 
Admiral Allen is going to spend some time really kind of 
beating the contractors a little bit.
    Mrs. Christensen. I also have some concern about what seem 
to be large increases in the fees in Citizen and Immigration 
Services because, at least in my experience, at home, many of 
the people who are legitimately seeking to immigrate are poor. 
I guess I would be less concerned if I knew it was going to 
result in greater efficiency and shorten the time that people 
have to wait on their documents. Can you tell us what is being 
done? What is in your plan to shorten the waiting time? I have 
people who have been waiting years.
    Secretary Chertoff. There are a couple of elements. 
Director Gonzalez when he testifies will probably be much more 
specific.
    There are two parts. The money here is directed to 
upgrading for the first time our IT system and getting away 
from a paper-based system to an electronic system. That is 
going to help in a significant, maybe the significant majority 
of cases in cutting the processing time and making it quicker.
    There is a separate issue we have to deal with separately, 
and it is partly dealt with money, but it is also a process 
issue, and that has to do with the background checks.
    For the vast majority of people, a background check is 
pretty straightforward. There are some people who, because of 
issues that arise with their name, wind up requiring a 
background check that goes further into the files. The FBI does 
that. And sometimes you are dealing with legacy files that are 
scattered in different parts of the country.
    Some of this is cured by money, the fee money we are going 
to use to pay for the cost of processing more of these more 
quickly at the FBI. Some of them are going to require us 
sitting down with the FBI and seeing if we can configure this 
system to make it work more quickly.
    One thing that we have done to indicate how we are trying 
to be more sensitive, there was a story in the paper about 
people who lose their Social Security benefits because, you 
have to be a citizen within 7 years, or they lapse. So I talked 
with Director Gonzalez, and he is now serving all of the people 
in the queue to see who is in jeopardy of losing benefits, and 
we are moving them to the front of the queue. We are trying to 
identify those problems that we can fix right now in order to 
deal with these issues.
    Chairman Thompson. Thank you very much. I recognize the 
gentleman from North Carolina, Mr. Etheridge.
    Mr. Etheridge. Mr. Chairman, thank you.
    Mr. Secretary, thank you for being here, and thank you to 
the people of your agency who work so hard every day.
    As you indicated earlier, we would not be here nor would 
this committee exist had it not been for 9/11. It was the first 
responders that we were so proud of that day. Every American 
was proud of the job that they did and continue to do. And many 
stood with them and put their arms around them, the 
firefighters, the police, the medical teams, who really stood 
up for America. They saved lives. Many gave their lives in 
order to protect us and assist in the recovery. They faced the 
same thing in Hurricane Katrina, and in every other manmade or 
natural disaster. We are grateful for these people's efforts.
    And yet the budget the President has submitted to Congress 
gives little priority to the resources they need to continue to 
do their fine work. You alluded to it earlier, but I want to 
get some specifics and get your response because it goes from a 
cut of a third in the funding to as much as 63 percent. It 
eliminates funding for the Local Law Enforcement Terrorism 
Prevention Program, which plays a key role in assisting local 
law enforcement agencies in information sharing, target 
hardening, threat recognition, mapping, things that are 
critical across this country in identifying, as you say, bad 
people who want to do bad things to us.
    It cuts by 52 percent the State Homeland Security grants 
which provide for first responders in all 50 States, reduces 
funding for the Assistance of Firefighters Act program, nearly 
50 percent.
    It denies funding for training for first responders to 
improve their capability to prevent, deter and respond safely 
and effectively to instances of terrorism involving weapons of 
mass destruction.
    You said earlier you were happy with your budget, and I 
would like to know how do you justify these shifts in 
priorities away from these very critical areas to the people 
who serve us every day? I-95 is a critical artery, as are all 
of our interstates in this country; and 30 percent of the 
traffic on that road is commercial. A lot of dangerous stuff 
moves up and down it. I put that in as context for your 
response.
    Secretary Chertoff. First of all, again, there is a lot of 
money that goes to first responders. The LAPP money, for 
example, we have traditionally taken the position that it is 
important to fund law enforcement, but it ought to be done as 
25 percent of the money that goes to the Homeland Security 
grants or the urban area grants. That is money that is supposed 
to go to police in part and to other first responders. So the 
fact that it is not separately categorized as a law enforcement 
grant simply means it is money that ought to be coming to first 
responders through the other categories.
    The big addition here--
    Mr. Etheridge. Can you identify those other categories?
    Secretary Chertoff. State Homeland Security grants, UASI, 
and the billion dollars in interoperability. I mean, 
interoperability money is directly money to let first 
responders talk to each other. That is $1 billion for them to 
use to get their systems to work, which everybody has 
acknowledged is a huge priority.
    So while it may be configured differently than it was, I 
think the net-net amount of money that actually gets in the 
hands of first responders is substantially the same as it was 
as was appropriated last year.
    Again, I remind the committee that there is $5 billion in 
the pipeline. So simply putting money in the pipeline that is 
not being spent--and this is not a criticism because you don't 
want to fling the money at a problem--but it is not that people 
are starving. There is money en route, and we are keeping the 
flow steady.
    Mr. Etheridge. Mr. Secretary, having served at the local 
and at the State level, you and I know that, in a lot of cases, 
before the money can get there, number one, they need to have a 
plan; and number two, in a lot of cases, they need to spend the 
money first and then apply for the reimbursement of the funds. 
So just because there is money in the pipeline does not 
necessarily mean things are not happening at the local level.
    Secretary Chertoff. I know that.
    Mr. Etheridge. Saying there is money in the pipeline, I 
hope people don't misunderstand that there are not continuing 
needs. If we don't meet the basic needs, you have to have basic 
operability before you can have interoperability. In a lot of 
cases, I can assure you, there are local fire and rescue units 
that do not have the basic operabilities to apply to basic 
interoperability.
    We don't want the billion dollars to come here and then cut 
it on the other side so that we still don't have the resources 
to meet the needs, because if we have a major disaster, 
wherever it is in this country, the last time I checked, I 
never did see a Washington, D.C., fire truck or a Washington, 
D.C., U.S. Government fire truck unless it is on a Federal 
installation. We are depending on these locals. I hope you keep 
that in mind because this is a team effort. We continue to put 
the responsibility on them, and I think it is incumbent upon 
this committee to continue to ask the tough questions. It is 
important that we put the resources to help.
    Secretary Chertoff. Thank you.
    Chairman Thompson. I recognize the gentleman from Rhode 
Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. I appreciate the 
tough job you have.
    I serve right now as the chairman of the Subcommittee on 
Emerging Threats, Cybersecurity, Science and Technology. It is 
my intention that, in that subcommittee, we will focus on those 
areas that serve as glaring vulnerabilities with the most 
catastrophic consequences should an attack, a terrorist attack, 
occur. So on that front, I have three questions that I will try 
to address. What we don't address hopefully you can respond for 
the record in writing.
    I want to focus on Bioshield as well as the SAFE Ports Act, 
particularly with respect to radiation portal monitors. With 
respect to Bioshield, yesterday I had an opportunity to discuss 
some of the strengths and weaknesses of this program with 
Comptroller General Walker, GAO, as well as Inspector General 
Skinner. I have to say I am very concerned with some of the 
recent problems that have come to light with respect to the 
Bioshield program.
    For example, we all recently heard about the cancellation 
of VaxGen's contract for next-generation anthrax vaccine. At 
the time, this was the only major procurement contract under 
Bioshield. This is one example of the many problems with 
Bioshield. As I have said in the past, this program is far too 
important to fail, and we absolutely have to do everything we 
can to ensure its success.
    As chairman of the Subcommittee on Emerging Threats, I plan 
to hold several hearings to explore how to fix the major 
problems with the Bioshield's operations, and in order to get a 
full understanding of the program's failures, we may very well 
need to hold joint hearings with other committees tasked with 
oversight of human services, and I am fully prepared to do so. 
In fact, there is already a hearing on this issue in the works 
right now with that subcommittee.
    But, Mr. Secretary, on this topic, what do you see as 
Bioshield's greatest weaknesses? And what do you think led to 
the cancellation of VaxGen's contract? And how would you work 
with Secretary Leavitt of HHS to close some of gaps that exist 
with this program? Lastly, what specific steps can DHS take to 
ensure Bioshield's success?
    On SAFE Ports, the SAFE Ports Act that was passed last year 
was a very important bipartisan measure. The SAFE Ports Act was 
authorized at $200 million for the newly created program, yet 
the President's budget would only fund this crucial program at 
$210 million, nearly half of what the law actually called for. 
Do you think that $210 million will be sufficient funding to 
carry the missions of this program, and could you clarify why 
the proposed funding is nearly 50 percent below what the law 
actually called for?
    My final question, I am concerned that some of the 
deadlines with respect to the SAFE Ports Act have not yet been 
met. This law calls for DHS to deploy a strategy for deploying 
the radiation portal monitors at our 22 busiest seaports within 
3 months of the law's enactment. The SAFE Ports Act was signed 
into law on October 13, 2006; 3 months would put us at January 
13, 2007. Today is February 9, and we have not seen the 
strategy for deploying this important technology. The fact that 
the strategy for the deployment is late worries me in terms of 
when we can actually expect to see the technology deployed.
    My question is, why has DHS not provided Congress with a 
deployment strategy, and when can we expect to see that 
strategy? And finally, how can we be ensured that actual 
deployment of radiation portable monitors will commence on 
time. Are you still confident that the radiation detection 
equipment will be fully deployed at our Nation's 22 busiest 
seaports by December 31st of this year?
    Secretary Chertoff. Let me answer all of these as quickly 
as I can.
    With respect to Bioshield, I have worked closely with 
Secretary Leavitt to streamline the process from the 
government's standpoint. We have completed a number of material 
threat determinations which puts it in the hands of HHS to 
actually identify the people who are to benefit from the money 
in terms of developing the particular countermeasures. I am 
going to leave it to them to get into the science and what the 
best way for them to make that determination is.
    I don't feel I am scientifically sufficiently well versed 
to give you an explanation why VaxGen was unable to generate 
the vaccine that was hoped for.
    I think it is important that, at some point, HHS faces up 
to the fact that it is not happening; it is not working, and 
you have to pull the plug and move to something else. I think 
that is an important spirit.
    So I think this is probably an issue that is best addressed 
comprehensively with HHS on the medical element, the medical 
research element. They are really the principals in terms of 
making the judgments that have to be made.
    With respect to the SAFE Ports Act, first of all, let me 
observe that money for some of the radiation detection 
equipment also comes out of the DNDO budget. It is not entirely 
out of port security grants, so there is other money. If you 
look historically at what we have done with respect to ports 
and you consider the direct value of the Coast Guard and 
Customs, which actually provides the boots on the ground, I 
think we have had $10 billion over the last several years.
    In terms of the actual grants themselves, our recommended 
budget item for port security is exactly what Congress 
appropriated last year. Congress chose to appropriate only half 
of what was authorized which I gather is not uncommon when 
budget time comes around.
    So looked at comprehensively, when you consider the value 
of the Coast Guard and Customs Border Patrol assets, plus the 
direct investments in radiation portal monitors, as well as the 
grants, there is a significant amount of investment that the 
Federal Government is making in SAFE Ports.
    Finally, with respect to the RPMs, we are on track to have 
virtually all of the containers that come into the U.S. through 
the seaports going through radiation portal monitors by the end 
of this year. I was told yesterday that Long Beach is 100 
percent now in terms of going through the radiation portal 
monitors. I think this may be a case where the actual 
deployment has proceeded well ahead of the document because we 
have actually been working on this deployment for a couple of 
years now.
    Mr. Langevin. I hope you can get that strategy to the 
Congress as soon as possible. Thank you.
    Chairman Thompson. I now recognize Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Secretary, I am pleased to have you at least as a part-
time constituent. I feel much safer because of that.
    I want to echo Ms. Jackson Lee's sentiment that we are very 
proud of the work done by everybody at DHS. In fact, I will be 
offering a resolution regarding that next week.
    Last week we met with Secretary Jackson and he said, 
``MAX<SUP>HR</SUP> is dead.'' Is MAX<SUP>HR</SUP> in fact dead? 
And if so, what is taking its place?
    Some say it was an ill-conceived product to begin with, but 
the concept isn't, of bringing Homeland Security, all 
Departments into a unifying structure. What are we doing to 
replace that?
    Secretary Chertoff. The unification and integration and the 
building of a performance-based system is very important. That 
is not dead. It is obvious that the court dismembered a 
significant part of the original plan, particularly as it 
related to collective bargaining and some of the grievance 
issues, so we are going to follow the court's guidance on that.
    But we are moving forward with performance-based 
evaluation, which includes training supervisors on doing 
performance-based evaluations.
    We may operate a small pilot in one component for 
nonbargaining unit people with respect to actually linking pay 
to performance, particularly in the area where there is a lot 
of knowledge and we are competing with private industry.
    So we are trying to advance on those elements of MAX<SUP>HR</SUP> 
which the court permits us to advance with. I think one of the 
points of the survey, one of the consistent low marks was the 
issue of people feeling that performance wasn't being 
adequately rewarded or lack of performance sanctioned. So we 
need to build that and train people to that, and our human 
capital officer is going to be doing that.
    Mr. Carney. I want to follow up on Mr. Bilirakis' question 
from earlier. We talk in this committee about the OPM report 
and the performance. Why do you think there was so little 
progress made in the last 2 years, and what are you doing now 
to make things better?
    Secretary Chertoff. That is the question I asked myself 
when I saw the report. The survey was taken in the summer of 
2006. I am going to say, I think this is a little speculative 
on my part, but we are going to have some town meetings and try 
to get more into the depths.
    I think part of it is in general the growing pains of a new 
department. There was a point in time last year in some of our 
components we didn't have enough desks for people. I can tell 
you the headquarters building we are in now is very, very 
difficult to operate in. People were working very hard 
operationally, and that was cutting down on training.
    There were a whole series of issues like that that we are 
going to gradually build over time. That is one of the reasons 
why we want to put the money into St. Elizabeth's because we 
need a headquarters.
    Second, we need to do a better job of communicating to 
employees. It is very hard to build a systematic way to reach 
out to everybody, and we are trying to look at our 
communications activities to see what we need to do internally 
as well as externally.
    And then there are three things that happened last year 
that had an impact on morale. One was we were in the middle of 
kind of post-Katrina soul searching, which is not a morale 
builder by any stretch of the imagination.
    MAX<SUP>HR</SUP> was in limbo, and there was a lot of 
stress for employees not knowing which way it was going to go. 
I think having a resolution in itself is a very positive thing.
    And then there was the whole issue of whether FEMA was 
going to get pulled out of the Department and reorganized. And 
I can tell you that reorganizations are extremely stressful for 
people.
    Where I hope we are now is we can come to rest with the 
structure that we have, which I think is good; that we can 
start to build a communications capability internally, and that 
we can address the issues in terms of work life happiness, what 
your physical surroundings are.
    Let me end with this plea. We got banged in the budget on a 
number of occasions in the last couple of years on things like 
management and stuff that isn't that glamorous, and it is hard 
to argue to the folks back home why we put money into 
management. But I know you know that, at the end of the day, if 
you don't attend to that stuff, it really hurts. So this is a 
great opportunity for me to pitch to make sure that we pay for 
the nuts and bolts as well as the things that people look at 
that show up well on television.
    I appreciate your thinking about doing a resolution and 
your concern about this. We ought to talk about it more.
    Mr. Carney. Thank you for your time.
    Chairman Thompson. I now recognize the gentleman from 
Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. I am honored to be in your 
company and find you are doing a commendable job. However, 
given what the challenges are, I am not sure whether I should 
congratulate you or pray for you.
    Secretary Chertoff. Pray for me.
    Mr. Green. I assure you, I will do both.
    Your goals are notable, laudable and achievable. However, 
the rhetorical question becomes: Are they efficaciously doable 
given that you do not have the plan that has been discussed by 
a number of my colleagues so as to avoid duplications and so as 
to have proper prioritization?
    My next question has to do with Hurricane Katrina and your 
credentials indicate that you are a student of jurisprudence 
par excellence, and I commend you for your many areas of 
expertise.
    But the people that we saw on television were literally on 
an island of desperation, and they were looking for some sort 
of lifeline of hope. And, unfortunately, many of them, instead 
of finding a safe harbor of hope, find themselves on an island 
of desperation in Houston, Texas. I am simply saying to you, as 
a student of jurisprudence, you understand the doctrine of last 
clear chance. I believe we may be their last clear chance at 
this point, notwithstanding all that has occurred. My suspicion 
is, if we don't act to develop an overall plan for them to 
reintegrate themselves into their hometowns, it may not happen.
    And finally, with reference to the border, I find this to 
be an interesting situation because we put a lot of emphasis on 
the southern border. And my understanding of the empirical 
data--and you may correct me if I'm wrong--is that those known 
terrorists who have either come into the country or tried to 
get into the country, the known terrorists did not come across 
the southern border.
    Before you answer any of the other questions, can you let 
me know whether I am correct on that question with reference to 
the empirical data?
    Secretary Chertoff. Yes.
    Mr. Green. If this is true--and we can cite some, the 9/11 
hijackers; the millennium bomber; the Murrah Federal Building, 
those folks didn't come across the southern border--all of them 
were home grown or may have come in--
    Secretary Chertoff. The millennium bomber came from Canada. 
The others came through our ports of entry or were from our 
country.
    Mr. Green. If we overemphasize the utility of the fence, do 
we give a false sense of security because it would seem to me 
that we want people to understand that if a fence goes up, it 
will probably do a lot for impeding the ingress and egress of 
undocumented workers? I am not sure that it is going to do as 
much as many might think that it will do to safeguard us from 
terrorists.
    More specifically, we could have 100 percent effectiveness 
with this fence, but it could only be a 1 percent perhaps 
increase in safeguarding us from terrorism. Because we get 100 
percent effectiveness doesn't mean that can be translated into 
100 percent as it relates to terrorism? With these three 
things, I would beg that you would utilize the remainder of my 
time to respond.
    Secretary Chertoff. With respect to the first question, we 
are putting a lot of emphasis now on joint planning. We are 
building capabilities to plan in a way that cuts across a 
number of agencies. We borrowed some of the model from DOD to 
do that. We have more trained people to do that. I think one of 
the areas where you see that is we have built a well integrated 
border strategy that comes across a number of elements. I think 
that is promising for the future.
    We are also doing that with disaster relief. The Coast 
Guard is going it set up adaptive force packages so they can 
actually work with FEMA to move things in a way that is 
seamless and that they plan together how to do that.
    On Katrina, I think this is one of the great heartaches 
that we have here, the inability to build a setting in New 
Orleans that will let people come back.
    Part of what we will try to do is develop a housing plan 
for the people in Houston, for example, that gets HUD much more 
involved. I think in terms of the skill set and the tools 
available to the Federal Government, an agency like HUD is 
better adapted to long-term recovery. FEMA really is a short-
term emergency operation.
    There is a longer discussion to be had about what should be 
done to help out in New Orleans, which is longer than I can 
discuss in the time allotted.
    On the last point, I think it is clear that there is a 
different set of concerns and threats between the southern 
border and the northern border. The talk about the southern 
border, a lot of it is focused between the ports of entry 
because there is a large volume of people coming between the 
ports of entry.
    Up to this point in time, that has not been as serious an 
issue with Canada. However, we do have to worry about people 
coming in through our ports of entry. We consistently find 
people that we turn away that have linkages to terrorism.
    The good news is that the Canadians have a good 
intelligence system, and we work together to identify people 
who are threats before they even get to the border. But I don't 
want you to think that we are not attentive to this. Not only 
are we putting more aerial assets and sensors between the ports 
of entry and the north, but the whole emphasis on our Western 
Hemisphere Travel Initiative is to give our inspectors the 
tools to make sure that we are turning people away who are 
going to come in, like Ressam, the millennium bomber. So it is 
a slightly different strategy because of the different laydown 
of what we are facing. But I think you are dead right that we 
have to look at both borders and our coasts in this issue.
    Mr. Green. Thank you.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much. I would like to add 
that we will have a second round of questions. We do have the 
Secretary until 1 p.m.
    I now recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for sitting with us and talking 
to us and really preparing for this hearing. You have a good 
knowledge of your budget. I am going to have some specific 
questions about the budget that I would like to ask.
    First, I want to compliment you and the Department for 
focusing on securing the borders. That was a real emphasis of 
the Congress and the prior Congress. You have taken steps, and 
I congratulate you on that.
    You mentioned the enforcement against employers. One of the 
things I did not see in the budget was some kind of work with 
Social Security or other agencies so that employers know 
quickly, accurately, whether or not somebody who is coming into 
their employ is legitimately here in this country.
    I would like you to respond to that, please.
    Secretary Chertoff. There are two ways we deal with that. 
The first is we have a basic pilot which we are putting 
increased funding in, which is a system that allows employers 
to get online and check to make sure there is a legitimate name 
and a legitimate social security number. That addresses most of 
the issues that employers face.
    There is another problem, though, which is sometimes you 
get identity theft where a genuine name and number are stolen, 
and that system is not picked up through that. That requires a 
legislative change, and I think actually Senator Allard and 
Senator Grassley are either about to or have dropped a bill in 
the Senate on this. It requires the authorization, currently 
prohibited by law, for the Social Security Administration to be 
able to look at the filings that come in and see whether the 
same name and number are being forwarded to two different 
places. That ability to scan for the system for that, which is 
legally prohibitive, would give us a targeting capability; and, 
ultimately, also you could give employers that information so 
they could make further inquiry, but that requires 
congressional action.
    Mr. Perlmutter. Thank you. You know, as we move from 
securing the border, dealing with the supply, dealing with the 
demand side, in my opinion, your Department is going to have to 
focus on the processing side, the processing side in terms of 
dealing with Social Security so that there is accurate 
information; and, hopefully, we are going to have--and I am 
confident we are going to have--some comprehensive legislation 
come out of here on immigration reform, which is going to give 
you some directives. But I am concerned, as was Representative 
Lofgren, that, on the processing side, you are relying on fees. 
There is really nothing in there, and that is going to be 
something that I see swamp a big, important part of your 
Department. That is Number one.
    Number two, on the building--and you know, I am on this 
committee, and I used to pride myself as being kind of a budget 
hawk and privacy guy, and I am feeling a little bit of out of 
place on this committee, but here is a budget question. We have 
got about $120 million for the move to the St. Elizabeth campus 
in this year's budget. Yet that building really is not slated 
for completion until 2014. Did you front-end the budget with 
$120 million or is there going to be a lot more after this?
    Secretary Chertoff. No, there is going to be a lot more. A 
significant amount of this is going to be GSA money, and we 
were hopeful we would get some GSA money in the 2007 budget. I 
do not think it came in, but the lion's share of this will be 
GSA money.
    In addition, our leases are going to run out on a lot of 
our properties, in any event, in the next 5 years, so we are 
going to have to spend the money one way or the other, and we 
might as well spend it on what we want, as opposed to what we 
can get, but we were hoping with this money--and I have started 
with the Coast Guard--to begin a process that would get the 
Coast Guard in place by 2011 and then the rest of the 
headquarters' elements of the Department by 2014 or so.
    Mr. Perlmutter. Okay. I guess I would ask that your 
Department prepare some kind of finer projection as to the 
ultimate cost of that building, especially when we have got, 
you know, our Visitors Center over here that has gone wild in 
terms of cost overruns. And, you Know, even though I agree with 
Representative King that you are in a Department where we want 
to make sure that you are provided with resources, we still 
have to be smart about how that money is spent.
    Secretary Chertoff. There is a plan, and there is a 
projection of what it is going to cost. The $120 million is 
just the element to start. I do not have, frankly, off the tip 
of my tongue what the total cost is, but we can get that to 
you.
    Mr. Perlmutter. Okay. Since we get to do another round, I 
will yield back the balance of my time and wait until you come 
around to me again.
    Chairman Thompson. Well, since you have been so gracious, I 
will give you a little more time, if you would like.
    Mr. Perlmutter. At this end, when you are at the end of a 
train, you learn a lot of patience, and I am at the very end 
here, and I am at the end in Financial Services, which brings 
me to my next question. As I was looking through your budget--
and I will find it--on floodplain insurance and floodplain 
mapping, one of the issues that has come up in Financial 
Services is the fact that a number of people in New Orleans and 
in Mississippi were outside of floodplains when, you know, of 
course they were just swamped when that hurricane came through. 
And I see--and I will find it--but I see reductions in 
floodplain insurance and flood map modernization in this year's 
budget request, and so my question is, though I like--you know, 
usually I ask about increases to budgets and here I am going to 
ask you about decreases to budget. Why is that?
    Secretary Chertoff. I do not have the actual figures on 
that in front of me. I do know that we have completed in the 
gulf area the advisory base flood elevations and are working 
under way on the other elements of this.
    In terms of the specifics about why that has dropped, I 
think that is probably something I am better off getting back 
to you on.
    Mr. Perlmutter. Okay. Thank you. Because it really has 
become a major topic of conversation on the Financial Services 
Committee, and I think it is something that we really have got 
to look at closely.
    Mr. Perlmutter. I yield back, and I have more questions, so 
whenever you want to get back to me.
    Chairman Thompson. Well, if you are patient, we will get 
back to you.
    Mr. Perlmutter. I am learning patience, Mr. Chairman. Thank 
you.
    Chairman Thompson. Thank you very much, and we will begin 
the next round of questioning.
    You will keep hearing this name over and over, Mr. 
Secretary, about this $1 billion interoperability issue, and I 
cannot impress upon you my and the ranking member's concern 
about that whole issue. Can you explain for the committee in 
clear terms the reason for the delay in working out this 
memorandum of understanding with the Department?
    Secretary Chertoff. I do not think it is a matter of 
principle. I think everything in Government always takes a 
little bit longer than you think it should.
    About a week ago, I said, let us just get this done. You 
know, sometimes you get the sense that everybody feels they 
have got to touch every piece of paper or it is not, you know, 
properly blessed, but we will get--this is just a matter of 
getting the paperwork done. I think they are meeting either 
today or the early part of next week to figure out whatever 
wording issues are left. Within 10 days, if I do not have the 
piece of paper to sign, I will be on the phone with Secretary 
Gutierrez; and we will just figure out what we have to do to 
get it done.
    There is an agreement we are going to go forward with this, 
and I know both agencies and OMB are determined to get moving 
very quickly on the guidance because we want to get this out 
there as fast as possible. We all have the same objective here.
    Chairman Thompson. Ten days?
    Secretary Chertoff. Yes.
    Chairman Thompson. Thank you very much.
    Another issue that we see from time to time is, you know, 
we have a number of tunnels that have been constructed along 
the southern border specifically, and some of us are having 
difficulty seeing whether or not the Department is moving with 
enough dispatch to fill the tunnels in. Can you give the 
committee your assurance, even though the budget does not 
reflect resources to complete the destruction or the filling in 
of the tunnels that have been used to smuggle individuals and/
or drugs into this country, that we will, in fact, do that?
    Secretary Chertoff. Yes. Most of the tunnels have been 
filled and capped. I think seven have not been. It is costing 
about $3 million, and the budget for CBP--although there is not 
a separate line item--includes the money to get those filled.
    Chairman Thompson. So will that be within the present 
budget year or the future?
    Secretary Chertoff. I think we can do it this year, 
actually. I think there is money to get it done. In the 
meantime, we do monitor them. The one thing that sometimes 
slows us up is sometimes the tunnels go under private property, 
and care has to be taken in the way that you fill it so you do 
not impact the private property and the buildings on top of it.
    Chairman Thompson. Well, if you would provide the committee 
with the Department's timetable--
    Secretary Chertoff. Sure.
    Chairman Thompson. --in accomplishing that, we would really 
appreciate it.
    We had testimony earlier in the week from GAO and the 
Inspector General that there were times that the General 
Counsel injected himself into the process of getting 
information. Is that something that you put in place or have 
you reviewed it and see that as a hindrance in allowing the 
Comptroller General and the Inspector General to do their jobs; 
and, if so, what is your latest position on that?
    Secretary Chertoff. We certainly do not mean it to be a 
hindrance. I saw some of the IG's testimony, and I thought 
yesterday he was, you know, pretty satisfied with the General 
Counsel's Office. I guess GAO was not. I have told the General 
Counsel we want to be cooperative. We want to be expeditious. 
Obviously, he has to assure himself that, when we are producing 
things or interviews are being done, we are not compromising 
any legal positions that we have to maintain. And I know, 
having spent a lot of years as an investigator, that, you know, 
sometimes investigators believe the mere presence of a lawyer 
is a bad thing, but I do not happen to think that is right.
    Chairman Thompson. Because you are a lawyer?
    Secretary Chertoff. Because I am a lawyer, because I have 
been on all different sides of this. I have investigated, and I 
have represented those being investigated, but the bottom line 
is, consistent with their professional obligations, I have 
asked them to be as cooperative as possible with investigators.
    Chairman Thompson. Well, one of our problems is you are 
now, by virtue of having a General Counsel, getting blamed for 
the delay in congressional mandated reports being received in a 
timely manner; and if this process is delaying the submission 
of congressionally mandated reports, I think you need to review 
it.
    Secretary Chertoff. I agree with that.
    Chairman Thompson. Thank you.
    I now yield to the ranking member.
    Mr. King. Thank you, Mr. Chairman.
    Again, I want to thank the Secretary for his testimony this 
morning.
    Three quick points, one on the issue of port funding, where 
we authorized $400 million and $210 million is in the year's 
budget. I think we have become part of the circular reasoning 
in that you are saying the $210 million is in the budget this 
year because that is what Congress appropriated last year, and 
we must have felt that was the right number. My understanding 
from talking with the Appropriations Committee is the reason 
they put $210 million in last year, only $210 million, is that 
the budget was not big enough to go beyond that. So that, 
again, goes to my point, you know, as to how would you look 
upon the budget as to what we need or just keep basing it off 
the previous year?
    Now I have two questions. One, when do you expect the UWASI 
grants to be announced; and, secondly, as to Charles Allen and 
the intelligence operation in DHS, how mature do you think that 
is becoming as being part of the intelligence apparatus of the 
Federal Government, and is it establishing the position you 
think that it should have for the Department of Homeland 
Security?
    Secretary Chertoff. As to the first, the guidance is out. I 
cannot tell you off the top of my head when the first 
submissions are supposed to come in.
    What we agreed to do this year was to have enough time to 
allow one round of back and forth so that, if we got something, 
you could help yourself by retooling. We can do that. I will 
give you the deadlines on that. I do not remember.
    Secretary Chertoff. I think Charlie Allen has led 
intelligence analysis, I think, very significantly to a new 
level. First of all, he sits with the other senior intelligence 
agency heads and the DNI's kind of major intelligence counsel. 
I have given him substantial authority, including budget review 
authority, over the intelligence components. He is undertaking 
a significant number of initiatives, including researching and 
analyzing homegrown terrorism; and we work closely, literally 
on a daily basis, taking intelligence and operationalizing it 
with our operational components.
    When the President was up yesterday, we took him into the 
National Operations Center, and I had Admiral Rufe there, who 
is the head of our operations coordination. I had Charlie Allen 
there, and they both said to the President, you know, this is a 
partnership that takes intelligence and turns it into action. 
So this is a dynamic task, but we have made huge progress.
    Mr. King. Are you satisfied there is sufficient cooperation 
coming from the CIA, the FBI and the DIA as far as giving the 
level of intelligence to Mr. Allen that he needs to be able to, 
you know, make intelligent decisions and also to share that 
with local governments?
    Secretary Chertoff. Yes, I am and, you know, continuing to 
work to refine our share and make it quicker. We are also 
working with State and local governments to support financially 
their creation of fusion centers and then to embed analysts in 
fusion centers.
    Then the other thing Charlie has done is set up a 
fellowship program to bring local officials into information 
analysis so, A, we can get the benefit of their perspective 
and, also, then they can go back and go back. He has a very 
good vision for the future, which is having a much more 
vertically integrated intelligence capability so that we are 
really using the intelligence-gathering abilities of the police 
to pick up things.
    And I do not want to filibuster, but let me just highlight 
one thing.
    One thing we did with the grant guidance this year, 
frankly, because I talked to Rick Kelly about it, was create a 
space to use some of the money for personnel costs if they are 
dedicated 100 percent to counterterrorism--we are going to do 
that in L.A., too--and the reason we did it was we recognized, 
for the next wave of homegrown terrorism, a lot of our 
intelligence is going to come from police in the community who 
are going to see things that we do not pick up in satellites 
and with spies. So we really have a vision for how we want to 
go forward with this for the next decade.
    Mr. King. Thank you very much.
    Chairman Thompson. Thank you, Mr. Ranking Member.
    We now recognize the gentlelady from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Mr. Secretary, I mentioned before that I 
had some aviation questions, and I did not ask them. One in 
particular comes to mind, and I welcome your thoughts on this 
question. That is that we have discovered individuals who have 
been testing our security in what we call ``general aviation 
airports;'' and, frankly, it is shocking--individuals without 
identification, without purpose and without reason being able 
to simply drive onto the tarmac.
    Interestingly enough, the subcommittee that I chair has 
responsibility for critical infrastructures, and those are 
chemical plants, refineries, and you can imagine a general 
aviation plane in the vicinity of such refineries leaving a 
general aviation airport, not under legal piloting, and simply 
hitting those facilities.
    What can we do--and I know, again, we have a jurisdictional 
question that goes back to my association with Mr. King's 
remarks that we really need to cohesively have DHS have control 
over a number of these security issues. I believe that we need 
to explore how we can be more stringent on the security 
measures of these airports, and I would welcome your thoughts 
on this.
    My second question is, I mentioned the Hutto facility, and 
I look forward to visiting it. I am hearing some distressing 
thoughts which say that some of the children with families have 
been separated and to be defined as ``unaccompanied minors'' so 
that they can be put in another facility because there is not 
enough room, and frankly, I think we owe an obligation to those 
centers for people under civil issues to not be treated as 
criminals.
    But I would be interested on the general aviation. I have 
great concerns about that and will be looking forward to the 
opportunity for some hearing before this committee.
    Secretary Chertoff. I saw that report. I kind of think it 
was the media that actually went in and did that. You know, TSA 
does have authority and does lay rules in place for general 
aviation.
    As we have progressed on the front of commercial aviation--
and one of the things I have asked TSA to do this year is to go 
back and look at the general aviation sector and see where do 
we need to tighten up. You know, we have been post 9/11 for 
over 5 years; and now I think we have an opportunity to stand 
back and look at areas where perhaps progress is not what it 
should be or maybe where the private sector has gotten a little 
lax. We need to start to figure out how do we turn the 
temperature up a little bit. To be honest, after a while, I 
start to lose patience, and I am prepared to do a little 
kicking. So I am going to have Administrator Hoyer look at that 
and see.
    Now, if we have a lack of authority, we may come back and 
say we need more authority, but if we just need to be a little 
tougher, we are going to be a little tougher.
    Ms. Jackson Lee. And the detention facility and separating 
children when they should not be separated?
    Secretary Chertoff. I have not heard about separating 
children. I do not know if there has been some particular 
circumstance where that has occurred.
    I do know that a lot of effort was placed into making it, 
to the extent any facility can, be family friendly so we would 
not have to separate children. I know you are going down, I 
think, in the next week or two; and, obviously, if we need to 
make an adjustment to procedures there, we will do that.
    Ms. Jackson Lee. Quickly, I have mentioned to you the 
border patrol agents. We understand that they still do not have 
bargaining rights. I would like you to comment on that but also 
comment on what I think is a severe need for professional 
training and career path. These are law enforcement officers, 
and how can we begin to turn the corner on those issues?
    Secretary Chertoff. I do not know exactly what their union 
rights are at this point. I mean, they are a police agency, so 
there may be some limits.
    With respect to career development, I think in general&
    Ms. Jackson Lee. And training.
    Secretary Chertoff. And training.
    I think in general in the Department, particularly as 
people progress, we do need to come up not only with a better 
career development path but one that emphasizes the unity of 
the Department. You know, one of the things we have seen are 
some border patrol and border inspectors now applying to become 
ICE agents because they want to do investigative work. That is 
not a bad thing, and I do not want to discourage that. We need 
to find ways to allow them also to grow within their own agency 
as well as going out. So this is part of our whole human 
capital effort to try to build this 21st Century organization.
    Ms. Jackson Lee. I thank the chairman.
    Chairman Thompson. Thank you very much.
    Ms. Jackson Lee. Thank you.
    Chairman Thompson. Now I recognize the gentleman from 
California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Secretary, first of all, let me just say that, several 
months ago, a particular cybersecurity concern came to my 
attention. We alerted Mr. Foresman of your Department, and his 
reaction was immediate. The Interagency Task Force was 
established. He understood the severity of the concern, and I 
understand we will be briefed at some point in time in the near 
future, and I think that is reflective of the kind of 
relationship that develops between this committee as the main 
committee of jurisdiction on Homeland Security--your 
Department--and I appreciate that, and I look forward to that 
kind of work in the future.
    You know, we hear a lot of things from a lot of people. 
Some appear to be serious, some not. This did appear to be 
serious; and while I do not discuss it publicly, I just want to 
publicly thank you for that and the professionalism.
    The other thing that was of interest was the credibility 
that your Department has that, when you went to establish an 
Interagency Task Force on this matter involving a number of 
different agencies, including some that have been around a long 
time, the response to that was immediate, and that is a good 
sign, as far as I am concerned, for whether this system is 
being broken. You do not get the headlines on that. You get 
headlines about what you are not doing.
    Perhaps the reason why the tenor of this hearing is, I 
think, a little bit better than what I saw in the newspapers is 
this committee has a better understanding on an ongoing basis 
of what you are doing and what you are doing to improve.
    Secondly, I would like to ask you this. I mean, there were 
some questions about the housing and tents that we are putting 
the non-Mexican illegal aliens in. I have a friend who is in 
Tikrit right now, and he is an Army officer, and he is living 
in the remains of what was a shower. How does the tent city 
that you have got compare to what our troops are living in in 
places around the world right now?
    Secretary Chertoff. Well, first, again, thank you for your 
comments. I think it is important for the morale of the agency 
to have the quiet things recognized sometimes, and I appreciate 
that.
    I visited the particular tent city that was depicted in the 
Post before it opened. They are not like tents like Army tents. 
They are large structures with almost rigid but not quite rigid 
sides. They are air-conditioned, and they have rows of bunks 
like dormitories, like in an Army barracks. My recollection, 
although, you know, it is not that clear, is that there are 
partitions, contrary to what the reports said, in between the 
various stalls and the showers. There is an eating area and a 
recreational area. I think there is a television.
    So, in terms of the physical structure, I would have to say 
it is one which I think our troops would be delighted to occupy 
in places, you know, all over the world. Now, it is never fun 
to be locked up, but these are designed, hopefully, to have 
relatively quick turnover, and so they are not meant to be 
places of permanent habitation.
    Mr. Lungren. And there is a difference, in my mind, between 
what is inhumane and what is uncomfortable. I would suppose 
these are uncomfortable, and people would like to get out of 
them as I would.
    Let me ask you about something that Mr. Pierce has brought 
up on a number of occasions, and that is the effectiveness of 
K-9 units. I noticed that, in the surface transportation 
budget, you increased the explosives detection K-9 program by 
$3.5 million. Do you know how many K-9s are currently deployed 
and to which systems and how many more K-9 units will be 
allocated as a result of this $3.5 million?
    There has been some suggestion that sometimes, even better 
than some of these technological fixes that we are always 
chasing, K-9 units have tremendous capacity for examining 
cargo, whether it is a fixed rail, whether it is passenger, 
whether it is air, and so forth.
    Secretary Chertoff. The money reflects 45 additional K-9 
teams, and I agree. I think the dogs in almost every case--
there are a couple of exceptions--are superior to technology. 
We cannot make them fast enough. We cannot get the dogs 
produced fast enough, and not all the dogs--you know, some of 
them flunk out of the K-9 school, but they are actually a great 
detection tool.
    Mr. Lungren. There was some question about whether we have 
the capacity to have the training that is necessary. That is, 
do we have the facilities such that, if we indicated that we 
needed to double or triple this, is the training capacity out 
there? Are we limited by the training facilities that are 
currently available?
    Secretary Chertoff. I am not sure I can answer that. I know 
we are currently training a lot of dogs. I was down at the 
facility in Front Royal. I do not know what the limiting factor 
is--suitable dogs being born and put into the program, suitable 
trainers or suitable facilities--but, I mean, we can handle the 
45 additional K-9 teams. You know, the dogs are somewhat 
expensive, too, and their useful period of work is not their 
entire life. I mean, at some point they kind of wear out. But 
if we need to put more into the training, we will put more into 
the training.
    Mr. Lungren. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Mr. Secretary, earlier you mentioned your support for the 
Information Sharing Fellows Program, and I am glad to see the 
bipartisanship on that. Because you know that was a Democratic 
idea that we kind of put forth last year, so I am glad to see 
you picking it up and moving it forward.
    We will now hear from the gentleman from Texas, Mr. Green.
    Mr. Green. Thank you again, Mr. Chairman.
    Mr. Secretary, if you would, share with us as briefly as 
you can your vision for security within the country as opposed 
to ingress and egress but within as it relates to a facility 
comparable to Union Station as we look to the future.
    Secretary Chertoff. Most of the infrastructure in the 
country is either owned and operated by local authorities or by 
the private sector, so I do not envision us--the question I 
always have to ask is, what is the Federal contribution? Where 
does it make the most sense?
    One area is technology. So, for example, with our BioWatch 
Program and moving to the next generation of biowatch, that is 
something you cannot reasonably expect localities or private 
parties to do. We have got to do that kind of research work. We 
have got to deploy that. Funding for things like cameras and 
systems of that sort I think are, again, where we can value add 
with respect to a place like Union Station.
    When it comes to the private sector, you know, I think we 
need to help them survey and understand what security measures 
they need and how to best go about providing security. But I 
honestly do not know that the Federal Government would pay for, 
let us say, Exxon Mobil to secure its own assets. We want to 
tell them what they need to do, which is lay down performance 
standards like the chemical facilities, give them assistance, 
but, at the end of the day, they have a responsibility as well 
to protect not only their own assets but the communities in 
which their assets are situated from being turned into a 
weapon.
    This is really a partnership, and that means it has got to 
be a network relationship, as opposed to a government owns 
everything and operates everything relationship.
    Mr. Green. I thank you, and I do look forward to working 
with you. Again, I commend you. Thank you very much.
    I yield back.
    Chairman Thompson. Thank you.
    And, Mr. Green, we will take that question forward during 
the next month as we look at rail security as a broader issue 
for this country. So we will be working with the Department and 
industry itself in coming up with a model that makes the 
traveling public more secure.
    We will now get back to our patient member, Mr. Perlmutter 
from Colorado.
    Mr. Perlmutter. Thank you, Mr. Chairman; and Mr. Secretary, 
again, thank you for, sir, your generous time today.
    I have a few more questions, and I want to start with 
interdicting, you know, contraband, drugs. Again, I am going to 
be asking you about cuts, as opposed to increases, but I 
noticed in a couple of your line items we have got cuts to drug 
interdiction, $56 million. Can you explain that?
    Secretary Chertoff. I need to get the particular line item 
so I can look at what we are talking about. Do you have the 
line item?
    Mr. Perlmutter. It goes from--
    Secretary Chertoff. Oh, thanks.
    Well, I guess what I would say is, on that particular item, 
we are going from--it is off of a base of $1.3 billion, so I 
think some of this reflects adjustments in the budget with 
respect to Coast Guard, which are reflected as part of the 
border program, and then it has to be allocated against the 
various categories of the program which are covered under the 
border and associated programs.
    When we get into very small cuts and adjustments, I mean, 
this is part of what is a tough budget process where we are 
trying to fund new initiatives. We are trying to see can we 
tighten the belt a little bit without sacrificing the mission 
in a significant way. It is a fairly small cut relative to the 
$1.3 billion; and it just reflects, I think, a judgment that we 
could afford to cut a little bit there to put something 
somewhere else.
    Mr. Perlmutter. Okay. Thank you.
    In terms of the conversation we are having with a couple of 
the representatives on working with local police and law 
enforcement and first responders, as I understand the way the 
Department has worked it has been primarily on a grant type of 
basis to develop, you know, some expertise in the local law 
enforcement in terms of sharing intelligence and things like 
that.
    I guess my question is--and again, you know, wanting local 
control and develop local expertise is a good thing. Grants, 
however, run out; and I can tell you in Colorado there is 
particular concern that the grants have run out. It was sort of 
2003 to 2006 or 2004 to 2007, and it is gone, and they are 
really concerned about how it maintains, how it sustains 
because you do not want it to just run out. Can you respond?
    Secretary Chertoff. First of all, let me preface it by 
saying we do work with locals directly in the sense we have a 
Joint Terrorism Task Force and we have fusion centers. Let us 
say, in the ports, we have, you know, the Coast Guard 
integrated with local police. So there are many ways we work 
with the locals on an ongoing basis operationally.
    You know, what you say about grants is true, and that is 
because grants, I think, in the main are meant to be capacity 
building. What we are trying to do is build capital investment 
and build training that will then allow the localities to do 
the work themselves.
    Frankly, a lot of the times when we get into tussles over 
grant funding is because localities understandably are 
interested in having a portion of their sustainment budget 
covered by the Federal Government. I mean, they used to have a 
COPS program and block grants. I mean, those are revenue-
sharing programs.
    I have to say the general philosophy we have had, with some 
exceptions like we have done with Stonegarden at the border or 
what we have done with the police in the major cities, has been 
not to have this be revenue sharing but to have it be capacity 
building and investment that will ultimately yield to 
sustainment by the localities.
    Mr. Perlmutter. I guess my response is that you built the 
capacity, but you are then shifting--well, States or the local 
governments then have to pick up the cost to maintain the 
program. And you know, in Colorado and, I think, in other 
States, one of the complaints you are seeing is that they are 
not in a place where they can pick up the program. Then what 
you have built for 3 years is just going to sort of die on the 
vine, and that is just my caution to you.
    Secretary Chertoff. Well, that is one of the reasons--when 
we evaluate grant proposals, part of what we are looking to see 
is, has the applicant thought of a proposal that they are 
capable of sustaining themselves? Have they looked at their own 
budget and are they able to say, you know, if you give us this, 
we then have the ability to carry it forward? That really will 
address that issue.
    Mr. Perlmutter. A last question, Mr. Chair, if it is okay.
    In terms of the--I think your testimony was that we had 
18,500 beds. It has gone to 27,500. You want to add another 
1,000 beds. Do you have any sense of--I mean, how do you work 
with, say, for instance, prisons and training the guards at 
these things, and how much does it cost you per bed on an 
annual basis?
    Secretary Chertoff. Well, let me say we do not own all of 
the beds. When we say ``beds,'' a lot of these beds we lease, 
and we do that exactly because of the surge back and forth. 
There is a figure per bed. I do not have it in my head.
    But one of the things we do use--it is almost like a hotel 
reservation system. We do run a system where we scale up and 
scale down in different parts of the country depending on what 
the flow and the capacity needs are. I am sure I can get you 
the dollars per bed. Not all but most of them are on a contract 
basis. Like we use local law enforcement jails and stuff like 
that.
    Mr. Perlmutter. Okay.
    Chairman Thompson. Thank you very much.
    Mr. Secretary, if you would, on that subject, if you can 
get us the cost per Department bed as well as the cost per 
contracted bed, I think we could then kind of look at the 
numbers and kind of see where we are.
    Secretary Chertoff. Yes.
    One thing I should say is this is actually an area where 
contracting makes sense. Because if we built a large facility 
in, let us say, Arizona, and then over time the need for bed 
space--and they are contracted--was that we have got more need 
in Florida--we would be stuck. So it is this kind of 
fluctuation where we actually do like to contract.
    Chairman Thompson. And we have staff going to visit over 
the next 3 weeks several of these sites to kind of give the 
committee more information on it, also.
    I would like to thank the Secretary for his valuable 
testimony.
    Ms. Jackson Lee. Chairman.
    Chairman Thompson. Yes.
    Ms. Jackson Lee. Would you just yield for just a moment?
    Chairman Thompson. Yes.
    Ms. Jackson Lee. Mr. Secretary, would you put this under 
your contemplation?
    The chairman indicated that this committee and several 
other committees will be looking at comprehensive immigration 
reform. We do not want to suggest that law enforcement agencies 
should not be enforcing the rules, but you have some 
humanitarian issues with mothers, children, fathers in the 
pipeline of deportation who are under your jurisdiction, and I 
just will explore with you the consideration of some 
moratorium, some mandatory moratorium, as this comprehensive 
immigration process is about to unfold.
    We had to deal with a situation of a mother of two young 
children--and I know there may be many like this, but I do 
think it is worthy of consideration in the light of the 
President's charge and our charge to get a bill out in the next 
6 months. I think it is an important question to consider, and 
that is a humanitarian response to some who are in the pipeline 
of deportation.
    I yield back.
    Chairman Thompson. Thank you.
    Again, Mr. Secretary, we want to thank you for your 
testimony. The members of the committee may have additional 
questions for you, and we ask you to respond expeditiously in 
writing to these questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 11:43 a.m., the committee was adjourned.]


              APPENDIX: ADDITIONAL QUESTIONS AND RESPONSES

                              ----------                              


                 Questions from Hon. Bennie G. Thompson

                  Responses from Hon. Michael Chertoff

    Question 1: Mr. Secretary, as you know, the Committee on Armed 
Services produces an authorization bill each year for the Department of 
Defense. I believe this bill provides much needed Congressional support 
and resources for DOD.
    Do you believe that the Department of Homeland Security could also 
benefit from the passage this year by the House and Senate of a 
bipartisan bill that authorizes key programs at DHS and makes moderate 
management reforms that you and this Committee are seeking?
    Answer: The Department of Homeland Security (DHS) has undergone 
significant restructuring since its inception. As part of this 
restructuring, we have instituted several management reforms. I believe 
it is prudent to institute the reforms we have underway, stabilize our 
operation, assess our performance, and then determine what additional 
management reform is required.
    Towards that end, in addition to implementing the organizational 
restructuring directed by the Department's FY 2007 Appropriations Act, 
I am issuing management directives that strengthen and centralize the 
authorities of our Chief Acquisition Officer, the Chief Procurement 
Officer and our Chief Information Officer. These directives will 
provide the Department's headquarters leadership with greater 
visibility and control over our most significant investments in new 
tools and capabilities to fulfill our mission.

    Question 2: Mr. Secretary, the GAO has said that if there was a 
merger between private sector companies on par with the creation of the 
Department of Homeland Security, it would take five to seven years for 
the companies to integrate fully. The Department is now four years old.

    Do you think it has made four years of progress?
    In other words, where is the Department on this five-to-seven year 
progression?
    Is it at year four, year three, year two?
    Answer: The GAO may have said that if there was a merger between 
private sector companies on a par with the creation of the Department, 
it would take five to seven years for the companies to integrate fully. 
However, the merger and restructuring of government agencies is 
dramatically more complicated than mergers in the private sector. We 
certainly believe that we have made four years of progress and are well 
on the way to becoming a more effective Department.

    Question 3: Mr. Secretary, as you know, the Department remains on 
GAO's high risk list. In May of 2005, GAO issued a report that 
identified your Business Transformation Office as having a potentially 
important role in facilitating the integration and development of the 
Deparment. Yet in the almost 2 yeas since, we have had a difficult time 
figuring out just what the Business Transformation Office does. In 
fact, it seems like an empty shell of an office. This year you have 
requested no direct funding for it.

    Do you have a vision for this office?
    What role do you see it playing in the development of the 
Department,. and how it can it fulfill this role without funding?
    Answer: The Business Transformation Office was eliminated from the 
Office of the Under Secretary for Management in Senate Report 109-273--
Department of Homeland Security Appropriations bill, 2007. Under 
Committee Recommendations for the Office of the Under Secretary for 
Management, the bill states the following:
        Business Transformation Office--The Committee does not provide 
        funding for the Business Transformation Office (BTO). While the 
        Committee values the integration that BTO sought to provide, 
        the Committee finds such integration can be coordinated 
        directly out of the Immediate Office of the Under Secretary for 
        Management, eliminating the need for an independent office.
    The House agreed with the Senate in the conference report and the 
Homeland Security Appropriations Act of 2007 (Public Law 109-295) 
eliminated funding for the BTO from the Office of the Under Secretary 
for Management.

    Question 4: Mr. Secretary as you know, the Department ranked at the 
bottom of the just-released OPM survey of job satisfiaction among 
federal employees. This abysmal ranking was little changed from OPM's 
previous survey, 2 years ago.

    Why do you think the Department made so little progress in two 
years, and what are you doing now to assure substantial improvement 2 
years from now?
    Answer: I take these results seriously and am disappointed by the 
Department's low survey rankings. Immediately after the report was 
issued, I asked Deputy Secretary Jackson to immediately send out a 
message to all employees communicating our results and letting them 
know that we were very disappointed with our scores and would be taking 
immediate steps to try to effect changes which would lead to improved 
morale. We anticipate impacting scores through the performance 
management system we began implementing in 2005 as well as the 
leadership training initiatives which we started to implement last 
year.
    We are developing a two-pronged approach--Department-wide and 
Component level activities. These activities include:
        <bullet> Ongoing data analysis for actionable conclusions;
        <bullet> Focus groups (Department-wide on leadership and 
        communication issues);
        <bullet> Action plans to address top 2 to 3 areas of weakness; 
        and
        <bullet> Sharing Component best practices across the 
        Department.
    There are three areas where we did not do well:

    Performance Management: In 2006 when the survey was administered we 
had just begun the roll-out of the performance management system (PMS) 
for all managers and supervisors. In addition, we continue to revamp 
and reissue performance management tools which we believe will 
contribute to changing the negative employee perception of performance 
management within the Department. These initiatives include:
        <bullet> Holding managers accountable for addressing FHCS 
        issues as a corporate requirement;
        <bullet> Ensuring all employees in the new performance system 
        are on performance plans

    Leadership: From 2004 through 2006, we hired just under 200 senior 
executives to fill leadership positions within the Department. Also, in 
this time, we established the Chief Learning Officer position within 
the Office of the Chief Human Capital Officer, and produced several 
leadership courses now being offered as part of DHS' Leadership 
Institute. These courses include:
        <bullet> Delivering new leadership training programs to focus 
        on core skills identified in the survey (leveraging existing 
        Component programs, where possible);
        <bullet> Rolling-out existing leadership development programs, 
        including the SES Candidate Development Program and the DHS 
        Fellows Program; and
        <bullet> Conducting 360 degree evaluations for SES/TSES 
        supervisors to assess its use as a basis for improving 
        communications, leadership and results.

    Communications: We are improving our communications by having the 
Office of Public Affairs work in conjunction with the Office of the 
Chief Human Capital Officer to:
        <bullet> Enhance DHS websites to include more messages from 
        senior leaders on topics relevant to the workforce;
        <bullet> Structure a series of all hands meetings in 
        coordination with Components to address key issues;
        <bullet> Prepare an abbreviated DHS 101 module that explains 
        DHS, what it does, who is in it, the Secretary's priorities and 
        how each organization relates to them; and
        <bullet> Maintain a robust FHCS website to ensure employees 
        have access to all information on the Department's activities.
    Through these coordinated efforts, we aim to address the areas for 
improvement identified by the survey and put in place new 
accountability structures to help us implement, communicate and measure 
our effectiveness in doing so. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question 5: Mr. Secretary, when we met with Deputy Secretary 
Jackson last week, he said, and I quote ``MAX<SUP>HR</SUP> is dead.'' 
Is MAX<SUP>HR</SUP> in fact dead, and if so what is taking its place? 
While MAX<SUP>HR</SUP> may have been ill-conceived from the beginning, 
the idea of unifying the Department's human resources systems is not.

    What are you doing towards this goal, how much will it cost, and 
what is the implementation plan?
    Answer: The use of the term MAX<SUP>HR</SUP> is no longer 
appropriate because our human resources programs encompass critical 
areas not identified in the MAX<SUP>HR</SUP> initiative. Over the last 
two years, much work has gone into the MAX<SUP>HR</SUP> program.
    MAX<SUP>HR</SUP> did not go far enough in addressing the broad 
range of needs for a 21st century human capital program across the 
Department. For this reason, we will no longer be using the term 
MAX<SUP>HR</SUP> as we move to address broader initiatives that are 
essential for us to be successful in the future.
    We are continuing our efforts to unify the Department's human 
capital programs. The Department (Chief Human Capital Officer), in 
collaboration with the Components, has developed a Human Capital 
Operational Plan to serve as a roadmap for further integration. This 
plan allows DHS to adjust to new priorities while focusing on five key 
goals, which are designed to improve DHS' capacity to build and sustain 
a high-performing workforce with the knowledge, tools and resources to 
achieve the Department's vital mission. They are:
        --Hire and retain a talented and diverse workforce
        --Create a DHS-wide culture of performance
        --Establish high-quality learning and development programs
        --Implement a DHS-wide integrated leadership service
        --Be a model of human capital service excellence
    Under these goals, we will continue the valuable work begun under 
the MAX<SUP>HR</SUP> program, but broaden our focus to other areas, 
such as developing career paths to expand career opportunities and 
investing in learning and development programs to give employees the 
knowledge and tools they need to be successful. We will also modernize 
hiring and retention programs to make sure we can attract and retain 
the best talent. With respect to the programs initiated under 
MAX<SUP>HR</SUP>, we will:
        -- Expand the implementation of the DHS Performance Management 
        Program to allow us to work more effectively across Components 
        and align the work we do with the strategy, vision, and values 
        of the Department.
        -- Implement a pay-for-performance pilot program in a small 
        Component or organization to validate, measure, and refine the 
        pay band models and processes.
        -- Work with the Office of Personnel Management and collaborate 
        with employee representatives to decide on next steps 
        consistent with recent court rulings.
    By proceeding in this deliberate manner, we will ensure that 
performance management is well-established in the Department, and that 
we have adequate time to properly train the workforce. These actions 
will also support our efforts in addressing the issues raised by the 
Federal Human Capital Survey.
    The FY 2007 budget includes funding to initiate these efforts and 
additional funding will be sought, as needed, in FY 2008 and beyond to 
sustain robust human capital programs throughout DHS. The chart below 
reflects the differences between MAX<SUP>HR</SUP> and the newly adopted 
Human Capital Operational Plan (HCOP).

    Question 6: Mr. Secretary the Nation's transportation systems are 
inherently ``open'' environments and in the Department's own budget 
justifications it says ``There is a very real ongoing threat to 
transportation security, particularly involving the mass transit mode, 
as evidenced by the Bombings in Madrid during the summer of 2004 and 
London in July 2005'' But the President's FY08 budget only requests an 
additional $4 million for TSA's surface transportation security.

    If TSA is responsible for all modes of transportation, when is 
TSA's budget going to reflect this fact?
    What percentage of your overall budget is dedicated specifically to 
rail and public security?
    Answer: Budgets seen as specifically dedicated to surface 
transportation security are not reflective of the overall effort of TSA 
or the Federal Government in these areas.
    Since 9/11, the Federal Government has dedicated an estimated $900 
million to transit security alone. This figure encompasses grant 
programs administered by the Department of Transportation (DOT), 
Federal Transit Administration (FTA), DHS, and TSA.
    Additionally, FTA annually awards more than $3.5 billion in capital 
improvement grants. These funds may be used for capital security 
enhancement. Under the Safe, Affordable, Flexible, Efficient 
Transportation Equity Act--A Legacy for Users, up to two percent of 
these grants may be dedicated to security training and exercises.
    The $900 million cited does not reflect the value of supporting 
services the Federal Government provides to transit security through 
funding of broader security efforts, such as the Transportation 
Security Operations Center, the Transportation Security Intelligence 
Service, and DOT's Crisis Management Center. Our Government's 
investments and improvements in terrorism watch lists, border security 
and intelligence networks significantly impact surface transportation 
security. Such efforts focus on preventing the terrorists from ever 
entering the United States and are part of a layered defense for 
surface transportation security.
    These and other programs contribute to accomplishing the surface 
transportation security mission. The intelligence and information-
sharing and alert capabilities maintained through these processes are 
other key components of the layered approach to transit and rail 
security.
    Transportation Security Administration (TSA) focuses on information 
sharing, preparedness, domain awareness, training, and using a risk-
based management approach to maximize the impact of available resources 
through random, visible security activities. We have employed wide-
ranging strategies that engage our stakeholders and help ensure the 
security of mass transit and passenger rail systems. The TSA budget 
involves programs and funding that may seem to be specific to certain 
modes when, in fact, they impact security across all modes. TSA has 
learned much in aviation security that is being used in the surface 
transportation modes. Budgets allocated to aviation security actually 
provide real benefit throughout the entire transportation system.
    For example, Federal Security Directors work closely with surface 
modes to make many aviation security measures available to surface 
transportation security. TSA Explosives Detection Canine Teams, Visible 
Intermodal Prevention and Response teams, portable screening equipment 
and the National Screening Force have been deployed to provide enhanced 
security to surface transportation.
    Much of the Nation's aviation infrastructure is federally owned, 
which requires a Federal budget. The surface modes of transportation, 
many of which are privately owned and operated, receive security 
funding from multiple streams (i.e., State, local, private). The 
responsibility for mass transit security and passenger rail security is 
a shared responsibility among a variety of stakeholders, including 
State, local, and Federal agencies, and private owners and operators. 
To that end, TSA works in partnership with the DHS Office of Grants and 
Training and will award $199 million in surface transportation security 
grants in FY 2007. These grants are awarded in direct relationship to a 
program's value in mitigating the greatest risk to surface 
transportation.

    Question 7: Earlier this week, Administrator Hawley told us that 
the Transportation Sector specific Plan was still under review by the 
Administration. This plan was due over 2 years ago.

    Why the long delay and when can the Committee expect the plan to be 
completed?
    Answer: The National Strategy for Transportation Security (NSTS) 
was required under the Intelligence Reform and Terrorism Prevention Act 
of 2004 (IRTPA) as the initial Department of Homeland Security (DHS) 
mechanism for the development of a broad-based transportation strategy. 
The NSTS was the document due two years ago, which was delivered to 
Congress in October 2005. Per IRTPA, an updated NSTS was provided to 
Congress in August 2006.
    On December 5, 2006, the President issued Executive Order 13416 
which builds upon the improvements made in surface transportation 
security since September 11, 2001, specifically actions taken under 
Homeland Security Presidential Directive 7, ``Critical Infrastructure 
Identification, Prioritization, and Protection'' (HSPD-7). Executive 
Order 13416 requires the strengthening of our Nation's surface 
transportation systems by the facilitation and implementation of a 
comprehensive, coordinated, and efficient security program. In doing 
so, we continue to build upon current security initiatives to develop a 
comprehensive transportation systems sector specific plan, as defined 
in the National Infrastructure Protection Plan (NIPP), as well as modal 
plans for surface modes as defined in the Executive Order.
    In June 2006, DHS signed the NIPP as the comprehensive Critical 
Infrastructure and Key Resources (CI/KR) planning framework supporting 
the tenets outlined in HSPD-7. Each of the 17 CI/KR sectors was 
required by the NIPP to develop a sector-specific plan in collaboration 
with various security partners across government and private industry. 
December 31, 2006. The Transportation Systems Sector Specific Plan 
(TSSP) was developed and reviewed within the Department. HSC cleared 
the TSSP in early March.

    Question 8: In the FY07 Homeland Security Appropriations Bill, 
Congress provided the Department with a specific timeline for grant 
distribution. We had to do this because your Department has 
consistently been late in distributing these substantial funds. Despite 
this clear guidance, however, the Department was once again 7 weeks 
late in distributing the FY07 grant guidance.

    Please explain why there is such a long delay in distributing this 
funding
    Answer: The Department of Homeland Security (DHS) places a premium 
on distributing grant funds to State and local jurisdictions in a 
timely manner. We realize that these funds are critical to building and 
sustaining capabilities at all levels. Prior to the grant guidance 
release for the fiscal year 2007 Homeland Security Grant Program and 
the Infrastructure Protection Program, we continued to seek stakeholder 
input on a variety of issues to ensure a strong programmatic 
application. In addition, we were committed to ensuring that we spent 
the time necessary to strengthen the upfront analysis portion of the 
Urban Areas Security Initiative eligibility determination.
    Further, the Department received specific requests from a number of 
State homeland security advisors on behalf of governors from their 
respective States asking that the Department delay releasing this grant 
guidance until January 2007. This extra time ensured that States and 
urban areas did not lose valuable days around the holiday season during 
the application period. The Department decided to grant this additional 
extension based on these requests.

    Question 9: Mr. secretary at yesterday's ``Update on Federal Rail 
and Public Transportation Security Efforts Hearing,'' Administrator 
Hawley was asked about Department training requirements for front-line 
rail workers, and he responded--incorrectly--that such requirements 
existed.

    Were you also under the impression that this training was required? 
And if you were not, can you please explain why they are not required?
    Can yu explain to the Committee why you again missed an opportunity 
to impose training requirement for these workers?
    Answer: The Federal Government currently has security training 
requirements in place in both passenger and freight rail. The 
Transportation Security Administration (TSA), through its various 
assessment programs conducted by the Surface Transportation Security 
Inspectors, monitors employee training information and efforts, which 
differ for passenger rail workers and freight rail workers.

Passenger Rail/Mass Transit
    Under the current Transit Security Grant Program (TSGP), employee 
security training, drills and exercises, and public and employee 
awareness programs are considered fundamental to a comprehensive 
security program and are essential factors in evaluating eligibility 
and in awarding grants. The TSGP guidance emphasizes the implementation 
of effective and targeted training designed for front-line transit 
staff and public awareness. Additionally, TSA and the Federal Transit 
Administration's (FTA) Rail Fixed Guideway Systems: State Safety 
Oversight Rule, title 49, Code of Federal Regulations (49 CFR), section 
659.19 (k)(7), requires that system safety plans include the process 
used by the rail transit agencies to develop an approved, coordinated 
schedule for employee emergency training activities.
    With regard to passenger rail, the Federal Railroad Administration 
(FRA) regulation on passenger train emergency preparedness,I CFR Part 
239.101 applicable to certain commuter or other short-haul passenger 
train services and intercity passenger train services, requires 
employee training as a component of the emergency preparedness plan. 
The regulation states that the plan shall address individual employee 
responsibilities and provide for initial training, as well as periodic 
training at least once every two calendar years thereafter, on the 
applicable plan provisions. At a minimum, the initial and periodic 
training shall include:
        (A) Rail equipment familiarization;
        (B) Situational awareness;
        (C) Passenger evacuation;
        (D) Coordination of functions; and
        (E) Hands-on instruction for location, function, and operation 
        of on-board emergency equipment.
    The requirement also applies to control center personnel and 
requires that they be provided with initial training, as well as 
periodic training at least once every two calendar years thereafter, on 
appropriate courses of action for each potential emergency situation. 
At a minimum, the initial and periodic training shall include:
        (A) Dispatch territory familiarization and
        (B) Protocols governing internal communications between 
        appropriate control center personnel when an imminent potential 
        emergency situation exists.

Freight Rail
    Security training is already required for many workers in freight 
rail transportation and, as a matter of good business practice, has 
been extended to many operational employees by the railroad companies.
    DOT's Pipeline and Hazardous Materials Administration currently 
requires security training of all hazardous materials (hazmat) 
employees in freight rail transportation (49 CFR 172.704). Title 49 CFR 
171.8 defines a hazmat employee as a person who in the course of their 
employment directly affects transportation safety. The term hazmat 
employee specifically covers persons who ``load, unload, or handle 
hazardous materials,'' ``[prepare] hazardous materials for 
transportation,'' ``are responsible for the safety of transporting 
hazardous materials,'' or ``[operate] a vehicle used to transport 
hazardous materials.''
    Employers must provide hazmat employee training, which includes the 
following:
    <bullet> General awareness/familiarization training;
    <bullet> Function-specific training;
    <bullet> Security awareness training, which must include a 
component covering how to recognize and respond to possible security 
threats;
    <bullet> In-depth security training, which must include information 
concerning the company security plan and its implementation, company 
security objectives, specific security procedures, employee 
responsibilities, actions to take in the event of a security breach, 
and the organizational security structure; and
    <bullet> Recurrent training every three years.

    Question 10: Mr. Secretary I am troubled by recent problems with 
the Coast Guard's Deepwater Program. The DHS Office of the Inspector 
General just released a report highlighting structural deficiencies 
with the National Security Cutters. Last year, the Coast Guard had a 
drydock the entire class of 123-foot cutters because of these problems.

    How much is it going to cost the American taxpayer to fix these 
structural deficiencies?
    Answer: National Security Cutter (NSC)
    Technical work characterized by the ability of the structural 
design to meet Coast Guard requirements has been completed. Design 
modifications to increase overall cutter fatigue tolerance will be 
completed this March and the Coast Guard NSC program office will begin 
detailed discussions with ICGS on potential design solutions at that 
time. Costs will not be fully developed until the design changes are 
decided.
    To mitigate risk, the PEO, in concert with the Deepwater Program's 
Technical Authority (Assistant Commandant for Engineering & Logistics) 
and working with ICGS, is developing a full technical solution that 
will be incorporated into production of hulls three through eight. With 
regard to hulls one and two, the USCG intends to implement similar 
enhancements during normal post-delivery availabilities that will be 
well before any projected fatigue service-life limitations are reached.

123' Patrol Boats (WPB)
    Due to ongoing engineering and structural degradations of the 123' 
WPB Fleet, operations of the eight cutters was suspended on November 
30, 2006. In order to safely operate in seas less than 5 feet deep 
would require such operational restrictions that the 123' WPBs would no 
longer be operationally effective.
    To date, industry has incurred approximately $200K in structural 
upgrade costs and the Coast Guard has expended about $1.7M in AC&I 
funds in analysis and repair. With suspense of 123' WPB operations, the 
Coast Guard Technical Authority has engaged well-known engineering 
experts to review the types of problems the Coast Guard and ICGS have 
experienced with the 123' WPB in order to provide an independent 
assessment of the status and future viability of the 123' WPB. The 
Coast Guard Technical Authority reviewed information from the 
independent assessment regarding the future of the 123' WPB. The Coast 
Guard has announced its decision to competitively bid the project with 
a potential large savings to the tax payer.

Question 11: Mr. Secretary, the adequacy of data privacy protection for 
the Department's programs involving the collection of passenger 
information, such as TSA's Secure Flight Program and CBP's Automated 
Targeting System, continues to be a major concern for Members of 
Congress and the public at large.

    What progress has the Department made in assuring Americans that 
personal information they must submit to make a plane reservation or 
board a flight will be adequately protected and used exclusively for 
screening purposes?
    Answer: The Transportation Security Administration (TSA) has 
developed a comprehensive privacy program to ensure compliance with the 
Fair Information Practices codified in the Privacy Act of 1974, the E-
Government Act of 2002, Department of Homeland Security (DHS) and TSA 
privacy policies, and Office of Management and Budget (OMB) privacy 
guidance. Extensive privacy requirements are being included in the 
program requirements to ensure that privacy issues and risks are 
identified at each phase of the program and that privacy principles are 
implemented throughout Secure Flight systems and operations. The 
privacy program integrates administrative, technical and physical 
security safeguards to ensure that limitations are placed on the 
collection of personal information and, once collected, information is 
protected against unauthorized disclosure, use, modification or 
destruction. Audit information will be generated and reviewed for each 
process or activity that involves the use of personal information to 
ensure that the Fair Information Practices and Secure Flight privacy 
policies are followed.
    Additionally, as part of the Notice of Proposed Rulemaking (NPRM) 
process, TSA will publish a Privacy Impact Assessment (PIA) and SORN 
(System of Records Notice). The PIA and SORN will describe TSA's 
statutory authority to collect data and conduct a test of Secure Flight 
and will explain in detail the handling and flow of personal 
information and the protocols and privacy protections built into Secure 
Flight to protect passengers.

    Question 12: Mr. Secretary, many believe that a critical security 
gap remains in air travel. the request for an increase of nearly $40 
million in the Secure Flight Program for further Program development is 
curious following the GAO finding of multiple problems in the TSA life 
cycle approach.

    When do you realistically believe that TSA will assume passenger 
pre-screening duties, coordinating with key stakeholders critical to 
Program operations, while at the same time minimizing adverse impacts 
on passenger privacy and other rights?
    Answer: The Transportation Security Administration (TSA) has 
developed a comprehensive privacy program to ensure compliance with the 
Fair Information Practices codified in the Privacy Act of 1974, the E-
Government Act of 2002, Department of Homeland Security (DHS) and TSA 
privacy policies, and Office of Management and Budget (OMB) privacy 
guidance. Extensive privacy requirements are being included in the 
program requirements to ensure that privacy issues and risks are 
identified at each phase of the program and that privacy principles are 
implemented throughout Secure Flight systems and operations. The 
privacy program integrates administrative, technical, and physical 
security safeguards to ensure that limitations are placed on the 
collection of personal information. Once collected, that information 
will be protected against unauthorized disclosure, use, modification, 
or destruction. Audit information will be generated and reviewed for 
each process or activity that involves the use of personal information 
to ensure that the Fair Information Practices and Secure Flight privacy 
policies are followed.
    Additionally, along with a Notice of Proposed Rulemaking, TSA will 
publish a Privacy Impact Assessment (PIA) and SORN (System of Records 
Notice). The PIA and SORN will describe TSA's statutory authority to 
collect data and will explain in detail the handling and flow of 
personal information and the protocols and privacy protections that are 
built into Secure Flight to protect passengers.
    The Secure Flight program office plans to begin parallel operations 
with the first groups of domestic aircraft operators in the first 
quarter of fiscal year FY 2009, and plans to take over full 
responsibility for watch list matching in FY 2010. Secure Flight is one 
of the Department's top priorities, and TSA is continually 
investigating ways to accelerate the program schedule to allow for an 
expedited implementation of the system, as appropriate, and within 
established lifecycle cost estimates.

    Question 13: Mr. Secretary, the President's FY 2008 budget has an 
unrealistic estimate of $35.1 million in fees to be collected from the 
Registered traveler (RT) Program, currently operating out of only five 
airports. Although other airports have shown an interest, the fee 
estimation is considerably higher than warranted by anticipated 
participation. Yet again, the Administration is relying on glossy 
proposals and questionable forecasts to generate the false prospect of 
enhanced a aviation security.

    Can you explain why you believe that over 1 million people will 
join this program even though it is only in five airports and the only 
real advantage is that Members will get to cut the line?
    Answer: The Registered Traveler (RT) population projections were 
based upon conservative estimates including frequent-flyer program 
participants, business travelers, as well as the number and category of 
participating airports. An estimated RT population of over one million 
is based upon a national program including more than 150 participating 
airports by FY 2012. Since being launched in November 2006, five 
sponsoring entities (airports/air carriers) have begun operating an RT 
program. TSA is currently working with an additional seven airports 
that anticipate launching the RT interoperable pilot program by the end 
of this calendar year.
    In this public-private partnership, the individual, airport-
specific service providers are responsible for the development and 
marketing of their RT programs. Possible program partnerships with 
local businesses and parking and airport vendors are expected to 
enhance the attractiveness of the RT program. Participating airports/
air carriers also plan on offering amenities currently available only 
to elite frequent flyer club members, such as restricted lounge areas.
    The fiscal year 2008 fee estimate of $35.1 million for the 
Registered Traveler program presumed that 234,000 applicants would 
remit $150 to TSA. Since the time the budget estimate was developed, 
the structure of the program and the remittance amount has changed. TSA 
will receive $28 of the applicant fee to cover TSA's costs for program 
oversight and operations.

    Question 14: Mr. Secretary, your Deputy, Michael Jackson, has 
informed the Committee that the Department intends to move the US-VISIT 
office into the new National Protection and Programs Directorate. All 
of the other offices in this new directorate deal primarily with 
donmestic security programs, not border security programs, and many 
Members on this committee are concerned that this move will further 
separate US-VISIT from the operational border security programs it is 
designed to support.

    Can you tell us how you plan to insure that US-VISIT will be 
integrated and coordinated with the various border security initiatives 
DHS is responsible for implementing?
    Answer: US-VISIT provides not only biometric identity services at 
the border, but also services for interior enforcement (U.S. 
Immigration and Customs Enforcement), for immigration benefits 
(Citizenship and Immigration Services), during the visa application 
process beyond our borders (State Department), and to the FBI for law 
enforcement purposes.
    The Department has recognized US-VISIT's far reaching mission by 
re-aligning the program into the National Protection and Programs 
(NPPD) Directorate, effective March 31, 2007.
    US-VISIT is being placed in the NPPD to support coordination for 
the program's protection mission and to strengthen DHS management 
oversight. The placement of US-VISIT into this new directorate 
recognizes that US-VISIT has evolved from a border control program 
created to address specific congressional mandates to an organization 
that is now an asset for the entire Department, providing identity 
services for almost all the operational Components of DHS.
    Currently, CBP is a member of an integrated project team that helps 
govern US-VISIT. Coordination between CBP and US-VISIT has existed 
since the program's creation in 2003. Additionally, CBP has on-site 
staff assigned to US-VISIT to assist with day-to-day activities. This 
arrangement will continue under the new NPPD. US-VISIT also works 
closely with ICE to identify potential visa overstays through its Data 
Integrity Group.

    Question 15: Mr. Secretary, the REAL ID Act of 2005 requires the 
states to issue secure identification documents by May 11, 2008, either 
driver's licenses or an identification cards, that must be used for 
federal purposes such as boarding an airplane, entering a federal 
building or applying for federal benefits. The REAL ID Act set forth 
minimum standards for these secure identification documents, but 
mandated that the Department issue regulations informing the states of 
the specific requirements for these cards. Nearly two years have passed 
since REAL ID was enacted, yet to date the Department has not even 
issued a notice of proposed rule-making.

    Can you tell me when we might expect to see those proposed rules, 
and how you intend to facilitate the states' ability to meet the May 
11, 2008 deadline? What is DHS doing to minimize the cost to the states 
of complying with the REAL ID Act?
    Answer: DHS publicly released the NPRM on March 1, 2007, and it was 
published in the Federal Register on March 9, 2007, commencing the 60-
day comment period. The NPRM describes how States can meet the May 11, 
2008 effective date of the Act, as well as what steps States can take 
to seek an extension of the compliance date from the Secretary.
    DHS sought to minimize costs to the States when implementing the 
language of the Real ID Act. For example, to establish a common-machine 
readable technology, required by section 202(b)(9), DHS proposed that 
States employ the 2D PDF-417 bar code standard already in use by 45 
States rather than employ a different technology. Similarly, DHS did 
not specify which issuance process a State could use (central, over-
the-counter, or hybrid) in order to permit States as much flexibility 
as possible in complying with the proposed regulations.

    Question 16: In his recent State of the Union address, President 
Bush reiterated his commitment to doubling the size of the Border 
Patrol, and the administration has requested funding for an additional 
3,000 agents in FY 2008. However, it appears that the Border Patrol is 
not actually recruiting and retaining a sufficient number of agents to 
fulfill this promise.

    Can you explain to us why this is the case, and share with the 
committee what DHS is doing to improve recruitment and retention at 
levels that will permit the Administration to keep its commitment?
    Answer: CBP recognizes the need to balance recruiting and filling 
the training slots at the Academy in Artesia. At this point, we are 
recruiting and hiring qualified applicants at a pace that maintains the 
Academy classrooms at their capacity. As the Academy increases the 
availability of training slots, we will fill them to keep on track. 
Additionally, CBP is now recruiting at the GS-9 entry level and is on 
pace to meet our target goals.
    Attrition and the 30:1 applicant-to-hiring ratio are two proven 
reasons for the slower pace in filling these positions. However, CBP 
continues to aggressively pursue qualified candidates across the 
country to fill Border Patrol Agent positions. We have set up 18 
compressed testing sites, up from the previous 6 and are conducting 
compressed recruiting events simultaneously to increase the number of 
applicants. In Tucson, CBP recently tested 104 applicants in one day 
and screened another 118 walk-in applicants. Last month in San Antonio, 
another 190 applicants were tested in one day and an additional 200 
walk-in applicants were screened. The agency recruiting team continues 
to conduct similar recruiting events across the country where we have 
compressed testing scheduled. Contingent upon the availability of 
appropriations for such purpose, CBP is also exploring scholarships for 
two-year college students who want to pursue a career as a Border 
Patrol Agent. Additionally, the Border Patrol is benefiting from 
Operation Jump Start as it has exposed National Guard personnel from 
around the country to the work the Border Patrol performs, and many 
among the National Guard have expressed interest in joining CBP.
    Regarding retention, CBP is evaluating proposals, again contingent 
upon funding, to offer retention bonuses to new BPAs as a means of 
reducing attrition. Normally, the Border Patrol experiences a low 
attrition rate after completion of the agent's first two years. 
Retention efforts would target new agents who are adjusting to a new 
career and often times a new environment for both living and working as 
well. Despite these limitations, CBP has maintained sufficient 
candidates in the pipeline to keep pace with the Academy class 
requirements and we expect to continue on that pace throughout the 
fiscal year.

    Question 17: Mr. Secretary, in FY 2006, Immigration and Customs 
Enforcement removed 185,3431 illegal aliens from the U.S., a 10% 
increase from FY 2005. The Department's budget requests $31 million for 
an additional 600 detention bed spaces and requests funding for an 
additional 3,000 agents.

    Mr. Secretary have you considered that an increase in border patrol 
agents will increase apprehensions, which will also increase the need 
for bed space?
    Is this enough to completely end catch and release?
    Answer:
    By adding the 600 beds, plus an additional 350 beds specifically 
associated with the 287(g) program, DHS will have a total bed count of 
28,450 for FY 2008. Given the significantly increased deterrence effect 
seen with the implementation of Operation Jump Start, increased Border 
Patrol deployment, ICE interior enforcement and the new practice of 
catch and return, the Department believes that the total bed level is 
sufficient to maintain the end of ``catch and release'' at the border.
    DRO continues to work with all apprehending entities and ICE field 
offices to ensure that detention bed space is properly managed. DRO 
utilizes the Detention Operations Coordination Center (DOCC) to promote 
optimum utilization of detention capacity by monitoring detained 
dockets across the country and shifting detainees from field offices 
with limited detention space to those with available detention space. 
For FY 2007, ICE is funded for 27,500 detention beds. As of February 
19, 2007, the total ICE-funded population was 27,245. DRO continues to 
add detention capacity and to manage the detained population.

    Question 18: The funding requested for immigration and Customs 
Enforcement may be insufficient to meet the anticipated demand for its 
services. The proposed Basic Pilot Program, however, may be excessively 
expensive, as GAO has estimated that a nationwide employment 
verification system would cost at least $11.7 billion annually.

    Can you respond to these concerns?
    Answer: The Employment Eligibility Verification (EEV) program, 
formerly known as Basic Pilot, is actually a current program 
administered and funded by the U.S. Citizenship and Immigration Service 
(USCIS). The Basic Pilot provides free information to participating 
employers about the work eligibility of their newly hired workers. In 
planning for the expansion of the program, the President's FY 2007 
budget request approved by Congress appropriated $110 million to begin 
expanding and improving the Basic Pilot, including conducting outreach, 
instituting systems monitoring, and compliance functions. EEV is a 
voluntary program providing employers an electronic system to verify 
employment eligibility of all newly hired employees. EEV now has over 
14,000 employers participating in the program. USCIS is continuing to 
strengthen the capacities of EEV including adding technology that for 
the first time allows participating employers to use a paperless online 
filing system. The President's FY 08 budget requests a total of $30 
million in discretionary funding to continue expanding the EEV Program.
    When the GAO was first calculating the overall costs of the Basic 
Pilot, they were citing an older report that was written prior to the 
Basic Pilot becoming web-based and it factored in all the costs, not 
only to the government, but the ``costs to the public'' as well. USCIS' 
budget estimates look at actual expenditures for the cost of running 
the Basic Pilot. The GAO number is looking at costs such as lost wages 
and opportunity costs for employers. The employer costs are the 
opportunity costs (cost of time) for learning how to use the EEV system 
and running queries on the system for all new hires.
    Employee costs during the initial verification phase are minimal. 
In cases where an employee's Social Security Number (SSN) or 
immigration information does not immediately match a database at the 
Social Security Administration (SSA) or the Department of Homeland 
Security (DHS), the EEV system issues a ``tentative non-confirmation.'' 
When a tentative non-confirmation is issued, employers must take the 
time to inform the employee of the tentative non-confirmation and allow 
the employee to continue working while they resolve the issue with 
either SSA or DHS. For tentative non-confirmations with SSA, an 
employee must take time off from work and travel to a local SSA office. 
For DHS tentative non-confirmations, employees are able to contact DHS 
by telephone to resolve the tentative non-confirmation. In cases where 
the non-confirmations are resolved, an employer must spend time running 
a second query to verify that the records have been updated. In cases 
where it is determined that the employee is not work authorized, then 
the cost to the employer are investments in recruiting and training for 
an employee that they have to terminate.

    Question 19: The Administration's budget includes no funding for 
the Southwest Border Prosecutors Initiative. This program provides 
funding for local prosecutor offices in the four States along the 
Southwest Border--California, Texas, Arizona and New Mexico--for the 
costs of processing, detaining, and prosecuting drug and other cases 
referred from federal arrests or federal investigations.

    What is the likely effect of this action if Congress adopts it?
    Answer: The Southwest Border Prosecutors Initiative is fully funded 
by the United States Department of Justice. As such, inquiries related 
to this program's funding should be directed to the Department of 
Justice.

    Question 20: Mr. Chertoff it is my understanding that FEMA is 
currently in the process of trying to recoup over $300 million in 
assistance improperly provided to over 70,000 Louisiana households in 
the wake of Hurricanes Katrina and Rita. Additionally, an Associated 
Press analysis has revealed that at least 162,750 fictitious homes--
that did not exist before the storms--may have received a total of more 
than $1 billion in improper or illegal payments.
    Why was the system that FEMA had in place unable to verify the 
identities and homes for those who applied for assistance? What 
processes are you putting in place to prevent this level of fraud in 
the next large disaster?
    How far along is the Department in recouping these funds, and what 
action is the Department taking against the individuals who stole the 
funds?

    Answer: At the time of Hurricanes Katrina and Rita, FEMA's 
traditional system for verifying the identity of disaster assistance 
applicants was dependent on an on-site, in-person verification of 
applicants and their respective residencies. Given the massive and 
unprecedented displacement of residents and the inability to enter many 
areas due to the degree of devastation, FEMA's principal assistance 
verification method was not feasible. FEMA officials agree that more 
stringent controls on the front end are always preferable; however, the 
sheer magnitude of the event dictated that the agency proceed in the 
manner it did because there simply was not time to develop and test any 
additional front end controls.
    In the face of tremendous need and suffering, and absent any 
efficient way to thoroughly vet every request for Federal aid, FEMA 
erred on the side of compassion and gave applicants the benefit of the 
doubt when processing their claims. While most applicants were honest, 
many were not, resulting in significant fraud against the U.S. 
taxpayer.
    FEMA has taken steps to implement new controls to improve its 
ability to serve disaster victims during a large-scale event while also 
limiting fraud and abuse. Most notably, FEMA has implemented an 
automated identity and occupancy verification system to confirm the 
identity and residency of applicants who register with FEMA for 
assistance. Fraud prevention controls that have been implemented 
include:
        <bullet> Deployment in October 2005 of a new Internet 
        application that disallows any duplicate registrations;
        <bullet> Identity proofing to detect potentially fraudulent 
        applications taken through call centers in August 2005 through 
        February 2006. This work is performed by FEMA's data 
        contractor. Potentially fraudulent applications are then routed 
        to DHS-OIG and/or FEMA for recoupment processing as 
        appropriate.
        <bullet> Added identity proofing to the call center 
        registration application beginning in February 2006, so that 
        all Individual and Household Program (IHP) registrations are 
        subject to the same stringent criteria, including verification 
        of social security numbers and occupancy requirements;
        <bullet> Amended automated scripts to ensure no scripted 
        payments are sent to applicants who fail identity proofing;
        <bullet> Data-marking any applications in FEMA's database that 
        fail identity proofing so they are flagged for manual review 
        and denied automated payment;
        <bullet> Real-time interaction between the FEMA service 
        representative and the applicant during registration to ensure 
        that the data entered that caused a failed identity check is 
        correct before accepting the application;
        <bullet> Adding verification of occupancy and ownership to the 
        registration process for every disaster victim starting in June 
        2006. This allows FEMA to ensure that an applicant lives at the 
        address that they claimed before automating any payments to 
        that address;
        <bullet> Working with FEMA's data contractor to flag any 
        addresses that are not residential addresses to prevent 
        automated payments without an on-site inspection verification 
        of address and residency; and
        <bullet> Flagging at-risk social security numbers to identify 
        potential fraud.
    Recoupment efforts are ongoing. To date, FEMA has instituted 
recoupment on 98,731 applicants for Hurricane Katrina and Rita for a 
total of $405 million. As they are identified, FEMA refers potential 
fraudulent activity to OIG. Additionally, we are working with the IRS 
to enable FEMA to recoup improper assistance payments by garnishing 
future Federal tax refunds.

    Question 21: A letter from DHS' Inspector General to Chairman 
Thompson dated January 12, 2007 indicated that problems exist with the 
automated payment system FEMA uses to make payments to small 
businesses. This letter further mentions that the automated payment 
system included out-dated technology.

    What steps are being taken to fix this problem?
    What steps are being taken to insure that technology is being 
improved?
    Answer: The issue is not that FEMA has difficulty making payments 
to small or any businesses. To provide disaster assistance, FEMA may 
award a contract to a bona fide contractor. While the contractor may 
choose to use sub-contractors, payment to the sub-contractors is the 
contractor's responsibility, not FEMA's responsibility.
    We have awarded a contract to Grant Thornton, who is performing a 
financial systems requirements analysis to determine the best solution 
for replacing the current aged financial system. The deadline for 
submitting the independent analysis to the FEMA CFO is no later than 
April 30, 2007 and will provide recommended actions for FEMA management 
to consider and/or implement. As part of the analysis, the independent 
contractor will evaluate the DHS designated Centers of Excellence (COE) 
which are Coast Guard, FLETC, Secret Service or CBP, to determine if 
one of the COEs can provide a financial system platform, or if FEMA 
should have an independent system to support the unique and surge 
requirements needed to meet disaster response and recovery needs.

    Question 22: A report on FEMA controls for funding administrative 
costs under state management grants was done by the DHS Inspector 
General on January 9, 2007. It pointed out that FEMA approved state 
management grants without a comprehensive grant plan or written 
internal procedures for assessing the need for grant assistance.

    What steps is FEMA taking to insure that procedures are properly 
formed when managing these administrative cost grant proposals?
    Answer: The Office of Inspector General Audit Report OIG-07-21, 
Review of FEMA Internal Controls for Funding Administrative Costs under 
State Management Grants Audit, was specific to the Public Assistance 
(PA) Program. Per 44 CFR 206.207, Administrative and Audit 
requirements, the PA program requires that a PA State Administrative 
Plan (PA SAP) must be in place and approved by FEMA prior to grant 
funding approval for disaster assistance.
    The report recommended that FEMA develop additional procedures to 
review State management administrative cost proposals to ensure that 
funding is approved only to meet essential and reasonable grant 
management needs. FEMA concurred with the Inspector General's 
recommendation.
    Currently, FEMA's Regional PA Program staff determines if the 
State's submitted management costs are consistent with the functions 
outlined in the PA SAP. After review, the staff forwards the 
reimbursement request with a recommendation to the Disaster Finance 
Center (DFC) who is then responsible for the final review and approval 
of individual cost item eligibility per OMB Circular A-87, Cost 
Principles for State, Local, and Indian Tribal Governments. In addition 
to this process, FEMA has taken the following steps to improve the 
quality of the PA SAPs:
        <bullet> Revising the PA SAP template to clearly define the 
        basic legal and procedural responsibilities of the grantee in 
        administering the PA program;
        <bullet> Developing a detailed checklist for FEMA Regional 
        offices to review PA State Administrative Plans.
        <bullet> Issuing FEMA Recovery Policy RP 9525.14, Public 
        Assistance Grantee Administrative Costs, issued November 7, 
        2006. The policy specifies the allowable uses of the Statutory 
        Administrative Allowance and State Management Administrative 
        Costs and requires States to document and report the use of the 
        Statutory Administrative Allowance; and
        <bullet> Updating Recovery Policy RP 9525.11, Payment of 
        Contractors for Grant Management Tasks, which specifically 
        addresses PA reimbursement for contractors performing grants 
        management functions on behalf of grantees and subgrantees.

    Question 23: Secretary Chertoff, as you know, last October 
President Bush signed into law the Post Katrina Emergency Management 
Reform Act to strengthen and reform FEMA. Unfortunately, we have 
already begun to see the Department miss deadlines and reporting 
requirements mandated in the bill. These include: quarterly FEMA 
vacancy reports; creation of a National Advisory Council; development 
of guidelines to accommodate individuals with disabilities; and 
implementation of a public assistance pilot program.

    Mr. Secretary, can you explain all these missed deadlines and can 
you insure the Committee that the Department is implementing the 
reforms Congress mandated?
    Answer: The Department of Homeland Security is committed to 
implementing the activities required by the Post-Katrina Emergency 
Management Reform Act of 2006, in a thoughtful and effective manner. 
The Federal Emergency Management Agency (FEMA) is moving forward to 
determine how best to carry out the provisions of the 2007 
Appropriations Act. Following is an update on the status of each of the 
specific legislative provisions referenced in your question.

    Quarterly Vacancy Report:
        <bullet> The original due date of January 4, 2007 appears based 
        on 90 days after the date of enactment of the legislation. It 
        was not possible to pull together data that cover the period 
        through the end of the first quarter, December 31st, and submit 
        it to Congress on January 4th.
        <bullet> A new reporting system is being developed and the 
        permanent full time (PFT) data population is currently being 
        uploaded. The initial report will be forwarded in early April, 
        2007.
        <bullet> DHS expects to have quarterly vacancy reports to 
        Congress by the end of the month following the end of each 
        quarter. This will allow the Department to properly assemble, 
        analyze, and interpret the data for each quarter in a way that 
        addresses the specific issues identified by Congress.
        <bullet> We look forward to continuing to work with Congress to 
        ensure the Department has the workforce necessary to fulfill 
        its responsibilities.

National Advisory Council Creation:
        <bullet> Secretary Chertoff announced the creation of the 
        National Advisory Council which was formally established by a 
        Federal Register notice on February 7, 2007.
        <bullet> The Council is being established to advise the 
        Administrator of the Federal Emergency Management Agency (FEMA) 
        on all aspects of emergency management in an effort to ensure 
        close coordination with all involved.
        <bullet> FEMA set a March 9, 2007, deadline for applications to 
        serve on the Council; over 600 resumes were submitted for 27 
        available positions.
        <bullet> The resumes are currently being reviewed and the 
        selection of Council members will be completed by the FEMA 
        Administrator by March 31, 2007.
        <bullet> The Council members will represent both geographic 
        diversity as well as a significant cross section of officials 
        from emergency management and law enforcement backgrounds, and 
        include homeland security directors, adjutants general, 
        emergency response providers from State, local, and tribal 
        governments, the private sector, and nongovernmental 
        organizations.

Individuals with Disabilities Guidelines:
        <bullet> In collaboration with the Interagency Coordinating 
        Council on Emergency Preparedness for Individuals with 
        Disabilities, a compendium of laws, regulations, and guidance 
        is being produced. The compendium will address laws applicable 
        to all levels of government in the provision of and access to 
        benefits and services for persons with disabilities. The 
        working group developing the compendium met on February 1, 
        2007, to comment and revise the most recent version of this job 
        aid for final review, coordination and comment prior to 
        publication. The Office of Equal Rights, FEMA and the Office of 
        Civil Rights and Civil Liberties, as well as DHS have completed 
        their adjustments to the guidelines. Efforts to meet with other 
        members of the Interagency Coordinating Council on Preparedness 
        and Individuals with Disabilities to get their final comments 
        have challenging. It appears now that the earliest the other 
        members can meet collectively is April 5, 2007. Work on the 
        guidelines will move as expeditiously as possible following 
        that meeting.
        <bullet> The final product will be used as a source document to 
        develop in-depth and topic-specific guidance which crosscuts 
        the Agency's programs in the provision of assistance to 
        disabled disaster survivors.
        <bullet> We are assessing the scope of the implementation 
        effort by determining which Agency programs are impacted by 
        these guidelines, how the guidelines apply to those programs, 
        and what the guidelines require from those specific programs.

Public Assistance Pilot Program:
        <bullet> FEMA has initiated implementation of a public 
        assistance pilot program to reduce the costs of providing 
        various types of disaster assistance and to increase the 
        flexibility to expedite delivery of such assistance.
        <bullet> This effort started by establishing a public 
        assistance pilot program work group including members from 
        representative States, FEMA headquarters and regions, and the 
        FCO cadre.
        <bullet> The initial public assistance workgroup conference 
        call took place on January 16, 2007, and generated great 
        enthusiasm for creative solutions within the group. A second 
        call took place on January 30, and a work group meeting took 
        place on February 21--23 to determine new procedures, start 
        developing the PA pilot implementation strategy, and design 
        methods to evaluate the success of the pilot program. A local 
        representative from the International Association of Emergency 
        Managers will attend the next meeting, scheduled for March 27--
        28, 2007. During this time, the Pilot Team will finalize the 
        program description, identify training requirements and fine 
        tune the PA Pilot Program guidance.
        <bullet> This initial work group is focused on improvements in 
        the key areas of debris removal, improved cost estimating, and 
        more effective communications/outreach to States and local 
        governments.
        <bullet> Full roll out of the PA Pilot Program is planned for 
        June 1, 2007.

    Question 24: Mr. Secretary, Congress created the Assistance to 
Firefighters Grant Program because is recognized the critical role 
America's fire service plays in protecting our communities, and that 
basic training and equipment form the foundation of a robust homeland 
security strategy. Since the creation of the program, thousands of fire 
departments all over the nation have increased their level of readiness 
to potential threats. Annually, the Department receives in excess over 
$2 billion in applications for the Assistance to Firefighters Grant, 
yet the Administration's FY 2008 budget proposal only funds the program 
at $300 million and eliminates the SAFER hiring program.

    How can you justify these draconian cuts to critical all-hazards 
programs needed by our nation's fire services?
    Answer: The Administration provides billions of dollars in annual 
support to train, exercise, and equip State and local public-safety 
personnel, including firefighters, so that they are adequately prepared 
to respond to a terrorist attack or other major incident. Federal 
support has been directed to better focus scarce resources on enhancing 
target capabilities, and to avoid supplanting basic public-safety 
investments at the State and local level. A federally funded hiring 
program for firefighters risks replacing State and local funding for 
general-purpose public-safety staffing with Federal resources, and, 
therefore, does not forward the Federal goal of enhancing local 
preparedness capabilities.
    For fiscal year 2008, grantees will again be invited to submit an 
application for assistance in the following two program areas most 
critical to enhancing the all-hazards response capabilities of the fire 
and emergency medical services:
        <bullet> The Operations and Safety Area, which includes 
        training, equipment, and personal protective equipment
        <bullet> The Vehicles Acquisition Area, which includes pumpers, 
        brush trucks, tankers/tenders, rescue vehicles, ambulances, 
        quints, aerials, foam units, and fireboats
    The amount requested for the Assistance for Firefighters Grant 
program (AFG) will allow the Department to continue to award thousands 
of grants to local fire departments. Since its establishment, the AFG 
has provided more than $3 billion in grants to local fire departments. 
The Administration believes that within this context, and within the 
framework of awards that $300M would provide, that the requested amount 
for the AFG is sufficient.

                                       Assistance for Firefighter Program                    ($$$ in millions)                         FY05          FY06          FY07          FY08Request.................................................      $500.00       $500.00       $293.45       $300.00
Enacted*................................................      $715.00       $655.00       $662.00       -------
    Note: AFG Enacted levels include the SAFER Program and Fire 
Prevention and Saftey

    Question 25: Mr. Secretary, I have concerns about the Department's 
prioritization of cybersecurity research and development within the 
Science and Technology Directorate. The cybersecurity program handles 
key research on Domain Name System security, routing infrastructure 
protocols, and large scale datasets. These areas are valuable to the 
security of our national infrastructure. Last year, the President's 
budget contained a $6 million increase for cybersecurity research and 
development at the Department. This year, after Under Secretary Cohen's 
reorganization of the Directorate, cybersecurity falls into a larger 
program area called ``Command Control and Interoperability.'' Though 
that budget is $63 million, it is impossible to tell exactly how much 
money will go towards cybersecurity research and development. In fact, 
I've heard that this budget will actually receive a cut in funding from 
last year. That would seem to contradict every Presidential Advisory 
Report that has been issued in the last 2 years on the subject of 
cybersecurity research and development--including the President's 
Information Technology Advisory Council report from February 2005 and 
the Interagency Working Group on Cyber Security and Information 
Assurance report in April 2006--which have all called for a greater 
investment in cybersecurity research and development within the Federal 
Government.

    Why is cybersecurity research and development such a low priority 
for the President?
    Why doesn't your budget reflect the need for increased Federal 
investment in this area?
    Answer: Cybersecurity research and development (R&D) has been and 
will continue to be a priority in the President's budget, the 
Department of Homeland Security and in the newly formed Command, 
Control and Interoperability Division within the S&T Directorate. The 
FY 2008 cybersecurity R&D request is $14.88 million, a 32-percent 
increase from FY 2007 levels. Based on the capability gaps that have 
been generated by the Department and other Federal agencies, the S&T 
Directorate, in coordination with the DHS Assistant Secretary for Cyber 
Security and Communications, has developed a focused budget that 
addresses the Nation's critical cybersecurity needs where the 
government can have the greatest impact.

    Question 26: Mr. Secretary, this is the second consecutive year 
that the S&T Directorate suffers cuts in its budget. Last fiscal year, 
the 109th Congress significantly curtailed the S&T budget due to 
concerns about a lack of transparent strategic planning, inadequate 
detail in the budget justifications, systemic deficiencies in financial 
and accounting controls, poor response to the needs of the Department's 
customers and end-users, and failures to more rapidly develop and adopt 
technologies for homeland security purposes. Since then, the S&T 
Directorate underwent an organizational change, beginning with the 
appointment of Admiral Jay Cohen to lead the organization. Some of us 
on the Committee are encouraged by Under Secretary Cohen's willingness 
to address these issues. But I am still concerned that funding for 
research, development, testing and evaluation within the Department of 
Homeland Security--particularly within critically important research 
and development programs--is falling as the overall budget is rising.

    Are you concerned that the budget for homeland security research 
and development, testing and evaluation is being cut because of the 
mismanagement that existed prior to Under Secretary Cohen's arrival? 
Are you confident that the Department's RDT&E budget will continue to 
grow in the upcoming years?
    Answer: I continue to view the S&T Directorate as a priority and 
vital to the Department of Homeland Security. The FY 2008 reductions 
are a reflection of the transition or transfer of mature technologies 
to other DHS Components, the completion of programs, reduction of 
funding needs for construction and laboratory operations, and better 
alignment of some programs and leveraging of others.
    Specifically, in FY 2008, the S&T Directorate will transfer the 
operational portions of BioWatch, Biological Warning and Incident 
Characterization, and the Rapidly Deployable Chemical Detection System 
to the Office of Health Affairs (OHA) and SAFECOM operations to the 
National Protection and Programs Directorate (NPPD). These transfers 
account for approximately $90 million of the approximate $180 million 
reduction from FY 2007 to FY 2008. The reduction is also due to the 
completion of programs, reduced funding needs for construction and 
laboratory operations, and better alignment of some programs and 
leveraging of others.
    The Department will continue to balance research and development 
needs and funding resources so that the S&T Directorate's budget 
reflects the priorities of the Department. The development of new 
technologies and measuring the potential impact they have on our 
operations and acquisitions are more critical now than ever as budget 
reductions across the government require us to operate more efficiently 
and accomplish more with fewer resources.

    Question 27: Mr. Secretary, the President's FY 08 Budget request 
for the Domestic Nuclear Detection Office (DNDO) is $561.9 million. 
That's $26.1 million more than your FY07 request of $535.8 million and 
$80.9 million more than the FY 2007 enacted amount of $481 million. 
While we support the mission of DNDO, we have heard some troubling news 
lately. Last October GAO sent a letter titled Combating Nuclear 
Smuggling: DHS's Cost-Benefit Analysis to Support the Purchase of New 
Radiation Detection Portal Monitors Was Not Based on Available 
Performance Data and Did Not Fully Evaluate All the Monitors' Costs and 
Benefits to the chairmen of both the House and Senate appropriations 
committees. Have you read that report and have you gone through DNDO's 
cost-benefit analysis? There are some real anomalies such as assuming 
the false negative rates of the Advanced Spectroscopic Portals (ASP) to 
be 5 percent when none of the ASP's performed even close to that well 
when tested at the Nevada Test Site. Most had false negative rates near 
50 percent, meaning that half the time highly enriched uranium was not 
picked up by the detectors.
    How confident are you that DNDO will wisely spend these funds? We 
are worried that in the rush to deploy these detection systems we might 
be buying and fielding sub-par technology.
    Answer: I am absolutely confident that DNDO will wisely spend these 
funds. Per language included in the FY 2007 Homeland Security 
Appropriations Bill, full rate production of Advanced Spectroscopic 
Portal (ASP) systems is contingent on my certification through a report 
to the Committees on Appropriations that a significant increase in 
operational effectiveness will be achieved.
    While I understand that the false negative rates sited in the GAO 
letter could be worrisome, it is important to realize that the test 
series from which these data were taken was not intended to measure 
systems performance of fieldable units. Instead, this test series was 
intended to examine initial capability of performance test units to aid 
the Department in making the initial award decision in what may 
ultimately, if successful, be a much larger investment. The Domestic 
Nuclear Detection Office (DNDO) is currently conducting a second round 
of testing at both the Nevada Test Site (utilizing actual threat 
materials) and at the New York Container Terminal (against actual 
streams of commerce). The intent of the testing is to use the results 
to evaluate the performance of systems that have now benefited from an 
additional year of development. Based on these test results, I am 
confident that if the decision is made to proceed to full rate 
production, it will be based on a clear set of performance data and not 
a rush to deploy detection systems.

    Question 28: The idea of the Securing the Cities Initiative--a 
radiological and nuclear detection architecture for urban areas--was 
floated last year and then never really spoken of again. Now you are 
requesting $30 million for the implementation in the New York City 
region.

    What is your implementation schedule and how will the funds be 
used?
    Answer: Announced in July 2006, the Securing the Cities (STC) 
initiative is aimed at developing regional preventive radiological and 
nuclear detection programs in major metropolitan areas, beginning with 
the New York City urban area. Since that time, the DNDO has been 
working closely with State and local officials in the region, and in 
particular with the New York Police Department (NYPD). At a high level, 
efforts in FY 2007 will focus on developing regional concepts of 
operations, and developing and deploying in limited numbers systems to 
begin to evaluate these concepts. By FY 2008, based on the results of 
these initial deployments, the DNDO will work with the regional 
partners to expand capabilities more broadly, utilizing the $30 million 
included in the President's Budget.

More specifically, FY 2007 activities include:
        <bullet> Assessment of current capabilities;
        <bullet> Identification of requirements;
        <bullet> Testing of existing systems' ability to discriminate 
        isotopes in realistic urban conditions;
        <bullet> Research and development, as needed, of sensor systems 
        capable of isotopic discrimination in realistic urban 
        conditions;
        <bullet> Development of implementation and acquisition plans;
        <bullet> Development of a long range training plan;
        <bullet> Conduct of initial training; and
        <bullet> Development and execution of a regional deployment 
        strategy.

In FY 2008, activities include:
        <bullet> Acquisition and enhancement of regional equipment;
        <bullet> Planning and conduct of routine operations;
        <bullet> Fielding of new systems developed in 2007;
        <bullet> Development of a long term sustainment plan; and
        <bullet> Continuation of a long range training plan; and
        <bullet> Contingent upon the successful implementation in the 
        New York City urban area, the Department will likely seek 
        additional funding in future years to implement the Securing 
        the Cities framework in other major urban areas.

    Question 29: Last year the combined budget request for chemical and 
biological countermeasures was $420 million. there has been a lot of 
reorganizing of these programs, and the operational elements have been 
moved from the Science and Technology Directorate to the Office of 
Health affairs. The S&t budget request for FY08 is $229 million and 
$94.3 within the Office of Health Affairs. This seems to only add up to 
$323.3 million, a 23% cut. For example, improving the BioWatch program 
by moving to generation 3 bio detectors would be a significant 
improvement.

    Why are you de-funding these programs?
    Answer: Funding for Chemical and Biological Countermeasures R&D is 
of great concern and a high priority to the S&T Directorate, the 
Department, and the Administration. As part of the FY 2007 realignment 
of the S&T Directorate budget to match the new S&T Directorate 
organizational structure, the S&T Directorate realigned funds that were 
in the Chemical and Biological R&D line that were not truly R&D to 
budget lines that more appropriately reflected the work to be done. Of 
the $410 million, $88.6 million of Chemical and Biological 
countermeasures funds were realigned to the Laboratory Facilities 
budget, which funds the operations of the labs that support the 
Chemical and Biological programs in the S&T Directorate.
    This funding realignment covers the operations, upgrade site 
selection, architectural and engineering services, and/or construction 
costs associated with facilities including the Plum Island Animal 
Disease Center (PIADC), the National Bio and Agro Defense Facility 
(NBAF), the proposed National Biodefense Analysis and Countermeasures 
Center (NBACC), and the Chemical Security Analysis Center (CSAC). In 
addition, the transfer in FY 2008 of $84.1 million to OHA signals the 
successful transition of an operational program. The transfer of the 
Operations and Maintenance (O&M) of Generation 1 and 2 BioWatch and the 
Rapidly Deployable Chemical Detection System further clarifies the 
funding for true R&D activities within the S&T Directorate. The FY 2007 
realignment also provided a small amount of funding to those activities 
that support the entire Directorate's R&D program. Two examples are 
Transition and Testing and Evaluation that require independent 
oversight to ensure testing is conducted appropriately and programs are 
transitioned to our customers and operational end-users when they reach 
the appropriate level of maturity.
    Of the programmatic mission in the purview of the Chemical and 
Biological Division, funding has been delayed for some important 
projects as a result of the FY 2007 Appropriations Act that rescinded 
$125 million of prior year un-obligated balances and the realignment of 
funds to cover other critical core S&T Directorate activities. These 
include: detection capabilities for engineered threats, unknowns, and 
low volatility chemical agents; work on characterizing selected 
biological threats; and the development of prototype detection systems 
for monitoring food processing facilities.

    Question 30: In its budget, the Department states the following: 
``In FY 2008, University Programs plans to develop a far-reaching and 
multi-faceted MSI program that will incorporate MSIs into the Centers 
of Excellence and develop homeland security research and training 
capabilities as the MSIs.''

    By merging the MSI scholarship and fellows program with the primary 
scholarship and fellows program, won't the Department's efforts largely 
go unnoticed by the institutions, students, and faculty of MSIs?
    Answer: The S&T Directorate's Minority Serving Institution (MSI) 
program is a separate program from the Scholars and Fellows program. 
The Department's intention is to better connect these educational 
programs. In this way, pathways are made for students pursuing 
undergraduate degrees at DHS-affiliated institutions (MSIs or Center of 
Excellence [COE]) to then pursue graduate and advanced degrees at other 
DHS-affiliated institutions and/or a career at DHS, a National 
Laboratory, or a COE.
    In addition, the Department wants to enhance the role of MSIs 
within the COEs by increasing both the number and extent of 
institutional partnerships between MSIs and the COEs; either through 
new COEs, for which MSIs could be lead institutions, or by expanding 
the university network at existing COEs to include more MSIs.

    Question 31: Last year, Congress passed the SAFE Port Act (P.L. 
109-347) which made specific recommendations to expedite the 
development of standards to seal and secure containers being shipped to 
the U.S. Can you tell the Committee when we can expect to see standards 
for container security devices?
    Answer: A technical team composed of representatives from Customs 
and Border Protection (CBP) and the Science and Technology Directorate 
of the Department of Homeland Security (DHS), is generating the 
technical and administrative requirements for container security 
devices (CSD) based upon the operational needs of CBP and commerce. The 
concept of a CSD is to increase container security by using technology 
to detect unauthorized door openings and/or removal. To accomplish 
this, the technical team must consider not only the technical 
requirements that will be used to develop a CSD but also the potential 
impact the use of CSDs may have on trade and port operations.
    The tentative goal is to publish the requirements by Summer 2007.

    Question 32: The Container Security Initiative (CSI), which places 
CBP Officers in foreign ports to target high risk containers before 
they are loaded on ships for the U.S., is proposed to receive a $16.8 
million increase, most of which ($15 million) is marked for the Secure 
Freight Initiative. How do you expect Secure Freight to interact with 
and impact CSI?
    Answer: The Secure Freight Initiative (SFI) represents the next 
phase of the Container Security Initiative (CSI). SFI is intended to 
build upon and enhance existing security programs such as CSI and the 
Department of Energy's Megaports Initiative to improve our ability to 
assess risks in the global supply chain prior to cargo being laden on 
vessels overseas. Initially, the United States will partner with six 
foreign ports to test the SFI concept, with the intent of expanding the 
program once the concept of operations is tested. An integrated suite 
of technology will be deployed to the SFI ports, which will provide 
enhanced scanning imagery and alarm data. These data will be 
transmitted in near real-time to host government customs officials, the 
in-country CSI team, and the U.S. Customs & Border Protection (CBP) 
National Targeting Center (NTC). The assessment of this additional 
imagery and data will greatly increase CBP's ability to identify, 
inspect and mitigate high-risk cargo, thereby augmenting CBP's overall 
risk management system.

    Question 33: In the SAFE Port Act, Congress carefully considered 
the issue of 100% maritime container scanning and concluded that the 
responsible action was to require a pilot with very specific evaluation 
standards. We want to know whether or not 100% scanning is feasible, 
effective, necessary, and disruptive to the global supply chain. I am 
very concerned about proposals to force 100% scanning before these 
pilots have even begun. Can you provide any insight into the impact 
100% scanning language again being considered by Congress would have on 
DHS's current plans with Secure Freight and negotiations with foreign 
governments?
    Answer: Phase 1 of the Secure Freight Initiative was announced on 
December 7, 2006. Under Phase 1, six foreign ports will begin scanning 
U.S-bound containers for radiation and nuclear detection with an 
integrated suite of radiation portal monitors, optical character 
readers, and non-intrusive inspection equipment. While the SAFE Port 
Act called for a pilot to perform 100 percent scanning in three foreign 
ports, the Secretary chose to expand Secure Freight Phase 1 to six 
ports, specifically selected for their unique and varied traffic (such 
as limited space or high-transshipment traffic) posing different 
challenges for the suite of scanning equipment. The first three ports 
Qasim (Pakistan), Port Cortes (Honduras), and Southampton, (UK) will 
endeavor to scan 100 percent of U.S.-bound containers transiting their 
ports to meet the SAFE Port pilot mandate. However, in Singapore, the 
Gamman Terminal in Port Busan (Korea), and Salalah (Oman), the unique 
layouts of the ports, space considerations, logistics, and high 
transshipment traffic necessitate a more limited deployment of scanning 
equipment. Lessons learned from this Phase 1 deployment, and reported 
back to Congress per the Safe Port Act requirement, will offer a 
realistic vision of the practicality, feasibility, and challenges of 
scanning shipping containers for rad/nuc in the more than 700 ports 
that ship to the United States.
    Representatives from the industry and foreign governments have 
expressed grave concern over the impact that scanning 100 percent of 
U.S.-bound containers would have on port operations and the flow of 
commerce. Phase 1 is designed to address these concerns as explained:

        <bullet> Enacting the 100 percent scanning language before 
        conclusions could be drawn from Phase 1 poses technical 
        concerns because the suite of scanning technology, including 
        the transportation of data to the host country and back to the 
        United States, has never been tested and technical challenges 
        remain;
        <bullet> The efficient placement of scanning equipment is 
        complex because of logistics such as the size and space 
        constraints of many ports, especially ones with high 
        transshipment traffic; and
        <bullet> Since equipment must be placed in foreign ports 
        outside U.S jurisdiction, alarms must be resolved by local law-
        enforcement, and foreign governments must agree to share data 
        and information with the United States. This factor is 
        essential to make scans useful for targeting, and could make 
        foreign governments less likely to cooperate voluntarily.

    Question 34: The Customs Trade Partnership Against Terrorism (C-
TPAT) is designated to receive $55.5 million, which after subtracting 
for salary inflation results in a program increase of $343,000. The 
SAFE Port Act directs several changes to be made in the current 
program, including a pilot for 3rd party validators, requiring 
validations be completed program, including a pilot for 3rd party 
validators, requiring validations be completed within one year of 
certification, 4-year revalidations, and minimum standards for each of 
the CTPAT tiers. How will such a slight program increase and no 
increase in FTEs enable the C-TPAT program to meet the SAFE Port Act 
mandates?
    Answer: Most of the C-TPAT requirements under the SAFE Port Act 
were programmatic changes that have already been completed by CBP. This 
included strengthening the minimum security criteria for several of the 
eligible participants (importers, brokers, vessel carriers, etc.), 
moving to a tiered benefits system and requiring certification of C-
TPAT applicants within 90 days of application. A Third Party Validation 
Pilot Program has been developed and will be implemented shortly and 
the C-TPAT Annual Plan has been written. The remaining SAFE Port Act C-
TPAT requirements will be completed within the established time frames 
established in the Act.
    CBP has evaluated the C-TPAT workload for calendar year (CY) 2007 
utilizing the C-TPAT Security Link Portal and has determined that 
current staffing levels will allow us to meet the requirements in the 
SAFE Port Act.
    In CY 2006, over 2,800 validations were completed which now brings 
the overall number of validated C-TPAT certified partners to 67 
percent. Utilizing the 157 supply chain security specialists that are 
currently on board and validation strategies such as blitz operations, 
it is expected that C-TPAT will conduct approximately 2,200 new 
validations and 670 revalidations in 2007, or almost 20 validations per 
SCSS per year. CBP will not only complete the validations required in 
CY 2007 under the SAFE Port Act, but will also be able to complete some 
validations that are technically not required until the beginning of CY 
2008. Validation blitzes are conducted to optimize the utilization of 
SCSS resources and time by sending several teams of SCSS into countries 
for two or more weeks to conduct numerous validations. With the current 
SCSS CBP will be able to meet the requirements of validating all 
certified members within one year of certification and revalidating all 
members not less than once every four years.

    Question 35: CBP also operates several border facilitation 
programs, including FAST, NEXUS (land, air, and maritime), and SENTRI. 
The FY08 budget proposes no increase for these programs and maintains a 
budget of $11.2 million. In FY08, according to supporting budget 
documents, CBP will enhance the Global Enrollment System, which links 
the processes and security checks for all of the trusted traveler 
programs, establish joint enrollment centers for FAST and NEXUS, and 
add iris scan equipment to all NEXUS and some FAST enrollment centers.
    The more robust these programs, the more people participate, and 
the more information we have on border crossers. It is very concerning 
that DHS has dedicated little funding to improving and increasing these 
programs for the past several years. Do you see security value in these 
programs? Do you see facilitation value in these programs?
    Given the requirements that DHS enforce secure document 
requirements for all travelers crossing the border by June 2009 at the 
latest, don't you think that a push to increase membership in these 
trusted traveler programs would make the transition under the Western 
Hemisphere Travel Initiative (WHTI) easier?
    Answer: FAST, NEXUS, and SENTRI are collectively referred to as the 
Consolidated Trusted Traveler Program (CTTP), which also includes the 
Global Enrollment System (GES). Membership in CBP's trusted traveler 
programs has been growing 20 percent per year. CBP continues to support 
increasing membership in its trusted traveler programs by:
        <bullet> Extending membership periods;
        <bullet> Making it easier to apply for membership;
        <bullet> Increasing dedicated trusted traveler lanes; and,
        <bullet> Increasing the number of enrollment centers.

2006
        <bullet> CBP extended trusted traveler membership to 5 years 
        plus the time until the member's next birthday
        <bullet> CBP introduced a SENTRI online application process.
        <bullet> CBP opened enrollment centers and dedicated lanes in 
        Nogales, AZ; Laredo, TX; Brownsville, TX; and Hidalgo, TX.

2007
        <bullet> In January, CBP and the Canada Border Services Agency 
        (CBSA) began sharing application information to speed the 
        vetting process.
        <bullet> As of February, CBP partnered with CBSA in the opening 
        of NEXUS enrollment centers in Seattle, WA; Vancouver, CA; 
        Montreal, CN; and Toronto.
        <bullet> By the end of the year, additional enrollment centers 
        will open at all of the Canadian pre-clearance sites.
        <bullet> By August 2007, CBP will introduce a NEXUS online 
        application.
        <bullet> In 2007, CBP is expanding the number of dedicated 
        lanes in California.

2008
    In 2008, CBP plans to introduce a FAST online application.
    CBP has an aggressive campaign for increasing membership in all CBP 
trusted traveler programs. The FY08 WHTI budget request includes a 
portion for adding additional staff to its enrollment centers. This is 
to address the anticipated increase in enrollment activity brought 
about by WHTI. The trusted traveler programs do add a security value to 
the process in that the screening (vetting) process since obtaining 
membership is strenuous and thorough. Not everyone qualifies to be a 
participant. Although the trusted traveler programs will facilitate the 
implementation of WHTI, it is not practical to assume an overwhelming 
number (millions) of travelers needing WHTI-compliant travel documents 
will opt for a trusted traveler program.

    Question 36: Mr. Secretary, I am deeply concerned about the 
sizeable cut in funding for the Center for Domestic Preparedness (CDP) 
as proposed in the President's Fiscal Year 2008 Budget Request.
    As reflected in the budget, the Noble Training Center is 
transferred from the U.S. Fire Administration to CDP. The Noble 
Training Center is a unique Federal facility which provides training 
for medical and public health officials to prepare them to respond to 
incidents with mass casualties. The budget for the Center is $5.5 
million.
    The FY 2007 enacted funding level for CDP, which provides live 
chemical agent training to first responders, is $57 million. After the 
merger of these two agencies, the total budget in FY 2007 is $62.5 
million.
    Yet, inexplicably, your proposed budget not only cuts CDP's funding 
by $3 million, but further reduces funding by the total amount of the 
budget for the Noble Training Center. The result is an $8.5 million 
cut--a 13.6% reduction--in critical DHS first responder training 
programs.
    Please submit to the Committee on Homeland Security (1) the 
justification for why the proposed FY 08 budget does not reflect the 
Noble Training Center's budget when the Center has been transferred to 
CDP; and (2) the rationale for why the proposed budget slashes funding 
for this vital training program by over 13%.
    Answer: In FY 2007, The Noble Training Center was transferred to 
the Center for Domestic Preparedness (CDP). The integration of Noble 
with CDP allows the Federal Emergency Management Agency (FEMA) to 
provide the full spectrum of terrorism preparedness and specialized 
first-responder training courses in a single location. The FY 2008 
request reflects efficiencies gained by combining the two training 
centers.

    Question 37: The Federal Law Enforcement Training Center (FLETC) is 
responsible for training Federal Air Marshals, Border Patrol agents, 
and many other Federal officers.
    In a Full Committee hearing last year, you agreed that a number of 
standard courses--such as Spanish language class, physical fitness, and 
other non-law enforcement courses--could be taught by instructors who 
were not necessarily Federal employees.
    Section 544 of the Department of Homeland Security Appropriations 
Act for Fiscal Year 2007 classified instructors at FLETC as 
``inherently governmental'' under the Federal Activities Inventory 
Reform Act (FAIR Act) of 1998. The effect of this provision prevents 
FLETC from contracting out standard, non-law enforcement training 
courses.
    This provision could prove detrimental to the Nation's ability to 
rapidly train Federal law enforcement officers to meet critical 
homeland security needs in the event of a national emergency.
    Do you agree that the Federal Law Enforcement Training Center 
should have sufficient flexibility to acquire and utilize non-Federal 
trainers for non-law enforcement classes?
    Will you work with the Office of Management and Budget to identify 
FLETC functions which are not inherently governmental to help restore 
FLETC's ability to acquire non-Federal training and other services?
    Answer: In addition to serving as an interagency law enforcement 
training organization for more than 80 Federal agencies, the Federal 
Law Enforcement Training Center (FLETC) also provides services to 
State, local, and international law enforcement agencies. The FLETC has 
more than 400 available training programs and relies heavily upon an 
instructional staff with law enforcement experience from Federal, 
State, and local agencies, as well as civilian and military 
organizations. The instructional staff consists of many individuals on 
detail from agencies trained by FLETC, instructors from non-partner 
organizations, and rehired former Federal law enforcement personnel. In 
its specialized and advanced training areas, the FLETC instructional 
staff is occasionally augmented by personnel from the private sector 
whenever a particular expertise is not otherwise available from a law 
enforcement source. An example of this has been the utilization of a 
private individual with experience in the Arab culture to teach in 
FLETC's advanced counterterrorism training program. Further, FLETC 
currently is undergoing A-76 studies on contracting out physical 
training related to physical conditioning and CPR training for basic 
trainees. The FLETC management will continue to look at all phases of 
training to determine if additional subject areas can be studied or 
contracted out while maintaining the overall integrity of law 
enforcement training.
    My office is already working with OMB and FLETC to determine if 
other training subjects can be presented at FLETC by non-Federal 
personnel. Because of the interagency nature of the training provided 
at the FLETC, we expect OMB and FLETC also will consult closely with 
all partner agencies in addition to DHS Components on the use of non-
Federal and non-law enforcement personnel in training conducted through 
FLETC.

    Question 38: The President's Budget includes a request for $481.1 
million for 3,000 new Border Patrol agents, which according to the 
budget justification would bring the total number of Border Patrol 
agents to 17,819.
    The Homeland Security Subcommittee on Management, Integration, and 
Oversight conducted an extensive review of Border patrol training and 
the costs associated with each new Border Patrol agent. Numerous 
concerns were raised regarding current efforts to recruit new agents 
and retain existing agents; the lack of sufficient training facilities; 
the lack of facilities along the borders to accommodate a surge of new 
agents; and the $189,000 per agent cost to recruit, hire, train, equip, 
and deploy just one new agent.

    How many Border Patrol agents currently are on board? How many 
additional new Border Patrol agents can be hired with the balance of 
unspent FY 06 and FY 07 funds?
    Answer: As of February 17, 2007, on-board Border Patrol Agents 
total 12,812. The balance of FY 2006 and FY 2007 funds will be used to 
hire those agents required to meet the Border Patrol's goal of having 
14,819 agents on board by the end of FY 2007. This target level 
includes increases by Congress of 1,000 new agents in FY 2006 and 1,500 
new agents in FY 2007.

    Question 39: How many new recruits currently are in the Border 
Patrol training program at the Federal Law Enforcement Training Center 
(FLETC) in Artesia, New Mexico?
    Answer: As of March 1, 2007, the Border Patrol Academy has 699 
students (17 classes) at the Border Patrol Academy in Artesia, New 
Mexico.

    Question 40: Please provide for the past three quarters the number 
of trainees who (1) entered Border Patrol training in Artesia; (2) 
withdrew or were eliminated from the training program; and (3) the 
ultimate number successfully completing the training program. Does the 
FLETC training facility in Artesia, New Mexico, currently have the 
capacity to train the new 3,000 agents provided for in the FY 08 
budget, in addition to the new agents funded in FY 07? If not, what 
facilities require expansion and what is the projected cost of this 
expansion? If expansion is required, please submit a cost-benefit 
analysis that compares those costs to projected costs for using 
existing training facilities, both Federal and on-Federal.
    Answer:
    (1) In the 3rd and 4th quarters of FY 2006 and the 1st quarter of 
FY 2007, there were 1,700 trainees who entered the Border Patrol 
Academy in Artesia, New Mexico.
    (2) Out of 1,700 trainees, 368 withdrew or were eliminated from the 
training program. (Does not include those on continuation of pay (COPs) 
due to an injury.
    (3) Out of 1,700 trainees, 1,246 were graduated or are still 
attending the Academy.
    The FLETC Training Facility in Artesia has the capacity to meet our 
training needs for FY 2007 and FY 2008. FLETC is constructing a new 
dorm that will be usable in FY 2008. FLETC is also adding three modular 
classrooms and a modular housing unit at this time to assist in 
accommodating both 2007 and 2008 training needs. There is no need for 
additional non-Federal training facilities.

    Question 41: How many Border Patrol agents are projected to retire 
in the next year? The five years? The next 10 years?
    Answer: There are 426 Border Patrol Agents currently eligible to 
retire, with 35 more becoming eligible to retire in the next year. An 
additional 826 agents will become eligible to retire in the next five 
years, and an additional 1262 will become retirement-eligible within 
the next 10 years.

    Question 42: What is the average annual attrition rate for Border 
Patrol agents?
    Answer: The annual attrition rates for the last three years are as 
follows:
        FY 2004 5.9%
        FY 2005 3.7%
        FY 2006 6.3%

    Question 43: Please submit to the Committee a detailed break-out of 
all costs associated with recruiting, hiring, training, equipping, and 
deploying one Border Patrol agent.
    Answer: CBP uses a position cost model to approximate the marginal 
costs of adding a Border Patrol agent to the workforce. The model is 
meant to identify and estimate all relevant costs that will be incurred 
by CBP. A detailed break-out of the scalable, incremental cost for 
hiring one Border Patrol Agent during FY 2008 follows. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question 44: Please submit to the Committee a detailed timeline 
which reflects (1) when the new Border Patrol agents funded in Fiscal 
Years 06 and 07 will be recruited, hired, trained, and deployed; and 
(2) the projected timeline for when the 3,000 new agents funded by the 
FY 08 budget request will be recruited, hired, trained, and deployed.
    Answer: It normally takes up to five months to recruit and hire a 
Border Patrol Agent. The Border Patrol Agents currently being recruited 
will fulfill the needs for FY 2007. The Border Patrol Agents to be 
recruited between April and May 2007 are expected to be on board by the 
beginning of FY 2008. Customs and Border Protection is currently 
keeping recruiting at a pace necessary to fill Academy classes and is 
on track to achieve the FY 2007 goal of hiring 3,000 additional Border 
Patrol Agents.
    Trainee Agents that entered on duty in FY 2006 (some were graduated 
during FY 2007)
    Arrived in Artesia for training: 1889
    Deployed to the field (graduated): 1405

    Trainee Agents that entered on duty in FY 2007 (through Session 658 
that arrived on 2-22-07)
    Arrived in Artesia for training: 953
    Deployed to the field (graduated): 154


    Question 45: When attrition, failed background checks, and other 
factors are taken into account, what is the total number of new Border 
Patrol agents which DHS will need to recruit in order to achieve the 
total number of 3,000 agents funded in the FY 08 budget? The total 
number to recruit to reach the projected total of 17,819?
    Answer: U.S. Customs and Border Protection is aware of the 
recruitment challenges created by attrition and thus is working 
diligently to agressively recruit Border Patrol Agents. It is expected 
to take approximately 90,000 applicants to get 3,000 agents hired based 
on a 30:1 applicant-to-hire ratio thus far. In light of this ratio, it 
will likely take at least 150,000 applicants to reach target hires 
through FY 2008.

    Question 46: DHS Canine use
    The breakdown showing numbers of canines and canine teams per 
agency employed by DHS is as follows:

USSS
    The United States Secret Service (USSS) has 57 Explosive Detection 
Canines (w/57 handlers). The USSS has 14 Emergency Response Canines (w/
14 handlers). USSS has a total of 71 Canine Teams.

ICE
    The ICE Federal Protective Service (FPS) currently maintains 60 
canine explosives detection dog teams strategically located across the 
country.

CBP
    As of March 6, 2007 CBP employs 1,234 canines and canine teams.

USCG
    The Coast Guard has 18 teams (one handler and one canine per team).

TSA
    TSA's canine program deploys only explosives detection teams under 
the National Explosives Detection Canine Training Program (NEDCTP). It 
is operated cooperatively in partnership with local law enforcement 
agencies and transportation industry stakeholders. The canine handlers 
come from local law enforcement (airport/mass transit) agencies. 
Currently, TSA has 441 teams deployed in aviation and mass transit 
systems, with a target of 478 deployed teams by the end of FY 07.
    Shown below are the funding levels in FY 07 and those requested for 
FY 08, for each DHS agency's canine program.

USSS
    Overall Approved Budget for Canine Program FY 07: $241,364
    Overall Proposed Budget for Canine Program FY 08: $371,029

ICE
    The FPS Canine Program is approximately $7.74 million in FY 2007, 
or $129,000 per team. This includes the full cost of the FPS inspector 
and the cost of care, feeding and annual recertification training for 
the dog. The FY 2008 cost will be approximately $8.05 million.

CBP
    While there is no discrete budget for canine enforcement, CBP 
estimates a projected spending level for FY 2007 of $130.7 million and 
a requested funding level for FY 2008 of $176.3 million.

USCG
    The Coast Guard's recurring annual budget for one Canine Detection 
Team (CDT) is $9.6K per canine and $73K per handler (handlers also 
perform other MLE/FP duties as needed). The total funding level for 18 
teams is $1.5M.

TSA
    Fiscal year 07 funding, $32M; fiscal year 08 funding is $35.5M.

    The DHS unmet need for canines--displayed by agency--in FY 08 is 
displayed below:
USSS: At this time the USSS is short three (3) Explosives Detection 
Canines.
ICE: The FPS will not require any additional canine teams for FY 08.
CBP: has no unmet needs for canines in FY 2008.
USCG: Coast Guard currently has a sufficient number of CDTs.

    The number of service canines bred domestically, and the number 
acquired from overseas vendors is explained in the following text:
    The USSS utilizes Belgian Malinois canines. All of the USSS canines 
are purchased from an American company, the Vohne Liche Kennels,& 
Indiana. The Vohne Liche Kennels acquires its dogs from Germany. None 
of the canines are bred domestically.
    The FPS explosives detection dog teams are trained at Auburn 
University. Auburn University provides the dog at the time team 
training begins. A check of the University records indicates that 19 of 
the FPS dogs were bred domestically and 41 were bred overseas.
    None of CBP's dogs are purchased from overseas vendors; however 
most of the domestic vendors that supply dogs to CBP utilize and 
procure a portion of their dogs from overseas kennels.

    The U.S. Coast Guard acquires all canines from CBP.

    Below is listed the sources for service canines:
    The USSS purchases all of its canines from the Vohne Liche Kennels 
Company in Indiana.

    All other DHS Components:
    Hill Country Dog Center
    P.O. Box 64070
    Pipe Creek, TX 78063
    830-510-4700
        ------

    Kasseburg Canine Training
    767 Hillsboro Circle
    New Market, AL 35761
    256-379-5697
        ------

    International Canine Exchange
    837 Wapping Rd.
    Portsmouth, RI 02871
    401-640-0626
        ------

    Jill Hoelle
    DBA Von Der Hollenburg German Shepherds LLC
    3435 State Rt. 121 S.
    Greenville, OH 45331
    937-547-9993
        ------

    Beck's Canine Service
    410 Sandman Dr.
    Kure Beach, NC 28449
    910-279-4343
        ------

    Kevin Sheldahl DBA K-9 Svcs
    13216 Skyview Ave. NE
    Albuquerque, NM 87123
    505-294-5092
        ------

    Southern Police Canine Inc.
    P.O. Box 902
    Spring Hope, NC 27882
        ------

    Not all agencies under DHS employ and fund canines in the same way. 
For example, the NEDCTP has deployed teams in accordance with current 
base funding levels. The NEDCTP is scheduled to increase the planned 
number of teams by approximately 45 as outlined in the FY 08 
President's Budget Request. The NEDCTP has its own breeding program 
located at Lackland AFB, in San Antonio, TX. In addition, the NEDCTP 
partners with the Department of Defense to procure additional canines 
as part of the InterService Support Agreement (ISSA). The NEDCTP 
partners with the Department of Defense to procure additional canines 
as part of the InterService Support Agreement (ISSA).
    FEMA does not ``employ'' canine search and rescue teams per se. 
Canine teams that deploy with Urban Search and Rescue Teams are owned 
and trained by either the volunteers or the organizations that 
contribute to the team from local fire departments, EMS, or other first 
responder organizations. The deployment of search and rescue dogs in 
coordination with the 28 Urban Search and Rescue teams is dependent 
upon availability and need. As a norm, each Search and Rescue team is 
deployed with a 4-dog team (including handlers), but this may vary 
depending on the event. There are approximately 200 FEMA advanced-
certified teams (dog and handler) in the Urban Search and Rescue 
system. Each team is required to recertify every three years.
    FEMA allocates funds for certification and evaluation through the 
Urban Search and Rescue program but the funding varies depending on the 
number of dogs that need to be certified and evaluated in a given year. 
FEMA estimates that evaluation and certification costs between $225K 
and $300K per year. The reason these costs are fairly fluid is because 
the majority of costs associated with the deployment of canines are 
charged to the disaster to which they are deployed and funded through 
the Disaster Relief Fund. This requires Urban Search and Rescue teams 
to request reimbursement for canine costs which vary depending again in 
the length of deployment and the costs associated for each disaster. 
There is no steady state.

    Question 47: Project Athena is a surveillance and reconnaissance 
system that has been successfully developed and tested to provide 
maritime domain awareness. Eight Great Lakes States pooled their 
resources to acquire the Athena technology and strengthen the security 
of Great Lakes ports and along the Northern border. the Department of 
Homeland Security has denied requests to use grant funds to support the 
use of Project Athena, stating that SBInet technologies will be 
forthcoming.

    If proven technology exists and is in place today, why is the 
Department not supporting its use? Why is the Department waiting for 
new and untested SBInet technologies to be deployed, which may take 
years?
    In recent years, the Department has encouraged States and 
localities to take a more regional approach to preparing for and 
responding to terrorist events or natural disasters. Project Athena is 
an example of regional cooperation, yet it is being stymied by the 
Department. Do you support these efforts? If so, why?
    Answer: The Department of Homeland Security (DHS) recognizes the 
progress that projects, such as Project Athena Project Hawkeye, Command 
2010, and Sea Hawk have made in technology and border security along 
the U.S. maritime borders. The Project Athena grant application was 
denied because the request proposed the Athena system, once deployed, 
would be manned by the Border Patrol or U.S. Coast Guard. This was 
contrary to the intent of the grants program.
    DHS is focused on implementing the most effective and integrated 
mix of technology, tactical infrastructure, and personnel to secure the 
Nation's borders. The Secure Border Initiative (SBI) plan will include 
deployments sequenced through 6,000 miles of the U.S. border. Proven 
technologies implemented under SBInet will complement existing 
technology and infrastructure along the Northern border to give U.S. 
Customs and Border Protection (CBP) the ability to fulfill its 
commitment to strengthen control of the Nation's borders. It is the 
Department's goal to provide and implement the best available 
technology and resources. DHS is looking at a range of available 
technology for the maritime borders including maritime radars, cameras, 
and command and control systems, such as Athena, Hawkeye, Sea Hawk, and 
Command 2010.
    The prioritization criteria for selecting which sector will be 
considered for the deployment of SBInet technology solutions are 
conducted on a threat-based approach. The criteria used would include 
traffic volume, threat likelihood, vulnerability, consequences, and 
intelligence. While the initial focus of SBInet will be on the 
Southwest border, CBP has taken and will continue to take many steps to 
improve security on the Northern border. These steps include the 
deployment of experienced Border Patrol agents from the Southern to the 
Northern border, as well as joint operations with JTF-N. In conjunction 
with these steps, the pilot maritime technology projects will 
incorporate ground-based radar and proof of concept multi-sensor 
systems, the establishment of new air branches, increased liaisons with 
our Canadian partners through Integrated Border Enforcement Teams 
(IBETS), and the deployment of radiation portal monitors (RPMs) at our 
ports of entry. The SBInet solution will provide the security necessary 
to significantly reduce illegal border crossings and greatly enhance 
the ability of DHS to accomplish its homeland security mission.


    Question 48: How is the Department working with State and local 
governments to ensure that they have evacuation plans in place?
    Do these evacuation plans extend to the impact on the communities 
that may serve as hosts to evacuees?
    Does the Department encourage State and local agencies to 
communicate with surrounding areas that may host evacuees during the 
planning process?
    I understand that some evacuation plans were evaluated last year 
through the Nationwide Plan Review. Would you please discuss this 
review? What exactly did it cover in its evaluation of States plans?
    Answer: A particular lesson from the 2005 hurricane season is our 
need to be prepared to support large numbers of displaced persons--not 
only in the State that experienced the disaster but also in States that 
may host the displaced families and individuals. The Department of 
Homeland Security (DHS) has made great strides in 2006 to improve 
evacuation preparedness through the Nationwide Plan Review and ongoing 
Gulf Coast evacuation planning support. In 2006, the Federal Emergency 
Management Agency (FEMA) published Recovery Strategy RD-2006-1, which 
describes the assistance FEMA will provide to evacuees and States 
hosting evacuees. To continue and further enhance this work, DHS is 
currently developing guidance to further assist States in planning for 
evacuee-support operations and will provide technical assistance to 
help States write model evacuee-support plans. A DHS-Preparedness-
National Preparedness Integration Program representative is assisting 
the Mass Evacuation Support Project Committee in this important 
undertaking: to plan for potential catastrophic disasters and enhance 
hurricane evacuation plans. Additionally, the Office of Grants and 
Training is working with FEMA to provide specific guidance to State and 
local partners to address their overall evacuation management and 
planning.

    Question 49: How is the Department working to expand current first 
responder training programs?
    Answer: The Office of Grants and Training, Training Division has 
undertaken several efforts to expand first responder training programs. 
Most notably, it is increasing the number of web-based course 
deliveries and train-the-trainer courses to the field at little or no 
cost to the training provider. At this time, it is estimated that the 
number of persons who will receive training through 16 new web-based 
courses will be over 100,000 per year. The Training Division is 
automating the collection of data on course participants through a 
Level 1 evaluation system and will be able to more accurately count the 
number of web-based course participants once the system is operational. 
Regarding indirect deliveries, as train-the-trainer deliveries are 
called, an average of 12,000 responders are trained per month. In 
addition, the Training Division has a program in place to approve 
courses at the State and local level so that States can use their 
Homeland Security grant funds for development, attendance, and overtime 
and backfill of students attending courses. One goal of the Training 
Division is to have States and other entities, including other Federal 
agencies, assume a greater role in training responders. Implementing a 
process through which they can get course approval increases the number 
of persons that are trained with State grant funds. So, it strongly 
encourages training entities to submit courses through their State 
Administrative Agencies (SAAs) for review and approval. To date, 105 
State courses and 153 Federal courses (other than G&T developed) have 
been approved by the Training Division, offering training to 74,801 and 
15,960 responders respectively.
    Regarding expanding training efforts at the Center for Domestic 
Preparedness (CDP), CDP has been on a continuous growth initiative 
since 2001. This initiative has taken the CDP from six courses to its 
current course complement of 29 courses. This growth is budget 
dependent and projected to increase with the transfer of the Noble 
Training Center to the CDP on March 31, 2007, which requires that CDP 
establish a comprehensive healthcare preparedness training program 
within its curricular offerings. Evidence of this dramatic growth is 
that since 2001, the annual training load of the CDP has grown from 
2,522 students in FY 2001 to 61,680 in FY 2006. The most growth has 
been realized in the non-resident (or mobile) training program with a 
10% increase in the past year.
    Another way the Training Division is expanding training programs is 
through the institutionalization of G&T training courses. This will 
provide access to training at levels unachievable by the use of 
training providers alone. Many of the G&T awareness-level courses can 
be provided to state and local training agencies and academies for 
inclusion in their basic or entry-level training programs. This will 
result in increased numbers of responders being trained. An example of 
this institutionalization is the National Capital Region training 
initiative now underway. The Metropolitan Washington Council of 
Governments (COG) and DHS G&T Training Division are working on an 
initiative to provide G&T courses to law enforcement personnel in the 
NCR. Training Division personnel have been working with the COG Police 
Training subcommittee to plan the delivery of selected awareness-level 
and performance-level courses. The courses will be presented to the NCR 
law enforcement agencies' cadre of instructors in a train-the-trainer 
format. These NCR police instructors will then return to their agencies 
with a copy of all course materials and deliver the training courses to 
the appropriate staff. To date, 46 law enforcement agencies from the 
NCR have requested to send instructors to participate in this 
initiative.
    The Training Division has also created a suite of technology 
support tools to assist in the development, delivery, and reporting of 
training. Web-Forms is an electronic form and data management system 
built to assist states with the reporting of non-G&T provided training 
(State or Federal sponsored courses) information. Web-Forms is also 
used by States and Federal agencies to submit training for review and 
approval. Approved courses are then placed in either the State-
Sponsored Course Catalog or the Federal-Sponsored Course Catalog and 
States can used their grant funds to support training attendance. 
Another technology tool provided by the Training Division is the 
Responder Training Development Center (RTDC). The RTDC is an 
interactive site designed to assist training partners and States in the 
development of quality training products. The RTDC provides detailed 
information on instructional design considerations, as well as 
templates and checklists to assist in the development of a training 
program from concept through to finished course materials. Both Web-
Forms and the RTDC are in use and available online to the States and 
Training Division training partners.
    The Training Division maintains ``common'' catalogs as well as the 
catalog of G&T training courses. These common catalogs, the State-
Sponsored Course Catalog and the Federal-Sponsored Course Catalog, 
provide a ``one-stop'' opportunity for responders, States and Federal 
agencies to see what training is already available and being delivered 
by States or Federal training partners. These catalogs provide detailed 
course descriptions and contact information. The Federal-Sponsored 
Course Catalog provides Federal training partners with a place to post 
their training that is being made available for State and local 
responders to attend. States use their grant funds to support training 
attendance at any course listed in the catalogs.
    The Competitive Training Grant Program (CTGP) is a mechanism for 
expanding the training program based on current events and the 
immediate needs of the field. G&T's Training Division awarded 
approximately $100 million in 15 different issue areas since FY04. 
Awardees include included colleges, universities, and non-profit 
organizations.

    Question 50: Please discuss the efforts under way to increase the 
utilization of mobile training courses and web-based learning. Do these 
efforts include expanding the utilization of existing first responder 
training courses beyond the National Domestic Preparedness Consortium 
and the Center for Domestic Preparedness?
    Answer: The Office of Grants and Training, Training Division, 
currently offers 104 courses to first responders through 45 training 
providers, including the Center for Domestic Preparedness (CDP) and the 
National Domestic Preparedness Consortium (NDPC). The majority of these 
courses are mobile training courses. The Training Division is 
dramatically increasing the number of web-based courses it offers in 
the coming months. The following courses have recently come on line or 
are scheduled to do so shortly. It is projected that more than 100,000 
responders will receive courses in this manner:
        1. American Red Cross is delivering 6 online courses providing 
        training on WMD awareness, Introduction to NIMS, Incident 
        Command System, and the NRP and other topics specific to non-
        government organizations. These courses are being delivered to 
        90,000 Red Cross volunteers and staff as well as other state 
        and local responders.
        2. American Medical Association is developing an online course 
        designed for the medical communities and their participation in 
        an incident of terrorism or catastrophic event. This course is 
        scheduled to be delivered to 5,000 medical professionals and 
        other responders.
        3. University of Memphis is developing nine online courses on 
        the topics of cybersecurity and the prevention of 
        cyberterrorism. These courses will be delivered to 7,000 
        information technology professionals and law enforcement 
        responders.
        4. Florida State University is developing an online learning 
        management system for the delivery of a suite of courses to 
        port security personnel. These courses will be available to 
        several thousand port security staff and other responders.
        5. George Washington University's National Nurse Emergency 
        Preparedness Initiative (NNEPI) is a web-based training 
        initiative for nurses, focused on providing opportunities for 
        dynamic and interactive application of both theory and practice 
        through scenario-based learning.
        6. Dartmouth University's Virtual Medical Incident Management 
        Institute is developing a standardized, interactive multimedia 
        ``course'' that can be used at any time or location to train. 
        It will train senior public health and medical professionals to 
        function effectively as critical participants in local and 
        inter-jurisdictional incident command structures and maximize 
        medical surge capacity and capability during WMD attacks.
        7. Dartmouth University's Virtual Terrorism Response Academy's 
        first course is ``Ops-Plus for WMD Hazmat.'' This interactive 
        course offers fire, EMS and law-enforcement personnel more than 
        16 hours of practical, engaging training about CBRNE (chemical, 
        biological, radiological, nuclear, and explosive) threats. 
        ``Ops-Plus'' features multiple videogame-style simulations that 
        put responders in tactical terrorism-response scenarios.
        8. Northwest Arkansas Community College is currently piloting 
        Terrorism and WMD Awareness in the Workplace, Emergency 
        Strengthening Cooperative Efforts Among Public and Private 
        Sector), Business Continuity and Emergency Management to 
        address rural preparedness challenges. These interactive 
        courses address unmet training needs in both private security 
        and public safety preparedness challenges in rural areas 
        nationwide.&
    It is important to note that awareness level courses are most 
suitable for both mobile training and web-based delivery. While 
performance level courses often require the use of expensive equipment 
or staging areas found at training provider facilities like New Mexico 
Tech, CDP, and NTS, web based and mobile training are used as a 
precursor to performance level classes.
    In addition, last year the CDP trained 30,802 students through 
mobile training efforts and 20,858 through train-the-trainer methods. 
These have been achieved through an aggressive outreach effort and 
satellite training operations in key Urban Areas in the U.S. This 
process is projected to continue, based on annual appropriations, as 
the scope of the CDP training programs broadens with G&Ts move into 
FEMA. In addition, the CDP will begin hosting online courses as well as 
web-supplemented courses designed as pre-qualification and/or 
sustainment training for the Nation's responders. The CDP currently is 
partnering with the Emergency Management Institute to deliver NIMS-
compliant ICS training across the U.S. This surge, implemented to meet 
the national preparedness goal is a major undertaking to assist state 
and local agencies in achieving DHS-mandated preparedness objectives. 
With the transfer of the Noble Training Center to the CDP, further 
partnerships and collaboration are possible and anticipated with the 
DHS Chief Medical Office, DHHS, CDC, and selected academic/professional 
entities.


    Question 51: Will you please describe the Competitive Training 
Grant Program and how it will strengthen and expand existing training 
programs?
    What is the Competitive Training Grant Program:
    The Competitive Training Grant Program (CTGP), in existence since 
FY 2004, is an initiative that seeks innovative solutions for emerging 
and unmet State and local first-responder training needs. It is 
conducted annually, based on a congressional appropriation, and accepts 
applications via grants.gov from State, local, tribal, and territorial 
governments; national associations and organizations; higher-education 
institutions; nonprofits, including community and faith-based 
organizations; and the private sector. A rigorous, competitive peer-
review process is used to select proposals of the highest quality and 
integrity. Final awards are made through cooperative agreements for 
periods up to 36 months.
    The Office of Grants and Training's (G&T) training division 
articulates specific focus areas for CTGP each year based on input from 
the field, training providers, and the Department of Homeland Security. 
These areas represent national priorities, training gaps, and emerging 
needs based on a dynamic threat environment. To enhance traditional 
delivery methods and to ensure that CTGP training courses are 
accessible to State and local responders throughout the Nation, 
applicants are encouraged to propose training that relies on a 
distributed and flexible training delivery model. This blended-learning 
approach supplements traditional classroom instruction with creative 
uses of Web-based and computer-based training, simulations, and video 
tele-training. Courses may also be offered locally or regionally to 
leverage expertise, share resources, and enhance training capacity.

    How will it strengthen and expand existing training programs?
    The Competitive Training Grant Program (CTGP) represents an 
important part of the Administration's larger, coordinated effort to 
strengthen homeland security preparedness. Because the CTGP addresses 
training gaps and can respond to national priorities and emerging 
threats, it builds on its core training program in a way that 
complements existing training. Since fiscal year 2004, the CTGP has 
yielded 40 awards in more than 15 different issue areas. Typically, 
multiple, mobile courses are developed under each award, providing 
accessible training to a large number of responders across the Nation. 
A large number of training programs under CTGP are train-the-trainer 
courses that provide the States with the capability to train an 
increased number of participants. In addition, proposed training 
programs must be innovative and distinct in comparison with current 
training offered by the National Domestic Preparedness Consortium, 
other Department of Homeland Security Office of Grants and Training 
training partners, other Federal agencies, and State and local training 
academies.

    Question 52: How does the Department of Homeland Security 
communicate with individuals and households to ensure that they are 
aware of their responsibility to prepare for events, particularly 
natural disasters for which we have warning?
    Do you believe that the Department should do more to educate U.S. 
residents of what they should do to prepare for events?
    What is the focus of the Ready Campaign? How does this program 
support the Nation's preparedness and response capabilities?
    Part one of the question: How does the Department of Homeland 
Security communicate with individuals and households to ensure that 
they are aware of their responsibility to prepare for events, 
particularly natural disasters for which we have warning?
    Answer: The Department of Homeland Security promotes individual, 
family, and business emergency preparedness through the Ready Campaign. 
Launched in February 2003, Ready is a national campaign designed to 
educate and empower Americans to prepare for and respond to emergencies 
including natural disasters and potential terrorist attacks.
    The campaign includes an effort to reach the Nation's individuals 
and families through Ready America, as well as has extensions for 
specific audiences. Ready Business helps owners and managers of small--
to medium-sized businesses prepare their employees, operations and 
assets. Ready Kids is a tool to help parents and teachers educate 
children ages 8--12 about emergencies and how they can help get their 
family prepared. Listo America, Listo Negocios and Listo Ninos are 
Spanish language versions of these Ready programs.
    The Department spreads the Ready Campaign's messages through media 
such as television, radio, print, outdoor and Internet public service 
advertisements (PSAs) developed and produced by the Advertising 
Council; more than a dozen brochures; the www.ready.gov and 
www.listo.gov Web sites; two toll-free phone lines, 1-800-BE READY and 
1-888-SE LIST; media outreach efforts; and partnerships with a wide 
variety of public and private sector organizations.
    We have been pleased with the campaign's ability to deliver its 
message and encourage Americans to take action. Since 2003, the 
campaign's Web sites have received more than 2 billion hits and more 
than 10 million Ready materials have been distributed. In addition, 
there have been indications of progress in changing the public's 
behavior on emergency preparedness. A national survey conducted in June 
2006 found 91 percent of Americans feel individual preparedness is 
important and 55 percent have taken steps to prepare.
    The Ready Campaign is currently funded (FY 2007) by Homeland 
Security's Office of Public Affairs and Office of Infrastructure 
Protection. For fiscal years 2004 through 2006, the Ready Campaign, 
including its extensions, Ready Business and Ready Kids and its Spanish 
language version, Listo have received $9.6 million in Federal funding. 
The campaign currently has a staff of two full-time Federal employees.
    Part two of the question: Do you believe that the Department should 
do more to educate U.S. residents about what they should do to prepare 
for events?
    Answer: The Department is pleased with the strides the Ready 
Campaign has made during the four years since it was created. The 
campaign's PSAs have received more than $618 million in donated media 
support; www.ready.gov has received more than 2 billion hits and 25.5 
million unique visitors; Ready's toll-free phone lines have received 
over 285,000 calls; and more than 10 million Ready materials have been 
distributed. In addition, a national survey conducted in June 2006 
found that from 2005 to 2006, the proportion of Americans who said they 
have taken any steps to prepare rose 10 points, from 45 percent to 55 
percent.
    While we are pleased with Ready's progress it is important to note 
that social change takes time. Other government social marketing 
efforts, like those conducted by the Department of Transportation to 
promote seat belt use and prevent drunk driving have taken decades to 
achieve their goals. Homeland Security knows that Ready still has a 
long way to go before it can meet all of its goals. That said, there is 
more all of us can do to encourage Americans to prepare for 
emergencies. In addition to building upon the Ready Campaign's success, 
the Department is also encouraging the public and private sectors to 
play key roles in helping to create a culture of preparedness in this 
country.
    Ready's message needs to be focused and re-emphasized on the state 
and local level to highlight local threats and plans. Over the past 
four years, we have seen major progress in this area. When Ready was 
created, only a handful of state and local efforts existed. Now nearly 
every state and major city is doing something to get their residents 
prepared for emergencies. To build on these initiatives, Homeland 
Security funding can now be used by state and local governments to 
create their own citizen preparedness campaigns. In addition, the 
Department is working to use Ready's resources and experience to assist 
these governments with their own focused message. For example, the 
campaign is the model for cities and states to tailor and localize 
their own Ready advertisements to direct viewers to specific local 
preparedness resources.
    The Department has also established joint efforts with a wide 
variety of private sector organizations to help spread the Ready 
message. For example, since 2003, Minor League Baseball and the Boy 
Scouts of America have supported the campaign by distributing Ready 
brochures at ball parks across the Nation.
    Homeland Security places a special emphasis on the issue and our 
public and private sector partners during National Preparedness Month. 
National Preparedness Month is a nationwide effort held each September 
to encourage Americans to take simple steps to prepare for emergencies 
in their homes, businesses and schools. During 2006, more than 1,370 
national, regional, state and local organizations took part in the 
designated month by distributing information, hosting more than 900 
events and sponsoring activities across the country to promote 
emergency preparedness. We hope the 2007 effort will be even more 
successful.
    Part three of the question: What is the focus of the Ready 
Campaign? How does this program support the Nation's preparedness and 
response capabilities?
    Answer: Launched in February 2003, Ready is a national campaign 
designed to educate and empower Americans to prepare for and respond to 
emergencies including natural disasters and potential terrorist 
attacks. The goal of the campaign is to get the public involved and 
ultimately to increase the level of basic preparedness across the 
Nation. The philosophy behind Ready is that if we get our citizens who 
can prepare to do so, it will free up valuable response resources for 
those who cannot help themselves or are in dire straits during an 
emergency. The Department feels that by building the preparedness level 
of individuals, families, businesses and communities we make our Nation 
more secure, strong and resilient.
    The Ready Campaign supports the Nation's preparedness and response 
by encouraging Americans to prepare and providing individuals, families 
and businesses with tools to assist them in their preparedness efforts. 
The campaign's Web sites at www.ready.gov and www.listo.gov and 
brochures contain information and templates that help families get an 
emergency supply kit, make a family emergency plan and be informed 
about the different types of emergencies that could occur and how to 
respond. These resources also have tools that can assist owners and 
managers of small- to medium-sized businesses in developing a business 
continuity plan, talking to their employees about preparedness and 
protecting their assets.

                                 <all>

</pre></body></html>
